<html>
<title> - THE STATUS OF METHYL BROMIDE UNDER THE CLEAN AIR ACT AND THE MONTREAL PROTOCOL</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 THE STATUS OF METHYL BROMIDE UNDER THE CLEAN AIR ACT AND THE MONTREAL 
                                PROTOCOL

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2003

                               __________

                           Serial No. 108-55

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                               __________

87-491              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
  Vice Chairman                      PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Energy and Air Quality

                      JOE BARTON, Texas, Chairman

CHRISTOPHER COX, California          RICK BOUCHER, Virginia
RICHARD BURR, North Carolina           (Ranking Member)
ED WHITFIELD, Kentucky               ALBERT R. WYNN, Maryland
CHARLIE NORWOOD, Georgia             THOMAS H. ALLEN, Maine
JOHN SHIMKUS, Illinois               HENRY A. WAXMAN, California
  Vice Chairman                      EDWARD J. MARKEY, Massachusetts
HEATHER WILSON, New Mexico           RALPH M. HALL, Texas
JOHN SHADEGG, Arizona                FRANK PALLONE, Jr., New Jersey
CHARLES W. ``CHIP'' PICKERING,       SHERROD BROWN, Ohio
Mississippi                          BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              KAREN McCARTHY, Missouri
STEVE BUYER, Indiana                 TED STRICKLAND, Ohio
GEORGE RADANOVICH, California        LOIS CAPPS, California
MARY BONO, California                MIKE DOYLE, Pennsylvania
GREG WALDEN, Oregon                  CHRIS JOHN, Louisiana
MIKE ROGERS, Michigan                JOHN D. DINGELL, Michigan
DARRELL ISSA, California               (Ex Officio)
C.L. ``BUTCH'' OTTER, Idaho
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Brown, Reginald, Vice-President, Florida Tomato Exchange.....    47
    Doniger, David D., Policy Director, Climate Center, Natural 
      Resources Defense Council..................................    72
    Holmstead, Hon. Jeffrey R., Assistant Administrator for Air 
      and Radiation, Environmental Protection Agency; accompanied 
      by Hon. Jeffrey M. Burnam, Deputy Assistant Secretary for 
      Environment, Bureau of Oceans and International 
      Environmental and Scientific Affairs, U.S. Department of 
      State; and Hon. Rodney J. Brown, Deputy Under Secretary for 
      Research, Education and Economics, U.S. Department of 
      Agriculture................................................    11
    Mellano, H. Michael, Senior Vice President, Mellano and 
      Company....................................................    56
    Noling, Joseph W., University of Florida, Florida Cooperative 
      Extension Service, Citrus Research and Education Center, 
      Institute of Food and Agricultural Sciences................    62
    Norton, Jack, Manager, Interregional Research Project No. 4, 
      Methyl Bromide Alternatives Program........................    69
    Pauli, Bill, President, California Farm Bureau Federation....    42
    Siemer, Richard C., President, Siemer Milling Company........    52
Additional material submitted for the record:
    American Forest and Paper Association, prepared statement of.    89
    Barton, Hon. Joe, letter dated May 29, 2003, to Hon. 
      Christine Todd Whitman, requesting information.............    88
    Environmental Protection Agency, response for the record.....    91
    National Grain and Feed Association, prepared statement of...    88

                                 (iii)

  

 
 THE STATUS OF METHYL BROMIDE UNDER THE CLEAN AIR ACT AND THE MONTREAL 
                                PROTOCOL

                              ----------                              


                         TUESDAY, JUNE 3, 2003

                  House of Representatives,
                  Committee on Energy and Commerce,
                    Subcommittee on Energy and Air Quality,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2322, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Present: Representatives Barton, Whitfield, Norwood, 
Shimkus, Radanovich, Bono, Issa, Otter, Boucher, Allen, Hall, 
McCarthy, Strickland, and Capps.
    Also Present: Representatives Bilirakis and Stearns.
    Staff Present: Andy Black, policy coordinator, and Bob 
Meyers, majority counsel; Peter Kielty, legislative clerk; 
Michael Goo, minority counsel, and Bruce Harris, minority 
professional staff member.
    Mr. Barton. The subcommittee will come to order. We are 
going to begin as soon as we have a quorum and the quorum is at 
least one Republican and one Democrat. We are expecting 
Congressman Boucher shortly. So as soon as he gets here we will 
start. And if our witnesses will go ahead and be seated, we 
will start very quickly.
    Subcommittee will come to order. Without objection, the 
subcommittee will proceed pursuant to Committee Rule 4(e), 
which governs opening statements by members, the opportunity to 
defer them for extra questioning time. Is there any objection?
    Mr. Boucher. No.
    Mr. Barton. Hearing none, so ordered.
    Prior to recognition of the first witness for testimony, 
any member when recognized for an opening statement may 
completely defer his or her 3-minute opening statement and 
instead use those 3 minutes during the initial round of 
questioning. The Chair is going to recognize himself for an 
opening statement.
    I want to welcome all of our witnesses here today. This is 
a very popular hearing. We have several Congressmen from other 
committees who are here to monitor the hearing. We have 
excellent administration witnesses and excellent private sector 
witnesses. The issue of methyl bromide is important to many 
members of the committee and subcommittee. Congressmen 
Radanovich, Issa, Blunt, Bilirakis, Stearns, Upton, Hall and 
others have taken a vital interest in this matter. Also want to 
thank Congressman Boucher, my ranking member, for his 
assistance in putting together the hearing.
    The members outside this committee, as I have already 
mentioned, are very concerned regarding the impact that a 
phaseout of methyl bromide could have on agriculture, port and 
other operations affecting their districts and the Nation at 
large.
    We are going to hear from the administration what their 
issues are concerning the upcoming meetings of the parties to 
the Montreal Protocol at which these issues will be discussed. 
Committee staff has reviewed the most recent documents 
concerning the report of the Technology and Economic Assessment 
Panel on Critical Use nominations for methyl bromide as well as 
the 2002 assessment for the Methyl Bromide Technical Options 
Committee. The committee is aware of the criticisms in these 
reports, including the length of time which was spent reviewing 
the U.S. Critical Use nominations, large amount of such 
nominations for which the TEAP has not cited to recommend 
approval but for which it has requested more information.
    It is obvious that the uncertainty over future availability 
of methyl bromide has caused great concern in many corridors. 
We hope today to gain a fuller understanding of the current 
status of methyl bromide under the Montreal Protocol and the 
Clean Air Act. To initiate that process, I have sent several 
questions to the EPA requesting information relevant to the 
issue, and I would ask that when those answers are available 
they will be made part of the record.
    After today's hearing, I fully expect there will be 
additional questions and members of the panel will have 
additional questions. It would be my intention to leave the 
record open for a reasonable period of time to accommodate the 
receipt of answers in writing to these requests as well as 
other information and testimony the subcommittee may receive.
    We need to let the facts tell the story and we need to let 
any policy judgments flow from accurate information. In the 
House of Representatives the matter of the Montreal Protocol 
and Title VI of the Clean Air Act is within the sole 
jurisdiction of the Energy and Commerce Committee, and this 
subcommittee to be specific.
    This matter is unique since it represents a treaty 
commitment of the United States. The commitment was initially 
ratified by the Senate in 1986 and in 1988 and then further 
amended again by Senate ratification in 1991 and 1994 of 2 of 
the 4 amendments which the Montreal Protocol parties have since 
adopted.
    To put it in Texas terms, this is no small matter. Serious 
business. You can be assured that this subcommittee will 
approach this issue and any other issue respecting the treaty 
and the Clean Air Act with the requisite thoroughness and 
seriousness of purpose and also with the requisite detail to 
the Protocol in working with treaty obligations of the U.S. 
Government.
    So I am very happy to have these witnesses and I look 
forward to hearing their testimony, and I would like to 
recognize the ranking member from Virginia, Mr. Boucher, for an 
opening statement.
    Mr. Boucher. Thank you, Mr. Chairman. I want to commend you 
for convening today's hearing on the status of methyl bromide 
use and the impending phaseout of the product in the United 
States.
    Methyl bromide has been used for many years primarily as a 
pesticide and herbicide in agricultural activities. While the 
substance is extremely effective as a soil fumigant, post 
harvest fumigant and structural fumigant, methyl bromide is 
also recognized as an ozone depleting substance. As a result of 
that clarification, the reduction of methyl bromide use was 
addressed by the Montreal Protocol on substances that deplete 
the ozone layer and the substance was placed on a phaseout 
schedule, with the United States expected to reach zero percent 
production and consumption in January of 2005. Under the 
Montreal Protocol, the United States agreed to a phaseout 
schedule which would result in reductions of 25 percent in 
1999, 50 percent in the year 2001, 70 percent in the year 2003, 
going to 100 percent by the year 2005.
    In 1998, as part of the appropriations process, the 
Congress amended the Clean Air Act to harmonize the phaseout 
schedule for methyl bromide in the United States with the 
schedule that was set forth in the Montreal Protocol.
    Under the treaty, nations may apply for critical use 
exemptions from the phaseout schedule, and in February of this 
year the United States applied for a total of 54 exemptions for 
methyl bromide. The protocol's Technical and Economic 
Assistance Panel is reviewing the applications for exemption 
that have been filed by the United States and by other nations 
that are parties to the treaty, and it is expected that by 
November of this year the parties to the Protocol will make 
final decisions with respect to the applications that have been 
filed by the United States and by other countries.
    Today's hearing offers a timely focus on whether reliable 
nonozone depleting alternatives to methyl bromide are being 
developed and whether those alternatives after development will 
be made commercially available in time to permit the 2005 
phaseout schedule to occur without injury to the many users in 
the United States of methyl bromide. If alternatives are not 
expected for all current methyl bromide applications in time to 
prevent harm to the agricultural and other users of the 
chemical, today's hearing will develop a record of those facts 
which can then be used to support the application for 
exemptions that have currently been filed by the U.S. And 
potentially could support the taking of other steps that will 
prevent harm to the current users.
    This truly is a timely hearing, and I want to commend the 
chairman for scheduling this and for inviting the participation 
of outstanding witnesses, and I would like to join with the 
chairman in welcoming our witnesses today.
    Mr. Barton. Does the gentleman from Illinois wish to make 
an opening statement?
    Mr. Shimkus. I would, Mr. Chairman.
    Mr. Barton. The gentleman is recognized for 3 minutes.
    Mr. Shimkus. I would like to take this opportunity to 
welcome one of my constituents, Rich Siemer of Siemer Miller, 
which has a plant in my district, which is Teutopolis, 
Illinois, and we flew in this morning together. They also have 
facilities in Hopkinsville, Kentucky, and Gainesville, 
Missouri, which is Roy Blunt's district. So I bring welcomes 
from all three members who all actually serve on the full 
committee in the Commerce Committee. And I have had a chance to 
tour the plant in Teutopolis and learned a lot about soft 
wheat, which I didn't know much of until I got a chance to 
tour. And since I am an aficionado of Hostess cupcakes, it is 
good to know that that it is all soft wheat and it is milled 
right there in my congressional district.
    We all know the issue of debate. The issue is the 2005 time 
line for the elimination of methyl bromide, the fact that there 
is really no alternative out there as we speak and that it has 
been a very successful fumigant against bugs, not just ones we 
have now but ones that will be coming across our country 
borders, which we know is happening all around the country. So 
this is a very, very important hearing.
    There is also going to be debate and discussions on the 
fund and exemptions maybe some countries are receiving versus 
exemptions that the United States may be receiving, and I hope 
we get a chance to fully address some of these concerns. I 
think there is going to be a concerted effort here in 
Washington, DC. To address the critical use aspect of methyl 
bromide and a very concerted effort to make sure that we don't 
throw the baby out with the bath water and do more harm, 
especially to the agricultural sector, because of some 
policies.
    And, Mr. Chairman, I thank you for giving me that time to 
welcome one of my constituents and I yield back.
    Mr. Barton. Does the gentlelady from California wish to 
make an opening statement?
    Mrs. Capps. I do, Mr. Chairman.
    Mr. Barton. The gentlelady is recognized for 3 minutes.
    Mrs. Capps. Mr. Chairman, I thank you for your interest in 
this important subject and for holding this very timely 
hearing. There are a number of people in the room will testify 
to the importance of this topic and I want to acknowledge Bill 
Pauli from the California Farm Bureau, who is here, among many 
others.
    These are difficult issues which face our farming and 
growing communities with the coming phaseout of methyl bromide. 
Methyl bromide is very important for the production of many 
current farm products, especially strawberries and cut flowers, 
and I cite two examples. Strawberries are the highest growing 
product in my district, the 23rd Congressional District in 
California, and cut flowers are also very significantly 
affected with methyl bromide.
    I am a public health nurse as well and I do worry about the 
highly toxic nature of methyl bromide and the harmful effects 
its continued use creates. And I picture in my mind fields 
abutting school yards and suburban encroachment into 
agriculture areas, so that creates even more agricultural 
hazards.
    First, according to the Environmental Protection Agency, 
the pesticide may be hazardous to the health of those exposed, 
notably farm workers who work in the field where it is applied. 
In fact, last month the National Cancer Institute linked methyl 
bromide to increased rates of prostate cancer among 
agricultural workers and pesticide applicators.
    Second, the drift, as I mentioned, of methyl bromide fumes 
into nearby communities, including school yards, is very 
problematic. It can cause irritation to the eyes and skin, 
dizziness and headaches and other health related harms, like 
kidney, heart and lung problems.
    In addition to endangering human health, the use of methyl 
bromide contributes to the destruction of the ozone layer. 
According to scientists, methyl bromide is at least 50 times 
more destructive to the ozone layer than CFCs, which are 
already banned from production, and it is probably responsible 
for between 5 and 10 percent of the worldwide ozone depletion, 
which affects agricultural communities as well.
    More than 180 countries have signed the Montreal Protocol 
and agreed to a global phaseout of the pesticide. I believe the 
United States must stick to its goal of 100 percent phaseout of 
methyl bromide by 2005. To meet the phaseout goal, further 
investment in research is critical and crucial. This would lead 
to the development of safe pesticides to minimize harm to the 
environment while keeping our Nation's farmers and growers 
employed and productive. And after the complete phaseout of 
methyl bromide in 2005 we must allow for the fair application 
of critical use exemptions when no safer alternatives are 
available.
    Mr. Chairman, since coming to Congress I have been working 
to find a balance between agriculture's need and public health 
concerns. I have worked with other rural representatives and 
farm groups regarding safer post-harvest uses of methyl bromide 
like clarifying that walnut growers can spray the pesticide 
after the crops are picked but before they are shipped to 
consumers, thus decreasing the amount used. Crop management 
techniques are also available to assist growers with the 
transition away from methyl bromide. And I look forward to 
working with all members of the committee in exploring this 
issue further.
    Again I want to thank you, Mr. Chairman, for holding this 
hearing, and I look forward to the testimony of our witnesses. 
I yield back.
    Mr. Barton. I thank the gentlelady. Mr. Issa wish to make 
an opening statement?
    Mr. Issa. Yes, I do.
    Mr. Barton. The gentleman is recognized for 3 minutes.
    Mr. Issa. Thank you, Mr. Chairman, and I will submit an 
official opening statement for the record so I won't say again 
what has been said already on both sides of the aisle. I am 
going to enjoy listening to this panel, and I have the 
privilege of having one of my own constituents and a major 
grower of cut flowers in the next panel. It has been my 
experience working with Dr. Mellano and many of the other 
growers in my district to have a keener understanding of the 
competitive environment that also fits into play with our 
hearing today and our final decision on whether or not to allow 
the United States to find themselves at a competitive 
disadvantage to their neighbors.
    Mr. Chairman, as you know, I was a businessman for 20 years 
before coming to Congress, so I consider that one of the few 
unique rights I have is to second guess bad business decisions 
made on behalf of the United States by people negotiating, not 
the least of which what happened in Montreal. To have an 
industry like cut flowers, the largest agricultural employer in 
my district and representing $6.5 billion in California, keenly 
in competition with South and Central America, plus Mexico, be 
told that without a substitution they are going to find 
themselves phased out in 2005 while the yields in productivity 
of neighbors just literally walking distance to the south of my 
district will have a competitive advantage is unheard of and 
unthinkable.
    I very much support finding an alternative to methyl 
bromide. I certainly share with Ms. Capps her concerns and a 
desire to phase the use of this product out as soon as 
possible. But if I can give an analogy that I think is 
appropriate here, the internal combustion engine depletes the 
ozone layer. It puts out a great many harmful substances. And 
although we have made a concerted effort to reduce the 
emissions from all forms of fossil fuel burners, we have not 
sought either to ban it outright without an alternative or, 
worse than that, to say Americans should walk while the rest of 
the world rides.
    Mr. Chairman, I hope as we go through this hearing we can 
keep in mind that this is as much about competitive advantage 
for the United States or disadvantage as it is about the core 
question of how to replace methyl bromide. I yield back the 
balance of my time.
    [The prepared statement of Hon. Darrell E. Issa follows:]

 Prepared Statement of Hon. Darrell Issa, a Representative in Congress 
                      from the State of California

    Mr. Chairman, I want to thank you for holding today's oversight 
hearing on the status of methyl bromide under the Clean Air Act and the 
Montreal Protocol. Today's hearing is especially important to my 
district and home state, where agriculture plays such an important role 
in our local and state economy.
    California is the nation's leader in the production of fresh 
fruits, vegetables, dried fruits and nuts, as well as many other field 
crops. California is also one of the largest users of methyl bromide in 
the United States. Methyl bromide is used to produce disease and pest-
free planting material and to comply with regulatory requirements in 
California. Methyl bromide is a highly effective fumigant used to 
control insects and weeds. Its primary uses are for soil fumigation, 
post-harvest protection, and quarantine treatments. At this time, 
farmers throughout the United States and in most parts of the world do 
not have an acceptable alternative to methyl bromide.
    In California, nursery plants are the fourth largest crop--
accounting for $6.5 billion in sales each year. This industry is the 
largest crop in my congressional district. Currently, only methyl 
bromide has shown the ability to penetrate dense tissue such as bulbs 
to assure effective control of soil-borne diseases and pests. The 
existence of this industry depends on the availability of this 
fumigant. Without methyl bromide or suitable substitutes, both domestic 
and foreign markets could be closed to California agricultural 
products, causing our agricultural industry to suffer immense financial 
losses.
    A few years ago, the United States agreed to ratify the Montreal 
Protocol with the understanding that alternatives for methyl bromide 
would be available to our farmers and growers. At this time, there is 
no viable alternative. Our agricultural industry is in a very difficult 
predicament. Later this year, the countries associated with the 
Montreal Protocol, including the U.S., will decide whether exemptions 
for the phase-out of methyl bromide will be authorized for 2005 alone 
or for more than one year.
    Mr. Chairman, I would like to thank you for including one of my 
constituents on today's witness list. Michael Mellano, owner of Mellano 
and Company, will be sharing the difficulties that the floral industry 
will be facing if methyl bromide is eliminated without an alternative. 
Mr. Mellano has a Ph.D. in Plant Pathology from University of 
California, Riverside and has been actively involved in the floral 
industry for over fifty years. Mellano and Company farms more than 625 
acres in Southern California, producing more than four million bunches 
of fresh flowers and foliage from their fields. His testimony will 
provide a growers' perspective regarding the Montreal Protocol's 
mandatory phase-out of methyl bromide and explain why a critical use 
exemption is needed.
    I encourage the Administration to become engaged in the methyl 
bromide debate and play a more active role in representing the interest 
of U.S. agriculture. The U.S. must have a sensible alternative to 
methyl bromide before its use is banned.
    Again, I thank the chairman for holding this hearing on this 
important issue.

    Mr. Barton. Does the gentleman from Maine wish to make an 
opening statement?
    Mr. Allen. I do, Mr. Chairman.
    Mr. Barton. The gentleman is recognized for 3 minutes.
    Mr. Allen. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    The Montreal Protocol is one of the most successful 
international environmental regimes ever created. The 1987 
treaty aimed at phasing out the use of chemicals known to 
damage the ozone layer has conclusively helped the Earth's 
stratospheric protective shield to recover. However, we are by 
no means out of the woods. According to the most recent United 
Nations environment program report, concentrations of ozone 
depleting gases in the atmosphere remain extremely high. The 
Montreal Protocol depends on its 183 ratifying countries to 
comply with mandatory phaseouts of ozone depleting substances, 
but little enforcement mechanism. If any single party fails to 
comply with the regime, the regime may fail.
    The treaty allows for exemptions to its chemical use bans 
in situations where the chemicals are considered of critical 
use. Clearly it makes sense to allow some exceptions to an all 
out ban. We should not ban asthma inhalers because they still 
use chlorofluorocarbons, but exemptions have the potential to 
be abused, defeating the effectiveness of the entire regime. 
For instance, the Clean Air Act exempts old dirty power plants 
from many of its requirements and as result dirty air in this 
country still accounts for thousands of deaths and 
hospitalizations a full 33 years after the act was passed.
    Methyl bromide has some critical uses, but it is a powerful 
ozone depleting gas. U.S. Businesses have requested that 62 
percent of methyl bromide consumption in the United States be 
considered critical and the administration presented a critical 
use nomination requesting exemptions for 39 percent of 
consumption. At such a high percentage, the exception would 
become the rule.
    The threat of ozone depletion is known, it is real and we 
must uphold our commitment to address it. We should not back 
out of our commitments to reduce emissions at this time without 
very good reason. We should make every effort to meet the 
deadline set within the Montreal Protocol.
    Mr. Chairman, I thank you for holding the hearing, and I 
thank the witnesses and I look forward to their testimony.
    Mr. Barton. Does the gentlelady from California wish to 
make an opening statement?
    Mrs. Bono. Thank you, Mr. Chairman. I will just submit my 
written remarks for the record, but I would like to thank you 
for holding this hearing, which is very important to my 
district, and I want to thank our witnesses in advance for 
being here today and yield back my time.
    [The prepared statement of Hon. Mary Bono follows:]

Prepared Statement of Hon. Mary Bono, a Representative in Congress from 
                        the State of California

    Thank you Mr. Chairman for holding this hearing today. As 
agriculture is the number one industry in California's 45th 
Congressional District, I am especially concerned about the matter at 
hand.
    Methyl bromide, a soil fumigant, is critical to the production of 
over 100 crops in the U.S. as a combatant of weeds, fungal pathogens 
and other pests. The agriculture industry is combating a probable 70% 
reduction in methyl bromide production since 1998. Additional phase 
outs will further burden the industry.
    Since 1992, even with extensive agricultural research being 
conducted, there have been no feasible alternatives developed to 
replace methyl bromide in fruit and vegetable production practices. As 
you can see, we need to consider allowing our growers be able to 
continue use of methyl bromide as we actively continue to search for 
alternatives that are equally affective and available.
    I appreciate the need to improve upon and live up to the current 
Clean Air Act as well as the Montreal Protocol. It is critical to be 
mindful of taking the appropriate and meaningful steps to improve our 
air quality. So, it is my hope that we can find a balance between 
preventing pests from invading our crops and protecting America's 
agriculture industry with that of working to find alternatives that 
will be better for our environment.
    Thank you Mr. Chairman and I yield back the balance of my time.

    Mr. Barton. The gentlelady will get 3 additional minutes on 
the question period. Does the gentleman from Georgia wish to 
make an opening statement?
    Mr. Norwood. Thank you, Mr. Chairman, for having this 
hearing. I look forward to it and I will submit for the record.
    Mr. Barton. The gentleman gets 3 additional minutes. Does 
the gentleman from Idaho wish to make an opening statement?
    Mr. Otter. I will submit mine.
    [The prepared statement of Hon. C.L. ``Butch'' Otter 
follows:]

 Prepared Statement of Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Thank you, Mr. Chairman, for holding this hearing today. As our 
economy begins to recover, it is more important than ever that the 
United States maintain an abundant and reliable energy supply. While 
the Energy Policy Act passed earlier this year will go a long way 
toward achieving this goal, hearings like the one we're conducting 
today will help us to see what additional effort must be taken, if any.
    Over the past several years, government policies have seemed to 
encourage the use of natural gas for environmental reasons as well as 
for energy efficiency. But those policies have not been updated to 
reflect new exploration and production technologies, most of which 
minimize environmental disruption while maximizing resource recovery. A 
consequence of these out-of-date policies has been to constrain the 
supply of gas despite growing market demand.
    It is my understanding that there are plentiful natural gas 
supplies throughout the United States and Canada. However, many of the 
existing wells that have provided so much natural gas at reasonable 
prices are becoming depleted. Production must migrate to new areas and 
we must have the federal policies in place to allow the development of 
new sources.
    Mr. Chairman, I look forward hearing from our witnesses today, to 
gain a better understanding of the outlook for natural gas in the 
United States.

    Mr. Barton. So he gets 3 additional minutes.
    [Additional statements submitted for the record follow:]

 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    I want to welcome our witnesses today and thank Chairman Joe Barton 
for scheduling this hearing concerning the legal status of methyl 
bromide.
    I also want to acknowledge the strong interest of several members 
of this Committee in having today's hearing. I understand that many of 
my colleagues have constituents who have used methyl bromide in farming 
and other agricultural uses for many years and who are greatly 
concerned with the prospect that this broad-spectrum fumigant may be 
phased out under the Montreal Protocol and the Clean Air Act.
    As many of you in this room know, the roots of this situation 
extend back to 1986 when the United States ratified the Vienna 
Convention. This action was followed by ratification of the Montreal 
Protocol in 1988 and enactment of Title VI of the Clean Air Act in 
1990. These actions set the legal table, so to speak, for subsequent 
decisions and actions respecting methyl bromide.
    Many have taken issue with the implementation of the Protocol and 
this committee has played a vital and consistent role in overseeing 
these matters. In August 1995, the Subcommittee on Oversight and 
Investigations held a hearing with respect to science of ozone 
depletion and the overall implementation of Title VI. This hearing was 
followed hearings held by the former Health and Environment 
Subcommittee in January 1996, July 1997 and May 1998. At each of these 
hearings, Members of this Committee questioned Administration witnesses 
concerning the positions taken by our country in the Montreal Protocol 
negotiations and examined the impact of these decisions on U.S. law and 
regulations.
    Today, we are back, looking again at the interaction of the 
Montreal Protocol and the Clean Air Act. We are well aware that 
upcoming decisions may be critical regarding methyl bromide use in this 
country. But we are equally aware that these decisions have not yet 
been made. So now is the time to ask questions and to probe deeply. We 
need to get all the facts on the table and to hear from our 
Administration and a variety of perspectives in the private sector. 
This committee has done that in the past, will do it today, and indeed, 
will continue its review after today's hearing has concluded. This is 
the committee of sole jurisdiction over this matter in the House of 
Representatives and it takes that responsibility seriously. I look 
forward to the testimony of our witnesses.

                                 ______
                                 
Prepared Statement of Hon. Albert R. Wynn, a Representative in Congress 
                       from the State of Maryland

    Mr. Chairman, I look forward to hearing witness testimony 
addressing alternatives to methyl bromide and the status of finding an 
environmentally safe alternative. In the mid 1980's, scientists became 
concerned that emissions of methyl bromide, a pesticide widely used in 
agriculture could become a major pollutant that could contribute to the 
depletion of the earth's ozone, a shield that protects the earth's 
surface from harmful ultraviolet radiation.
    About 76,000 metric tons of Methyl Bromide are manufactured 
globally each year primarily for agricultural uses. Used extensively 
for pre-planting, post-harvest, quarantine and pre-shipping treatments, 
Methyl Bromide plays an important economic role in United States' 
agricultural commerce.
    In response to concerns over the ozone, the United States and other 
governments signed the Montreal Protocol on Substances that Deplete the 
Ozone Layer. Consequently, industrialized countries agreed in this 
treaty to phase out Methyl Bromide production by January 1, 2005. There 
would be interim production cutbacks of 25% by 1999, 50% by 2001 and 
75% by 2003.
    Many domestic users of methyl Bromide have petitioned Congress to 
amend the Clean Air Act to extend United States phase out of its 
production from January 1, 2005 to January 1, 2015. Before this 
extension is granted, I believe that there are some significant 
questions to ask about alternatives to Methyl Bromide. At this time, 
there is no single alternative to replace Methyl Bromide. However, 
there are several alternatives to replace Methyl bromide based upon 
specific agricultural crops. Unfortunately, these alternatives are not 
yet fully developed and may be costly to produce. We need to examine 
ways to make the alternatives to methyl bromide more cost effective.
    While Methyl Bromide does not pollute the ground, some of these 
substitutes do have the potential to pollute the ground. We should 
examine whether additional funding is needed for research to find a 
more viable environmentally friendly alternative.
    Mr. Chairman, I appreciate your attention to this matter. I look 
forward to hearing from the day's witnesses.

                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Mr. Chairman, I commend you for holding this hearing today and find 
it timely, given the important decisions that will be made in the 
coming months over the use of methyl bromide in this country.
    Implementation of the Montreal Protocol has been successful with 
regard to the phase-out of ozone-depleting substances and there are 
indications the ozone hole is no longer growing. But methyl bromide 
presents us with difficult challenges. There is no doubt that methyl 
bromide is indeed extremely toxic and that it has a well-demonstrated 
negative effect on the ozone layer. The question remains as to how 
quickly we can move U.S. agriculture away from its use without causing 
undue harm.
    If one reviews the hearings held in the Committee in the 104th 
Congress, the challenges cited then and those cited now are essentially 
the same. Technically and economically viable alternatives remain 
crucial to U.S. agriculture's ability to move beyond methyl bromide 
use. While testimony that we will hear today indicates that great 
progress has been made, it is also evident that we still have work to 
do, which brings me to the critical use exemptions that the United 
States has submitted for review.
    I understand that there is disagreement over the number of 
exemptions that the United States has asked for and I hope that the 
testimony of our witnesses will enlighten us as the appropriateness of 
the U.S. requests and their current status. Wherever one comes down on 
the question of how much is enough, however, we all recognize that a 
good many U.S. farmers depend on the responsible use of methyl bromide 
and that in many cases, viable alternatives are not yet available. 
Therefore some critical use exemptions must be granted.
    I thank the Departments of Agriculture and State, and the 
Environmental Protection Agency, for working together to submit a 
credible proposal for exemptions. I am, however, dismayed that many of 
these applications have resulted in requests for further information 
and that this has led to considerable uncertainty for our farmers. This 
Subcommittee should be vigilant in monitoring the very important 
decisions that will be made in the coming months to ensure that both 
our farmers and our environment receive appropriate protection.

                                 ______
                                 
Prepared Statement of Hon. Lee Terry, a Representative in Congress from 
                         the State of Nebraska

    Chairman Barton, Ranking Member Boucher, and Members of the 
Subcommittee:
    Thank you for holding this important hearing. As this Subcommittee 
examines the potential effects of a phase-out of methyl bromide--and 
efforts to find a viable replacement--I wish to highlight the 
importance of this product to my State of Nebraska.
    Methyl bromide is an extremely effective crop protection tool. 
Nationwide, it is used as a fumigant on more than 100 crops. In 
Nebraska, methyl bromide is used primarily as a grain fumigant to 
control such pests as the Indian meal moth, the granary weevil, red 
flower beetle and the sawtooth grain beetle. While it is mostly used on 
the commercial side of the grain industry, it is also important to 
farmers who store their crops in grain elevators and feed mills, 
assuring the finest quality to our ultimate customers.
    As I understand it, methyl bromide is one of a number of gases 
linked to the depletion of the atmosphere's ozone layer. Under the 
Montreal Protocol, it is to be phased out by the United States by 
January 1, 2005, while less industrialized countries, such as Mexico, 
are not forced to ban its use until 2015. This puts our food producers 
and processors at a severe disadvantage.
    Nebraska ranks sixth in the U.S. in total agricultural exports and 
is one the top cattle feeding states. We must permit some reasonable 
degree of methyl bromide use until viable alternatives are found. Our 
competitive edge in world markets will again be damaged if the product 
is allowed in other countries but not in the United States.
    Farmers and food processors across the country are becoming 
increasingly aware of the issues surrounding the ban on methyl 
bromide--now only 19 months away from its scheduled implementation. One 
such issue is the strength of science behind the phase-out of this 
product. Recent scientific findings suggest that methyl bromide is, at 
most, a very small contributor to any ozone depletion.
    A second issue is the lack of alternatives to methyl bromide. 
According to experts in entomology and nematology, none of the 
alternatives to methyl bromide have performed as well. These experts 
predict sizable loss in productivity if methyl bromide is phased out 
completely. I support the funding of research to find viable 
alternatives. But before we completely eliminate methyl bromide, its 
replacement must meet the economic and effective thresholds our 
agricultural producers require.
    Because of these concerns, I am hopeful that the Administration 
will initiate a prompt extension of the phase-out. If this does not 
happen, legislation may be necessary to a freeze the phase-out level. 
While we must protect the environment, we should do so in a manner than 
does not harm the nation's farmers and food processors, or give an 
advantage to their competitors.
    Again, I commend the Chairman for examining this issue. Thank you.

    Mr. Barton. Seeing no other members present, we are going 
to welcome our first panel, administration officials. 
Understand that Mr. Holmstead is going to speak for the group 
and we are going to give you such time as you may consume, and 
we are told that is about 10 minutes.
    Mr. Holmstead. I hope it will be less than that.
    Mr. Barton. We are all ears and welcome to the 
subcommittee.

      STATEMENTS OF HON. JEFFREY R. HOLMSTEAD, ASSISTANT 
 ADMINISTRATOR FOR AIR AND RADIATION, ENVIRONMENTAL PROTECTION 
AGENCY; ACCOMPANIED BY HON. JEFFREY M. BURNAM, DEPUTY ASSISTANT 
 SECRETARY FOR ENVIRONMENT, BUREAU OF OCEANS AND INTERNATIONAL 
ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE; 
AND HON. RODNEY J. BROWN, DEPUTY UNDER SECRETARY FOR RESEARCH, 
    EDUCATION AND ECONOMICS, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holmstead. Thank you, Mr. Chairman, and thank you all 
for the opportunity to testify before you on the issue of 
methyl bromide. As you know, the Environmental Protection 
Agency has worked very closely with the Department of State and 
the Department of Agriculture. And so in the interest of time I 
will be presenting testimony today on behalf of not only EPA 
but also Rodney Brown from the Department of Agriculture and 
Jeff Burnam from the State Department. This may be the only 
chance I ever get to testify on behalf of the State Department, 
so if you have any questions about foreign policy issues, I 
would be happy to----
    Mr. Barton. Don't egg us on.
    Mr. Holmstead. I would like to begin by putting methyl 
bromide in the context of our ongoing efforts to protect the 
ozone layer. While still a work in progress, the global 
phaseout of ozone depleting chemicals has been a tremendous 
success. Take this room for example. We are surrounded by 
things that were once made by ozone depleting substances: The 
foam on the chairs we are sitting on, the air conditioning that 
cools this building, the finishes that were used to laminate 
this table and those chairs. All of those things were made with 
CFCs. Today there are nonozone depleting alternatives that are 
available for each of these uses.
    A recent study estimated that full implementation of the 
Montreal Protocol will result in millions of premature deaths 
avoided, lives saved that would otherwise perish as a result of 
skin cancer. Indeed, protecting the ozone layer is one of the 
most cost effective public actions ever taken by the world's 
environmental agencies. Our success is due to an overwhelming 
consensus within the science community and to widespread public 
and industry support. It is also due to the Montreal Protocol, 
which has provided the goals and the schedule to channel this 
support into real reductions.
    However, our work is not yet done nor is our success 
assured. A recent review of the state of the ozone layer by 
hundreds of scientists from throughout the world found that 
today the ozone layer is in its most susceptible state. The 
ultimate recovery of the ozone layer depends on the will of the 
global community to finish the job. For the U.S. This means 
enforcing the current phaseout and completing the phaseout of 
the remaining ozone depleters. This brings me to our topic 
today, methyl bromide.
    As you know and as many of you have mentioned, methyl 
bromide is one of the most highly effective biocides available. 
It has been used for decades by the U.S. Agricultural community 
to control pests and weeds, and the U.S. Is the world's largest 
producer and consumer of methyl bromide. Methyl bromide is also 
a significant ozone depleting compound. Because of this, the 
1990 Clean Air Act amendments required EPA to phaseout its 
production and import in the year 2001. Over the past decade, 
the U.S., led by our State Department, worked to move developed 
countries from their initial position of only a freeze at 
historic levels to a total phaseout by the year 2005.
    In 1998, Congress amended the Clean Air Act to formally 
adopt this time line. We already have done a great deal to meet 
our commitment. In 1995, the U.S. Froze production and import 
of methyl bromide at 1991 levels. In 2002, we reduced those 
levels by an additional 50 percent. And this year, the U.S. 
Began implementing the required 70 percent reduction as a 
prelude to the ultimate phaseout in 2005.
    Although we have significantly reduced methyl bromide use, 
it is not possible at this time to completely eliminate it. 
While there are alternatives available for some of the uses of 
methyl bromide, there is no single alternative that can operate 
as effectively as methyl bromide in every crop situation. 
Fortunately, the parties to the Montreal Protocol recognize 
both the importance of methyl bromide and the absence of 
alternatives. In response, the parties adopted three specific 
critical use exemptions for methyl bromide:
    No. 1, a total exemption for methyl bromide used in trade 
to ensure that commodity shipments do not introduce harmful and 
invasive pests into new areas; No. 2, an emergency exemption 
for up to 20 tons of methyl bromide; and, finally, a critical 
use exemption which allows any party to seek an exemption from 
the 2005 phaseout based upon three things: First, a finding 
that an absence of methyl bromide would cause a significant 
market disruption; two, a finding there are no technically or 
economically viable alternatives for the use in the context of 
a specific application; and, No. 3, that the country seeking 
the exemption has made an effort and makes an ongoing effort to 
find alternatives and to reduce emissions.
    To prepare for our critical use exemption request, the 
United States adopted a three-track approach. First, we 
developed a national application form that would enable us to 
provide the information required by the parties. Second, we 
initiated a series of sector specific meetings across the 
country to discuss specific user issues and to inform users of 
the detailed requirements of the critical use application.
    Finally, EPA and USDA together developed a plan to ensure a 
robust and timely technical review of all critical use 
applications. In the end the U.S. Nominated 16 crops for methyl 
bromide use. The total amount of methyl bromide nominated by 
the U.S. For the years 2005 and 2006 is equivalent to a little 
less than 40 percent of our 1991 baseline level.
    In terms of where we stand today, the Protocol's technical 
groups have made a positive recommendation to approve an 
exemption of the full amount for 5 of the 16 uses that we 
submitted. For one use they recommended a reduction in the size 
of the exemption and for another use they expressed a belief 
that alternatives used in other countries could be used in our 
context. For the remainder of the uses, which constitute about 
85 percent of our nomination, the technical groups have 
requested that we provide more information before they can make 
a recommendation.
    Now the Protocol's Ozone Secretariat has made it clear that 
this request for more information is not a recommendation for 
denial of the nomination. Indeed, the request for further 
information is not unexpected given the complex nature of this 
issue and the size of our request. We believe that the 
opportunity to more fully explain our nomination should benefit 
our application and ensure that our farmers have all of the 
methyl bromide they need.
    This process has emphasized the importance of finding 
viable alternatives for all methyl bromide uses. This requires 
work on many fronts, from the fields to the research labs, and 
on the part of both EPA and USDA. At EPA our Office of 
Pesticide Programs has made the registration of alternatives to 
methyl bromide their highest priority. The agency also has 
worked to reduce the burden of data generation while still 
ensuring that EPA's registration decision meets safety 
standards.
    EPA also cochairs the Bromide Alternatives Work Group with 
USDA. This group has conducted six workshops in California and 
Florida, the States with by far the highest use of methyl 
bromide. These workshops are designed to identify potential 
alternatives, critical issues and grower needs. At the same 
time USDA's research arm continues to find new effective 
alternatives to methyl bromide. Through 2002 the USDA's 
Agricultural Research Service spent $135 million to implement 
an aggressive research program, which was augmented by $11.4 
million spent by USDA's Extension Service. USDA has coordinated 
their work with the extensive private sector efforts, including 
those of farmers and academia. Our efforts have paid off in 
some areas.
    Since 1997, EPA has registered a number of alternatives and 
there is still more in the queue. While no silver bullet has 
been registered, these alternatives that have already been 
approved will nonetheless help reduce the demand for methyl 
bromide.
    Mr. Chairman, I hope that my testimony has conveyed how 
hard this administration is working to balance our obligation 
to protect the ozone layer with the need to preserve use of 
this important biocide until alternatives can be found. We are 
certain we can maintain our commitment to the Montreal Protocol 
while enabling ozone depleting compounds to continue to be 
available for critical uses where there are no viable 
alternatives.
    On behalf of my colleagues from the Department of State and 
the Department of Agriculture, I thank you for this opportunity 
to testify, and any one of us would be pleased to answer any 
questions you may have.
    [The prepared statement of Hon. Jeffrey Holmstead follows:]

 Prepared Statement of the Environmental Protection Agency, Department 
of State and Department of Agriculture, delivered by Jeffrey Holmstead, 
      Assistant Administrator, Office of Air and Radiation, U.S. 
                    Environmental Protection Agency

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to deliver this statement jointly prepared by the 
Environmental Protection Agency, the Department of State and the 
Department of Agriculture on an issue that I know is of great 
importance to you and to many of your constituents--that of methyl 
bromide (MeBr), and its phase out under the Clean Air Act (CAA) and 
Montreal Protocol.
    The global phase out of ozone-depleting chemicals is an 
unparalleled triumph of the soundest possible science, economics, and 
diplomacy. It rests on an overwhelming consensus within the world 
science community, which garnered broad support in the effort to 
protect the ozone layer. In fact, any continuing doubts about the 
science were largely dispelled by the awarding of the Nobel Prize to 
Dr's Molina and Rowland for their ground breaking work in identifying 
the connection between manmade emissions of ozone depleting substances 
and ozone depletion.
    The success of the Montreal Protocol rests on near universal 
participation. One hundred and eighty developed and developing nations 
are now Parties to the Montreal Protocol and have committed to the 
complete phase out of ozone depleting compounds.
    From the beginning, the establishment of clear targets for all 
countries, and the allowable flexibility in implementation have 
contributed to broad bipartisan support at home for the Montreal 
Protocol's mission to protect the ozone layer. In fact, the U.S. was a 
global leader in negotiating the original Montreal Protocol under 
President Reagan. These efforts were continued in 1991 and 1992 by 
President George Bush who was responsible for accelerating the phase 
out of ozone-depleting substances. During his Administration, the list 
of regulated substances was expanded to include a number of new ozone 
depleters, including MeBr. In addition, a Multilateral Fund was created 
to assist developing countries in their efforts to phase out ozone 
depleting substances consistent with the requirements of the Montreal 
Protocol. The legacy of strong U.S. support for the Protocol has been 
maintained under President George W. Bush, who last year, worked with 
the Congress to help facilitate obtaining the advice and consent of the 
Senate on the long delayed Montreal and Beijing Amendments to the 
Protocol. These Amendments are expected to be formally deposited with 
the United Nations later this year, upon the completion of implementing 
regulations.
    The successes of the Montreal Protocol to date in ending production 
all over the world of the chemicals that damage stratospheric ozone 
have been significant.
    The goal of the Montreal Protocol and the Clean Air Act is the 
protection of public health. On that score, we are clearly moving in 
the right direction. In fact, the legislative evaluation required by 
section 812 of the CAA estimated that full implementation of the 
Montreal Protocol will result in 6.3 million U.S. lives being saved 
from skin cancer between 1990 and 2165. And, we are working with groups 
like the American Academy of Dermatology in public education programs 
like SunWise Schools to further reduce risks of sun exposure, 
especially for kids. Taken together, this makes protecting the ozone 
layer among the most cost-effective public health actions taken by the 
Agency under the CAA.
    While the ozone layer has and will continue to benefit from these 
actions, our discussion about successes should not be taken as an 
indication that our task has been completed. In fact, I must share with 
you today the fact that scientists assembling the 2002 Scientific 
Assessment of Ozone Depletion, a comprehensive overview of the state of 
the ozone layer involving the work of hundreds of atmospheric chemists, 
life scientists, and researchers worldwide, agree that the ozone layer 
is susceptible to damage due to the fact that atmospheric 
concentrations of ozone depleting chlorine and bromine will be at their 
peak over the next several years. Ultimate recovery--and the 
consolidation of all the gains made so far--depends on the will of the 
global community to finish the job.
    In the context of the Montreal Protocol, this means ensuring 
compliance with the agreed commitments of developed and developing 
countries alike. For the U.S., it means enforcing the current phase 
out, ensuring that no new ozone depleting compounds are brought to 
market, and completing the phase out of hydrofluorocarbons (HCFCs) and 
MeBr. And that brings us to the primary topic of today's hearing, MeBr. 
We know a number of things about this compound. First, it is a broad 
spectrum restricted use biocide that is highly effective at killing 
pests and weeds that are of concern to U.S. agriculture. Second, the 
U.S. has been the world's largest producer and consumer of this 
substance. Third, it has been in wide use in the U.S. for decades, and 
users find it efficacious and are using it efficiently. Fourth, while 
there are alternatives available today for many uses in many 
situations, there is no single alternative that can operate as 
effectively as MeBr in all of the crop situations on which MeBr is 
used. And finally, MeBr is required to be phased out by the CAA and the 
Montreal Protocol because it is a significant ozone depleting compound. 
And for MeBr it means protecting both public health, and the concerns 
of U.S. agriculture by promoting compliance while ensuring the 
continued availability of MeBr for critical uses that do not yet have 
viable alternatives. In this regard, we intend to work aggressively to 
ensure that critical use process works as designed to enable an 
exemption for uses in countries without such alternatives.
    Because of its significant ozone depleting properties, the 1990 CAA 
required EPA to phase out the production and import of this substance 
in 2001 (with no possible exemptions). This mandate was presented to 
EPA at a time before MeBr was even recognized as a global problem. 
Understanding the nature of this problem, the U.S. tried from 1992 to 
1997 to push the global community toward our 2001 phase out date. In 
1997, the U.S. succeeded in moving developed countries from their 
initial position of only a freeze in production and import at historic 
levels to a total phase out in 2005. Given that progress, and the 
desirability of ensuring harmonized requirements, Congress moved to 
amend the CAA requirements in 1998 to make them consistent with those 
of the Montreal Protocol resulting in the phase out schedule we have 
today.
    There have been great strides in limiting the use of MeBr under the 
schedule. Specifically, with the exception of certain trade-related 
uses of MeBr (which are fully exempted under the Montreal Protocol and 
the CAA), the U.S. froze its production and import of MeBr in 1995 at 
1991 levels, achieved a 25% reduction from those levels in 1999, as 
well as a 50% reduction in 2001. Further, the U.S. began implementing 
the 70% reduction in 2003 before the ultimate phaseout in 2005.
    Regarding the exemption provisions of the Montreal Protocol, the 
existence of an appropriate safety valve has always been a provision of 
great importance to the U.S. The Montreal Protocol includes a provision 
to ensure that a Party may be considered for an exemption from the 
phase out for any chemical until such time as a viable alternative can 
be commercialized. So far, the Montreal Protocol's existing safety 
valve, known as the essential use process, has been used rationally, 
sparingly, and to important effect. In the case of CFCs, the U.S. and 
other countries have been granted exemptions to allow Metered Dose 
Inhalers, for those that suffer asthma, to continue to use CFC as a 
propellant until safe and effective alternatives are widely available. 
On that use, we have always gotten what we requested, and the U.S. 
industry is making significant strides in transitioning to 
alternatives. For other chemicals, we have also received exemptions: 
specifically for Titan rockets and the Space Shuttle. Other countries 
have also received exemptions for important items including cleaning 
torpedoes, and for fire-related uses.
    When the Parties agreed to phase out MeBr, they understood that 
agriculture, related cost margins, regulatory barriers to market entry 
for alternatives, and MeBr were different in many respects from the 
industrial chemicals regulated in the past under the Montreal Protocol. 
Recognizing that, the Protocol Parties established three types of 
exemptions for MeBr, as well as broader criteria to define the critical 
use exemption of other chemicals.
    First, the Parties recognized that MeBr is used in trade to ensure 
that shipments do not contain harmful and invasive pests that could be 
transported with commodities and introduced into new areas. 
Accordingly, they provided a total exemption for quarantine and 
preshipment uses. As a consequence, while countries have committed to 
find alternatives and to limit the emissions and use of MeBr to those 
applications where its use is necessary, the production and import for 
these uses can continue unabated during and after the phase out. EPA 
recently published a final rule fully activating this exemption that 
was allowed for the first time by the 1998 amendment to the CAA.
    The second MeBr exemption, covering emergency situations, is an 
unusual broad-based exemption from the phase out for the production or 
import of 20 tonnes of MeBr. This exemption can be unilaterally 
activated by a Party to address what it considers to be an emergency. 
The Parties review the use of this exemption after the fact to 
determine if there are alternative measures to deal with similar 
emergencies in the future.
    Finally, the Montreal Protocol Parties discarded the essential use 
criteria for MeBr, and created a critical use exemption. The new 
criteria allows a Party to seek an exemption from the 2005 phase out if 
it determined that the absence of MeBr would cause a significant market 
disruption. The Parties agree that the nominating Party has 
demonstrated that there are no technically or economically viable 
alternatives for the use in the context of the application and that the 
Party continues to make efforts to find alternatives for the use and to 
limit emissions. I want to dwell on this exemption briefly today, 
because this is the first year that the U.S. and other countries have 
applied for this exemption. It is also the first year that the Montreal 
Protocol Parties will be considering national nominations.
    Work on the U.S. critical use exemption process began in early 
2001. At that time, we initiated a series of open meetings with 
stakeholders to inform them of the Montreal Protocol's critical use 
requirements and to understand the issues the agricultural community 
faced in researching and applying alternatives to MeBr. During those 
meetings, which were attended by State and association officials 
representing thousands of MeBr users, the provisions of the critical 
use exemption were reviewed in detail. The feedback from these meetings 
contributed to the Protocol Parties' efforts to establish initial 
international norms for the details to be in submissions and to 
facilitate standardization for a fair and adequate review.
    Once the standardized information requirements became more clear, 
we took a three track approach to the critical use process. First, we 
worked to develop a national application form that would ensure that we 
had the information necessary to answer all of the questions posed by 
the Parties. At the same time, we initiated a series of sector specific 
meetings across the country. This included meetings with 
representatives of growers in several cities to discuss their specific 
issues, and to enable them to understand the detailed requirements of 
the critical use application. These sector meetings allowed us to fine 
tune the application so we could submit the required information in a 
meaningful fashion.
    Finally, and concurrent with our preparation phase, EPA and USDA 
developed a plan to ensure a robust and timely technical review of any 
and all critical use applications we might receive. This technical 
effort, led at EPA by our Office of Pesticides programs, involved the 
assembly of more than 45 PhDs and other qualified reviewers with 
expertise in both biological and economic issues. These experts were 
divided into interdisciplinary teams to enable primary and secondary 
reviewers for each crop application received. As a consequence, each 
nomination received by the U.S. was reviewed by two separate teams. In 
addition, the work of these interdisciplinary teams was subject to a 
broader set of experts on all other sector teams to enable an 
additional third look at the information, and to ensure consistency in 
review between teams. The result was a thorough evaluation of the 
merits of each request.
    Following our technical review, discussions were held with senior 
risk managers to go over the technical recommendations and assemble a 
draft package for submission to the Parties. As a consequence of all of 
this work, it is safe to say that each of the sector specific 
nominations submitted by the U.S. was the work of well over 50 experts 
both in and outside of the U.S. government.
    In the end, the U.S. was one of 13 countries that submitted 
nominations for a critical use exemption. Some national requests were 
very small covering, only one use, and some were large, covering 10 or 
more uses. The U.S. nominated the following sixteen (16) crops/uses: 
tomatoes, commodity storage, cucurbit, eggplant, food processing, 
forest tree seedling nursery, ginger, orchard nursery, orchard replant, 
ornamental nursery, pepper, strawberry, strawberry nursery, sweet 
potato, nursery seed bed trays, and turfgrass. The total amount of 
methyl bromide nominated by the U.S. for these uses is 9,920,965 
kilograms for 2005, and 9,722,546 kilograms for 2006--this translates 
into 39% and 37% of our 1991 baseline level.
    In accordance with the Montreal Protocol procedures, the submission 
of the U.S. and all other countries was transmitted to the Montreal 
Protocol's Methyl Bromide Technical Options Committee, as well as to 
its Technical and Economic Assessment Panel. It is the responsibility 
of these groups to provide an expert review of all of the requests, and 
to make recommendations to the Parties about them. While these reviews 
are helpful, it should be understood that no formal decision will be 
taken on any exemptions by these groups. The Parties assembled in their 
meeting in November, are the only body empowered to take these 
decisions.
    In terms of where we stand today, the Montreal Protocol's technical 
groups have done an initial review, and made recommendations regarding 
a number of countries nominations. On the U.S. nomination, they have 
made a positive recommendation to approve an exemption of the amount 
that we nominated for 5 of the 16 uses that we submitted. For one use, 
they recommended a reduction in the size of the exemption, and for 
another use, they found alternatives were available and being used in 
other countries. For the remainder of the uses, which in fact 
constitute almost 85% of our request, they have requested 
clarifications to enable them to more effectively understand and make 
recommendations. I want to make the import of that request as clear as 
possible by quoting from the transmittal letter from the Protocol's 
Ozone Secretariat--In transmitting these comments and questions, I 
would like to stress that the request for clarification or additional 
information is NOT a recommendation for denial of the nomination, and 
should not be construed as such by any Party. The request is being made 
solely to ensure that the review of your countries' nominations is 
based on a complete and accurate understanding. I want to note that it 
is our understanding that similar requests for clarifications were sent 
to several other Parties.
    Indeed, the request for further information is not unexpected given 
the complex nature of the very large submission of the U.S. At the 
present time, we are still preparing a response to their questions, 
which we welcome. In fact, we believe that the opportunity to more 
fully explain our nomination will benefit both the uses still under 
review, and those for which a tentative recommendation that has been 
made for less than the level we requested.
    After submitting our responses to the Montreal Protocol's technical 
bodies, we expect them to complete recommendations for those uses still 
outstanding, hopefully in time for them to be discussed at the July 
meeting of the Parties Open Ended Working Group. Again, the July 
meeting is just the first discussion by the Parties; decisions will not 
be made until the 15th Meeting of the Parties which is scheduled for 
November 10-14 in Nairobi Kenya.
    Mr. Chairman, this process has been intensive, but it in no way 
ends the story. The vital work on MeBr continues on many fronts--from 
the fields, to the research labs--in efforts to find, register and 
commercialize viable alternatives for all MeBr uses. On that front, 
both EPA and USDA play critical roles.
    At EPA, our Office of Pesticide Programs is responsible for 
registering pesticides including alternatives to MeBr. Understanding 
the importance of this role in the phase out of MeBr, they have since 
1997 made the registration of alternatives to MeBr the highest 
registration priority. Because the Agency currently has more 
applications pending in its review than resources to evaluate them, EPA 
prioritizes the applications in its registration queue. Because it is 
the top registration priority, MeBr alternatives enter the review 
process as soon as EPA receives an application request. The average 
processing time for a new active ingredient, from date of submission to 
issuance of a registration decision, is approximately 38 months. In 
most cases, the registrant (the pesticide applicant) has spent 
approximately 7-10 years developing the data necessary to support 
registration.
    As one incentive for the pesticide industry to develop alternatives 
to MeBr, the Agency has worked to reduce the burden of data generation, 
to the extent feasible while still ensuring that the Agency's 
registration decisions meet Federal statutory safety standards. Where 
appropriate from a scientific standpoint, the Agency has refined the 
data requirements for a given pesticide application, allowing a 
shortening of the research and development process for the MeBr 
alternative. Furthermore, EPA scientists routinely meet with 
prospective MeBr alternative applicants, counseling them through the 
pre-registration process to increase the probability that the data is 
done right the first time and rework delays are minimized.
    EPA has also co-chaired the USDA/EPA Methyl Bromide Alternatives 
Work Group since 1993 to help coordinate research, development and the 
registration of viable alternatives. The work group conducted six 
workshops in Florida and California (states with the highest use of 
methyl bromide) with growers and researchers to identify potential 
alternatives, critical issues, and grower needs covering the major MeBr 
dependent crops and post harvest uses.
    Our efforts have paid off in some areas. Since 1997, EPA has 
registered a number of chemical/use combinations as part of its 
commitment to expedite the review of MeBr alternatives. While there is 
no silver bullet among them, they will nonetheless help reduce demand 
for MeBr. They include:

2000: Phosphine to control insects in stored commodities
2001: Indian Meal Moth Granulosis Virus to control Indian meal moth in 
        stored grains
2001: Terrazole to control pathogens in tobacco float beds
2001: Telone applied through drip irrigation--all crops
2002: Halosulfuron-methyl to control weeds in melons and tomatoes
    In addition, EPA is currently reviewing several applications for 
registration as MeBr alternatives, with several registration 
eligibility decisions expected within the next year, including:

Iodomethane as a pre-plant soil fumigant for various crops
Fosthiazate as a pre-plant nematocide for tomatoes
Sulfuryl fluoride as a post-harvest fumigant for stored commodities
Trifloxysulfuron sodium as a pre-plant herbicide for tomatoes
Dazomet as a pre-plant soil fumigant for strawberries and tomatoes
    While these activities appear promising, environmental and health 
issues with alternatives must be carefully considered to ensure we are 
not just trading one environmental problem for another. In that regard, 
ongoing research on alternate fumigants is evaluating ways to reduce 
emission under various application regimes and examining whether 
commonly used agrochemicals, such as fertilizers and nitrification 
inhibitors, could be used to rapidly degrade soil fumigants.
    At the same time EPA is working on registering alternatives, USDA 
continues its efforts (which began as early as 1992) to find new 
effective alternatives to MeBr. Finding alternatives for agricultural 
uses is extremely complicated compared to replacements for other, 
industrially used ozone-depleting substances because many factors 
affect the efficacy, such as: crop type, climate, soil type, and target 
pests, which change from region to region and among localities within a 
region.
    Through 2002, the USDA Agricultural Research Service (ARS) alone 
has spent US$135.5 million to implement an aggressive research program 
to find alternatives to MeBr (see Table 1 below). Through the 
Cooperative State Research, Education and Extension Service, USDA has 
provided an additional $11.4m since 1993 to state universities for 
alternatives research and outreach. This federally supported research 
is a supplement to extensive sector specific private sector efforts, 
and that all of this research is very well considered. Specifically, 
the phase out challenges brought together agricultural and forestry 
leaders from private industry, academia, State governments, and the 
federal government to assess the problem, formulate priorities, and 
implement research directed at providing solutions under the USDA's 
Methyl Bromide Alternatives program. The ARS within USDA has 22 
national programs, one of which is the Methyl Bromide Alternatives 
program (select Methyl Bromide Alternatives at this web site: http://
www.nps.ars.usda.gov). The resulting research program has taken into 
account these inputs, as well as the extensive private sector research 
and trial demonstrations of alternatives to MeBr. While research has 
been undertaken in all sectors, federal government efforts have been 
based on the input of experts as well as the fact that nearly 80 
percent of preplant MeBr soil fumigation is used in a limited number of 
crops. Accordingly, much of the federal government pre-plant efforts 
have focused on strawberries, tomatoes, ornamentals, peppers and 
nursery crops, (forest, ornamental, strawberry, pepper, tree, and 
vine), with special emphasis on tomatoes in Florida and strawberries in 
California as model crops. It is important to recognize that methyl 
bromide users have made generous contributions of field plots, plant 
material, and equipment for research trials on potential alternatives.
    Mr. Chairman, I hope that you can tell by my testimony today the 
level of importance the Administration places on taking action on MeBr 
in a manner that protects public health by protecting the ozone layer, 
while still preserving our ability to use this substance where there 
are no technically and economically viable alternatives. It is this 
Administration's belief that the . 30% of baseline allowed by the Clean 
Air Act, combined with stocks of Methyl Bromide carried over into 2003 
from prior years, are sufficient to allow access to a level of methyl 
bromide over the next two years that is at least as high as the level 
of MeBr that the US consumed in 2001, when we were at 41% of our 
baseline.
    Finally, I want to conclude my testimony today by once again noting 
that the global effort to protect the ozone layer has seen some 
spectacular successes. CFCs, halons, methyl chloroform, carbon 
tetrachloride--substances that were extraordinarily common in our daily 
lives have been phased out in developed countries, in the aggregate, 
have phased out over 25% more ozone depleting substances than is 
currently required by their obligations. That said, the job is not 
done. Protection of the ozone layer requires all countries to maintain 
their resolve, and complete the phase out consistent with their treaty 
obligations. We expect to do so in a manner that enables critical uses 
of ozone depleting compounds, consistent with the Montreal Protocol, to 
be used where there are no viable alternatives.
    I thank you for this opportunity to testify before this Committee, 
and I would be pleased to answer any questions you may have.

    Mr. Barton. Thank you. The Chair recognizes himself for the 
first 5 minutes for questions. Mr. Brown, you represent the 
Department of Agriculture, I think; isn't that correct?
    Mr. Rodney Brown. Yes.
    Mr. Barton. What is your opinion or the Department's 
opinion about there ever being a real alternative to methyl 
bromide? Is that possible?
    Mr. Rodney Brown. To say ever being an alternative for 
methyl bromide is a very complicated question, and that is one 
of the problems with methyl bromide. Each crop, each climate, 
each soil type, each combination of all of these requires a 
different alternative. We are trying with some model crops to 
find alternatives that work in more than one place. It has been 
very difficult. We have spent, as has been mentioned, over $150 
million thus far.
    Mr. Barton. Is it a chemistry problem or just a traditional 
acceptance use problem? Does the agricultural community just 
not want to do it or is it just chemically very difficult in 
the laboratory to come up with a compound that works close to, 
or as well as methyl bromide?
    Mr. Rodney Brown. It has been very difficult to come up 
with not just the chemical but the practices that have to be 
used. We have made progress in some areas. Some have been 
mentioned already. We do have a long way to go.
    Mr. Barton. Are you allowed to make an estimate on the 
record of how probable it is that we could come up with 
acceptable alternatives that come much closer to meeting the 
Protocol, or are we always going to have to have a waiver for 
some critical use?
    Mr. Rodney Brown. I wouldn't say we will always have to 
have a waiver, but we will keep working at it until we get them 
all. With regard to the waivers, we are even working on the 
ones where we have waivers or where we have applied for 
waivers, and of course----
    Mr. Barton. Is there anybody in the international community 
that is a party to the Protocol that if we called them to 
testify that would say that the United States and USDA and the 
various laboratory investigators are not making a good faith 
effort to come up with alternatives?
    Mr. Rodney Brown. I believe those who understand this 
problem in this country or anywhere in the world----
    Mr. Barton. So we are really trying. Mr. Burnam, you 
represent the State Department?
    Mr. Burnam. Yes.
    Mr. Barton. My understanding is that the parties to this 
agreement have never really had any formal votes on the 
agreement; is that correct, that we have this process but it is 
all kind of a touchy feely process?
    Mr. Burnam. I wouldn't describe it as a touchy feely 
process. I was over at the recent meeting in Rome. The Protocol 
does attempt, like many international protocols, to reach 
decisions by consensus. But in the absence of consensus, a two-
thirds vote can be taken on substantive matters.
    Mr. Barton. How many votes have been taken?
    Mr. Burnam. I don't believe there have been any.
    Mr. Barton. I believe the number is zero.
    Mr. Burnam. We would be subject to protocol.
    Mr. Barton. If you have never taken a vote, I think touchy 
feely is a pretty good definition of how it works. It is not 
hanky panky. But we have got a problem here in that I am going 
to stipulate that we are really trying to come up with 
alternatives that the Bush administration, previous Clinton 
administration really wants to take methyl bromide off the 
market so that we can stop the ozone depletion, but it 
apparently is really difficult to do so. We have these 183 
parties who signed the Protocol, but only two countries make 
methyl bromide and only 5 or 6 really use much of it. So you 
got 183 decisionmakers, but you don't have that many really 
vested sufferers if it is taken off the market. So we have now 
this process for these exemptions, exceptions, and in all 
likelihood that is not going to go away by 2005. Do you agree 
with that or disagree with that?
    Mr. Burnam. No. I think the critical use exemption 
provision in the Protocol and the decision of the parties ought 
to be looked at carefully, because I think it does give us the 
right and the obligation on a continuing basis to file for 
methyl bromide if there is a need--if the farmers need it. I 
think if there is a need for this chemical in the United 
States, we have the right under the treaty and indeed I think 
the obligation, I would say, to our farmers to file for a 
critical use exemption. And all we need to prove to get that is 
that there is no feasible, economically feasible or technically 
feasible, alternatives. So I think as long as the evidence is 
as Mr. Brown suggests, I believe----
    Mr. Barton. My time has expired. We may have a few 
questions. But the dilemma that I am in is I believe we should 
honor our treaty obligations. I think the United States 
agriculture community is trying to find alternatives, but those 
alternatives haven't been found. We got this unwieldy 
international body that I think generally agrees that methyl 
bromide is a positive use in many applications, but it is 
hazardous in the environment. And we are probably never going 
to get anybody to ratify these exemptions so what do we do 
legislatively? We just act like this isn't a problem or we 
force our agricultural community to violate the treaty? We need 
by the end of this hearing to have some answers on what the 
Congress should do, if anything, because it is this 
subcommittee that has the responsibility to take action if 
action needs to be taken. With that, I recognize Mr. Boucher 
for 5 minutes.
    Mr. Boucher. Thank you very much, Mr. Chairman. On the 
second panel of witnesses that we will have today, a number of 
the agricultural interests are going to make statements about 
the inadequacy of the process for them considering the 
applications the United States has filed. I would be interested 
in giving you this opportunity to respond to those comments. I 
am sure you have read their testimony.
    Is the criticism valid based on the experience that you 
have had with this application process so far? How would you 
grade the process so far? Mr. Holmstead.
    Mr. Holmstead. We have to acknowledge that the process has 
not been an easy one, in large part because of how complicated 
an issue this is. As Mr. Brown mentioned, the way the Protocol 
works, we actually are looking at specific applications, 
specific parts of the country, specific soil types, and we have 
developed what we think is a very robust and more than 
defensible request for these critical use exemptions. We are 
sort of in the middle of that process, so it is premature to 
say whether it has worked well or not worked well. We have been 
given an opportunity now to go back and to supplement our 
application with more information, information that for the 
most part we have. And I think we are confident based on our 
experience with the parties to the Protocol that this process 
will work, and I can understand from the farmers' perspective 
that they would like it to work more quickly. But we think it 
will work and we will get from the parties the critical use 
exemption that will be necessary to keep the farmers doing what 
they need to do in this country.
    Mr. Boucher. I notice in your testimony you say that the 
request from the panel for further information is not 
unexpected and that you did anticipate that some further 
request for information would be made. On the other hand, some 
of the other witnesses are going to say that the request for 
information is really tantamount to a denial of the 
application. I gather you disagree with that.
    Mr. Holmstead. It is very clear that it is not tantamount 
to a denial of the application.
    Mr. Boucher. So we should take confidence that the process 
is working. From your perspective, knowing it as well as you 
do, you believe it is a fair process, that it is calculated to 
lead to an equitable result? Is that a fair conclusion?
    Mr. Holmstead. I believe that is absolutely right, and we 
do have some experience with other critical use exemptions 
where in fact in other uses, not for methyl bromide, but for 
other ozone depleting substances, we have been able to get the 
parties to agree. We think the process is working well.
    Mr. Boucher. I want to pursue one other question. It 
relates to a specific crop. It is tobacco seedlings. With 
regard to tobacco, you had requested a critical use exemption. 
The recommendation of the panel, I guess at the staff level, is 
that the application be denied. And apparently that 
recommendation is based on the belief that there are 
alternatives for treating tobacco seedlings that are commonly 
used other places. And that recommendation, for example, 
mentions the use of chlorine irradiation, fungicide, steam and 
quantenary ammonia compounds. Are you familiar with this 
particular subject? Are you familiar with what the panel staff 
has recommended? And Mr. Brown, are you prepared to answer some 
questions about it?
    Mr. Rodney Brown. I am not sure. I would like to have all 
the details.
    Mr. Boucher. I may just ask you to provide a written 
statement, but let me state the question fully to you. First of 
all, does the United States agree with the assessment that has 
been made by the staff at the panel? Second, if you do not, and 
I hope you do not, could you give us some basis for which you 
disagree with that assessment and then some indication what you 
intend to do in terms of further proceedings on this subject 
with the Protocol panel, Mr. Brown?
    Mr. Rodney Brown. First of all, the vote on all of these 
will be in November. All we have so far is feedback from the 
staff. So in every case we are looking at these, and we are 
actually looking at it as an opportunity to provide more 
information. We think that in each case that our request was 
not only thorough, but supportive and we expect that the full 
amount that was requested should be granted when the vote takes 
place.
    Mr. Boucher. I take that as a disagreement with the 
recommendations made at the staff level with regard to tobacco; 
is that correct? You disagree with that?
    Mr. Rodney Brown. I haven't seen enough of the details on 
the particular case to answer that.
    Mr. Boucher. Mr. Brown, I will submit a question to you in 
writing. Mr. Chairman, with your permission I would ask that 
you respond in writing to that. Furthermore, I would ask, Mr. 
Chairman, that the record remain open for sufficient time in 
order to receive that.
    Mr. Barton. We already said that in the opening statement.
    Mr. Boucher. Mr. Chairman, let me make a unanimous consent 
request that all members be permitted to submit opening 
statements for the record.
    Mr. Barton. Without objection. The gentleman from 
California, Mr. Issa. And I believe he has 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. Either Mr. Brown or Mr. 
Holmstead, would you say that it would be fair for Congress to 
act to protect growers in the absence of a decision by your 
organization, let us say, to mandate one growing season after 
you feel you have all the information and make a recommendation 
or something else so we don't have companies getting up to a 
deadline and then finding themselves essentially with no 
alternative and not even in a transition year?
    Mr. Holmstead. I think we are a long way from that point. 
As you know, what we are talking about now is 2005-2006 growing 
season. So we really have a fair amount of time. In addition to 
that, one of the things that has been permitted explicitly 
under the Protocol is stockpiling of these substances, and we 
know there is quite a bit of stockpiled methyl bromide that is 
available out there. So first of all, we are quite confident 
that we will get through the process, the kind of critical use 
exemption that we need. And the whole protocol is designed to 
make sure that we don't find ourselves in a situation, as you 
suggest, where the agricultural community----
    Mr. Issa. Second, would it be fair if, let us say, France 
had granted an exemption for cut flowers and our growers 
believed that it was substantial similar evidence and theirs 
had been granted. Would it be a petition right to come before 
and say we don't care what the science says, what is good for 
the goose is good for the gander, or do you find you have to 
have independent science even if it differs with competing 
nations?
    Mr. Holmstead. I believe I understand the question, and the 
answer is I think you can be certain that EPA and USDA and 
State Department would protect the competitive interests of 
growers in this country, and I think we have shown that we can 
be very effective diplomatically in doing that.
    Mr. Issa. So my next series of questions would be, then 
inherently, if you are an article 5 country and you have until 
2015, isn't it true that two competitive disadvantages exist, 
one in which jobs and production may shift to those countries 
as a result of their being able to use a cheap and effective 
solution, should an alternative be available but not 
necessarily cheap; and two, inherently isn't the Protocol 
flawed because it shifts the burden of research development and 
solutions to countries like ours?
    Mr. Holmstead. As I think you know, the Montreal Protocol 
did recognize that there are differences in countries both in 
terms of their technological capabilities and their economic 
situations. And so for all the chemicals that have been phased 
out, I think everybody understood that there needed to be a 
phaseout of all countries, both developing countries and 
developed countries. And for all of the chemicals there was a 
recognition that developing countries needed to have more time.
    Mr. Issa. Developing countries?
    Mr. Holmstead. Developing countries needed to have more 
time to phase these out. So for instance, the CFCs and most of 
the other high ozone depleting chemicals, there was about a 14-
year grace period. For methyl bromide that period is less. It 
is about 10 years. And during those 10 years it is not true 
that they can use however much they choose to. Their ability to 
use methyl bromide is also restricted. So for instance, very 
few of the developing countries use significant amounts of 
methyl bromide today, and that use is not only capped but will 
have to come down over time as well.
    So I am quite aware of the competitive issues and it is 
something we looked at. I know USDA and State has as well. We 
don't believe that is going to be a significant issue because 
of the caps that are in place even on the developing countries. 
So even though the full phaseout doesn't affect them for more 
than 10 years, they are subject to interim controls that will 
prevent them from expanding their use of methyl bromide, and 
that is true for all the developing countries.
    Mr. Issa. I can see that you are pretty happy with the 
Montreal Protocol. I wish I could share that happiness with 
you.
    Last question, still on the Montreal Protocol. If there is 
a safe and effective alternative at a given time U.S. Producers 
are mandated to use it, what is the justification once the R&D 
has occurred, there is a safe and effective alternative, what 
is the justification for not at that moment triggering the 
automatic acceleration of other countries? What is the basis 
saying you have 10 more years if there is a safe and effective 
alternative, if that has been pioneered and paid for by 
Americans or other developed nations?
    Mr. Holmstead. Just to clarify, it is not just safe and 
effective, it needs to be economically feasible, not just 
technically feasible.
    Mr. Issa. If we crossed all those thresholds, why is there 
10 years left?
    Mr. Holmstead. Our experience has been that once that is 
identified then we can accelerate that in the developing 
countries. For instance, there has been a number of cases with 
other chemicals that once we have identified effective 
alternatives that those other countries have agreed to phaseout 
more quickly than that 10-year period, and I would be happy to 
provide you more information. But the experience historically 
has been that once a chemical is widely accepted in the 
developed world that that is introduced much more quickly in 
the developing world as well. So in many cases they haven't 
taken advantage of those 14 years.
    Mr. Barton. Gentleman's time has expired. The gentlelady 
from California is recognized for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman. I would like to refer 
to the written testimony that will come up in the next panel, 
but I wanted to know, Mr. Holmstead, if you could comment on 
what Mr. Doniger suggests may be the case in his testimony in 
which he associates--tells us about other environmental issues 
associated with the methyl bromide being a carcinogen. Is this 
something you would agree with or what is your take on the 
equation between methyl bromide and carcinogens?
    Mr. Holmstead. I don't really know. We could certainly get 
you an answer from our research folks. I know there are other 
health effects, and I have heard of a study and I am not sure 
how conclusive it is.
    Mrs. Capps. If I could repeat, in your work and in your 
presentation with us, you have not come across any evidence to 
that effect that it is a carcinogen or--I don't want to put 
words in your mouth.
    Mr. Holmstead. The focus of our regulatory actions at this 
point have to do with its ozone depleting potential. There are 
a number of other programs not only under the Clean Air Act but 
under FIFRA and TSCA to deal with those sorts of issues, and I 
just don't deal with those programs. What I know about is the 
ozone depletion potential of methyl bromide and the phaseout 
under Title VI of the Clean Air Act.
    Mrs. Capps. Well, maybe it is begging the question, but I 
am wondering if you have any knowledge or interest in worker 
safety issues, for example, connected with methyl bromide.
    Mr. Holmstead. Absolutely. We have a great deal of interest 
in it. The way EPA is organized, I have a colleague named Steve 
Johnson whose job it is to deal with the pesticide issues and 
worker protection. And I know they have a very robust program 
in that area, but I am not familiar with it. But there is 
someone else in the agency that could answer those questions. 
And again, our folks are saying we could provide you with any 
information that you would like to and provide that for the 
record.
    Mrs. Capps. Well, it is clear that this substance has a 
great many interests to various aspects of the EPA. So I am 
kind of pushing your specialty. You are here with the specialty 
strictly in ozone?
    Mr. Holmstead. It is listed both under the Montreal 
Protocol and the Clean Air Act as an ozone depleting substance, 
and that is really the context in which I deal with methyl 
bromide.
    Mrs. Capps. I think this topic calls for continued interest 
and hearings perhaps in some other aspects in perhaps some of 
the issues connected with methyl bromide. I just want to have 
one final question to ask of you and then maybe if either of 
the other two people want to comment, I would be happy to hear 
from them. And that has to do with the registration status of 
methyl bromide. What is that?
    Mr. Holmstead. As you know, there are other statutes that 
have to deal with the registration of pesticides, Most recently 
the Food Quality Protection Act, or the FQPA. Under the FQPA 
existing pesticides have to be reregistered over a period of 
time, and my impression is that methyl bromide is currently 
going through the eregistration process. I don't know how close 
it is to the end of that process, but we would be happy to 
provide you with that information.
    Other thing is obviously in terms of its possible potential 
to cause cancer, that is something that would be looked at in 
the registration process. So I am not aware that we consider it 
to be--I don't believe we consider it to be a carcinogen. If 
there are new studies, those would be looked at through the 
registration process.
    Mrs. Capps. That aspect of being registered doesn't relate 
to your----
    Mr. Holmstead. That is the Office of Pesticide Programs. We 
are divided into four separate offices, and the Office of 
Pesticide Programs deals with that suite of issues as it 
relates to agricultural or chemical.
    Mrs. Capps. Maybe--I know you spoke in your opening 
statement for your two colleagues, but they have different job 
descriptions. Do any of you wish to comment on carcinogen-
related matters?
    Mr. Rodney Brown. I think your question brings up not only 
that direct point but even a broader issue, which is what I am 
hearing from everyone so far today. This is about balance. We 
have to think about ozone. We have to think about carcinogens. 
We have to think about economics. We talk a lot now about 
sustainability in agriculture, and usually we are referring to 
natural resources, the water, the soil, and so on. To the 
farmers, sustainability includes all of those things, but it 
certainly includes being in business next year.
    Mrs. Capps. I understand that. Let me ask you a yes or no 
and I know the--do you consider methyl bromide a carcinogen?
    Mr. Rodney Brown. I see nothing so far that would say that 
it is.
    Mrs. Capps. Mr. Burnam, do you?
    Mr. Burnam. That is not a question the State Department 
ought to consider.
    Mr. Barton. State Department doesn't give yes or no 
answers.
    Gentleman from Illinois is recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. To the State 
Department representative, we sent a letter and it was short 
notice so I didn't expect the letter to be answered as timely 
as we requested it, but I will bring your attention to a letter 
sent May 19 to Under Secretary Dobriansky with a lot of 
questions on this issue and it is signed by at least 12 Members 
of Congress and two of whom are serving on this committee. Mr. 
Issa signed it and I signed it. And if you would address that. 
You don't need to address it now, but just get that back to us 
as soon as possible because a lot of the questions we have here 
today deals with the compliance and aspects. That is the 
letter.
    Mr. Burnam. I do have a response to it.
    Mr. Shimkus. Is there a date on it?
    Mr. Burnam. Today.
    Mr. Shimkus. Could we have it? Do you all have a copy of 
it?
    Mr. Burnam. State Department does act quickly on all 
Congressional letters.
    Mr. Shimkus. I appreciate that. Let me follow along and 
then I will page through page--in fact, Mr. Chairman, what I 
would like to do is yield back my time, with the opportunity 
based upon the answers to this letter, which may be at the end, 
to address some of their responses to our questions.
    Mr. Bilirakis [presiding]. Without objection. Mr. Allen.
    Mr. Allen. A couple of questions. I understand that in the 
mid-1990's, the United States basically actively encouraged the 
world community to agree to a specific and early timetable for 
the phaseout of methyl bromide. So first question, has 
something changed in our position? Second issue, the critical--
as I understand it, the critical use exemption is only 
available for the final phaseout of methyl bromide; that is, 
there is no critical use exemption for the interim 70 percent 
reduction in 2003 under the Montreal Protocol. I understand the 
administration has submitted a request for 39 percent of U.S. 
Consumption where my understanding is that it really should be 
30 percent or lower. And I would--unless I am missing something 
here. So the question is, and I am happy to have any of you 
answer this if you would like to enlighten me, first, whether 
we have changed our position and, second, whether or why we 
have asked for a 39 percent exemption.
    Mr. Burnam. When we were in Rome last fall, we indicated to 
a number of countries that we didn't interpret the Protocol to 
have a 30 percent ceiling. I think it was very plain that the 
critical use exemption provision was meant to be objective and 
a country was meant to be entitled to the full amount of the 
critical use exemption so long as it could demonstrate it had a 
technical--there are no technically and economically feasible 
alternatives. If you look at Decision 96 of the parties 
adopting the critical use exemption, it makes no reference to 
any arbitrary percentage ceiling.
    Mr. Allen. Just to test that, if I interpret that 
correctly, that you could ask and could receive a critical use 
exemption for 100 percent of the uses in the United States? You 
could document that they were all critical?
    Mr. Burnam. We weren't the only country to ask for more 
than 30 percent. Greece and Italy asked for more than 30 
percent. Countries asked for what the farmers need, given the 
existence of alternatives and the alternatives must be safe as 
well as technically and economically feasible.
    Mr. Allen. So the answer to that second question is that at 
least in your view, the way you interpret the Protocol, there 
is nothing in there that would prevent you from asking for 100 
percent of the--for asking for a critical use exemption for 100 
percent of the U.S. Use?
    Mr. Burnam. You could ask for 100 percent of what the 
farmers need given the status of the alternatives. But I am not 
going to go to your question.
    Mr. Allen. I think I understand that a critical use 
exemption would be for those activities that are in some way 
unusual, and maybe I have that wrong. But the information that 
I have is that over 80 percent of the methyl bromide use in the 
United States is for soil fumigation for pre-plant activities. 
And so I am trying to figure out, we clearly knew what the 
common use was. We didn't ban it for that particular use. Am I 
correct in understanding that basically--you make no 
distinction when you ask for these exemptions between soil 
fumigation or other uses. I mean it is whatever people need, is 
that fair?
    Mr. Rodney Brown. That is right. If we have a technically 
feasible and an economically feasible alternative with the 
third provision, that we haven't mentioned much thus far, that 
it doesn't result in significant market disruption, that is the 
basis upon which we ask for an exemption. When the target was 
set at 30 percent we didn't know nearly as much as we now know 
about our ability to come up with alternatives. Actually, the 
39 percent I believe drops to 37 percent the following year, 
and we have no intention of going toward 100 percent. We intend 
to cover every use where U.S. farmers need methyl bromide 
because there isn't an alternative.
    Mr. Allen. All right. Thank you.
    Mr. Bilirakis. The Chair thanks the gentleman. Ms. Bono for 
8 minutes.
    Mrs. Bono. Wow, 8 minutes. Thank you, Mr. Chairman.
    Mr. Bilirakis. Eight big minutes.
    Mrs. Bono. I promise you I won't--never mind. I don't 
promise anything. It is a rarity to have that much time. First 
of all, I just want to say that I think that the United States 
tries so hard to be the best neighbor in the world. There is no 
question we try to lead and whether it is this treaty or 
whether it is Kyoto or whatever we are doing our very best to 
lead the world to be a better place. But oftentimes we hurt the 
small guy. And the small guy in my instance is my family farmer 
in the Coachella Valley of my district. My question, first 
question is for Mr. Holmstead, and that is has the EPA or any 
other part of the administration done any analysis as to the 
possible market impact in the U.S. from increased penetration 
of foreign specialty crops into the U.S. due to the potential 
ability of article 5 countries to increase exports during the 
period 2005 to 2015?
    Anybody who would like to answer that.
    Mr. Rodney Brown. The Economic Research Service has studied 
the impact of, first of all, total phaseout of methyl bromide 
in the U.S. For example, the tomato, pepper, eggplant and 
strawberry production would decline for several years, 
especially in States where methyl bromide is required, which 
tends to be in the warmer and wetter places. The estimate is 
that just Florida and California initially would each lose $200 
million annually in gross shipping point revenues. That is 20 
to 30 percent of the revenues from these crops in those two 
States.
    Mr. Holmstead. If I can interrupt my colleague I just want 
to make it clear that that is assuming that there is no methyl 
bromide available, and I don't think we believe that that is a 
possible outcome. We anticipate that for those critical uses 
that we will get through this process, the critical uses that 
we need.
    Mrs. Bono. Now my growers again are already still trying to 
get some equality, I guess, after NAFTA and constantly have to 
compete against the Mexican growers who have completely 
different standards, yet the consumer in the end knows none of 
this. But in Bill Pauli's statement, I would love it if you 
could comment on this, he says that--I know this is yet to 
come. I am being prescient here--but in the end American 
consumers will suffer most from the U.S. Loss of methyl 
bromide. The phaseout means the U.S. Will increasingly depend 
on imported international food sources that are less regulated, 
less reliable and less safe. A perfect example, recent 
outbreaks of hepatitis A in U.S. Consumers from eating imported 
strawberries and canteloupes. So between that and the 
staggering statistics you just listed for us I don't understand 
whose side we are on here, because it certainly isn't the side 
of my growers. And if anybody wants to comment on Mr. Pauli's 
statement here about this, you know, the unintended consequence 
here is we are now buying food products from other countries 
that aren't as safe, and I have to give my country of origin 
labeling bill a plus here that if people, at least the 
consumers, knew where the produce came from it would be very 
helpful. But don't you believe that this would be true that the 
consumer would be buying these products, that other countries 
are still using methyl bromide and they are still--and I agree, 
you know, Mrs. Capps' comments about it being a carcinogen are 
entirely different from this discussion here and I understand 
that. But just as far as the ozone layer and depletion, we are 
not helping the guy who is not adhering to the Protocol and 
this is entirely unfair in my mind. If you want to comment on 
that.
    Mr. Holmstead. If I could just comment.
    Mrs. Bono. Please.
    Mr. Holmstead. I am not aware that any one that is 
competing with the growers in your district are not subject to 
the Protocol.
    Mrs. Bono. Mexico is?
    Mr. Holmstead. Mexico certainly is subject to the Protocol. 
Now they have slightly different obligations than we do.
    Mrs. Bono. How are they different?
    Mr. Holmstead. The total phaseout in Mexico comes later 
than the total phaseout here. However, for instance, our 
critical use request is many times greater than the total 
amount allowed in Mexico. So I don't remember the----
    Mrs. Bono. But the theoretical phaseout is one thing. Is 
the enforcement mechanism in place in Mexico to find out?
    Mr. Holmstead. Mexico has been--you have to remember that 
methyl bromide is really only produced in three plants. Two of 
those are in the U.S. And we know a great deal about--and it is 
not easy to produce unless you have the right kinds of raw 
materials. So we are quite sure that there is no production in 
Mexico and so their only source of methyl bromide is what is 
produced in the U.S. at this point and Mexico has been actually 
very good in complying with its obligations under the Montreal 
Protocol.
    Mrs. Bono. Mr. Shimkus was just quick to point out the 10-
year difference between my growers and those 45 minutes away 
are going to be faced with. But 8 minutes is a lifetime, you 
guys. This is really nice.
    Mr. Barton. Would the gentlelady yield? I want to ask a 
question if she is----
    Mrs. Bono. You see, 8 minutes was way too good to be true. 
If you will be quick, Mr. Chairman.
    Mr. Barton. All right. I will be quick. I can't talk fast 
but I can think fast. Do you see that there is always going to 
be an exemption, a critical exemption? Do you ever see, Mr. 
Holmstead, that the United States would go zero? Are we looking 
at in essence having to get a critical exemption forever from a 
treaty that is supposed to go to zero in 2005?
    Mr. Holmstead. I don't think that is the case. I don't 
think we know exactly what the phaseout is but we do see 
alternatives coming on-line. People don't even worry about 
different ways to do it. So what we now know is that we believe 
that we will continue to need a certain amount of this 
pesticide through 2006. And that is the request that we have 
made and that is--and we believe that we will achieve enough to 
satisfy and then we will need to look at that every couple of 
years or it may be a longer period of time that the parties 
decide on. But I think it is very much premature to say that we 
know exactly when it can go to zero. But I anticipate that we 
will get there. We certainly have with other chemicals.
    Mr. Barton. Okay.
    Mrs. Bono. Thank you, Mr. Chairman. You actually asked my 
question, so pretty much, so----
    Mr. Barton. Well, you still have a minute and a half.
    Mrs. Bono. Oh. Thank you. I will actually yield back at 
that point. Okay, I will take it. I have a really simple 
question to ask anybody. In reading all of this, I don't know 
what a nematode is and usually we just ask our staff. My staff 
didn't know either. Can you please explain what a nematode is?
    Mr. Rodney Brown. These are little things that grow in the 
soil.
    Mr. Barton. That is not a very technical proficient answer. 
We call those weeds in Texas.
    Mrs. Bono. Little things that grow in the soil. I had to 
ask at risk of seeming like I didn't understand. I am sorry, 
but nematode was well beyond my college biology remembrances. 
So I hate to disappoint you, Chairman. I am going to yield 
back.
    Mr. Barton. All right. The gentleman from Texas, Mr. Hall, 
is recognized for 5 minutes.
    Mr. Hall. Mr. Chairman, I don't know what questions have 
been asked. I will wait and submit questions. Thank you.
    Mr. Barton. All right. The gentleman from Kentucky.
    Mr. Whitfield. Thank you, Mr. Chairman. Since I came in 
late, I guess there is a possibility some of the questions I 
ask may have already been asked. But first of all, it is my 
understanding that the Department of Agriculture has already 
spent around $140 million trying to come up with an alternative 
to methyl bromide and it is my understanding that they have 
really not found anything. Is that correct or not?
    Mr. Rodney Brown. No. It is not entirely correct. But the 
direction you are headed is--we haven't found solutions for 
every case, for everything we need to do. We do have a number 
of things where we have found things that work. But again, it 
relates to the time or the place, the climate, the soil, the 
crop, and all the combination of all these things. Most of the 
things that were covered by the Montreal Protocol were kind of 
mechanical things like Freon in refrigeration systems. It is a 
little bit easier to come up with a new chemical for a 
refrigeration system than in a biological system. So we 
continue to work on these and----
    Mr. Whitfield. You know, we talk about the people in 
agriculture, we talk about the people in milling and the 
negative impact that this is going to have on them. And many 
Members of Congress today are discovering in their districts 
the dissatisfaction with all sorts of groups, manufacturing 
groups, small business people who feel like that they are at a 
tremendous disadvantage because of a lot of these 
internationally negotiated agreements. Now what is the 
rationale for giving these non-article 5 countries 10 or 15 
years additional time to stop using methyl bromide?
    Mr. Holmstead. Well, I think there is a couple of good 
reasons. The first is simply that they have neither the 
technical nor the economic capacity that we do in terms of 
their ability to find substitutes, and that has been the basis 
for giving more time to the developing countries who are in a 
very different position than we are.
    Mr. Whitfield. Well, we can spend $140 million and haven't 
come up with a substitute yet.
    Mr. Holmstead. That is right. But the second thing is in 
order for this treaty to be effective we need to have them on 
board.
    Mr. Whitfield. Well, you know that might be fine for the 
nondeveloping, or developing countries, non-article 5 
developing countries. But what do you tell the farmer, small 
farmer, small miller who has significantly increased cost as a 
result of this and is trying to compete internationally and 
then you sit down and say, well, you have to understand that 
these other countries don't have as much money as our country 
and therefore we have to give them some advantages. What is the 
rationale for that?
    Mr. Holmstead. We have the critical use exemption process 
that will provide them with that.
    Mr. Whitfield. Who makes that decision? Who decides whether 
it will be granted or not?
    Mr. Holmstead. In the end it is the parties to the 
Protocol. But again I would compliment our colleagues in the 
State Department who have proven that they are very----
    Mr. Whitfield. Yeah, but I would like to know specifically 
who would make that decision to grant an exemption.
    Mr. Burnam. Well, that is a decision made by the parties 
that Congressman Barton mentioned, the consensus procedure that 
is generally followed. That is often to our advantage. I mean 
the U.S. often uses that to insist that it gets what it needs. 
So it can be an advantage to have a consensus procedure.
    Mr. Whitfield. Well, you know I didn't hear Chairman Barton 
so I don't know what he was talking about, but----
    Mr. Barton. You may not have known even if you heard me.
    Mr. Whitfield. I am sure that is not the case, Mr. 
Chairman.
    Mr. Burnam. Well, there has been a history of requests like 
this. This is the first time a critical use exemption has been 
considered but there used to be essential use exemptions. We 
got one for the space shuttle, for example. And our experience 
with those is that the parties have listened to the U.S. 
Request. They have examined the evidence and they have given us 
what we were able to show that we needed. So we have had a 
favorable experience with such requests. Now, to get back to 
your question.
    Mr. Whitfield. Well, are these Europeans that will be 
making decisions? Are they Asians? Are these Africans?
    Mr. Burnam. There are 180 nations who are part of the 
Protocol, so it is virtually everyone in the world that makes 
these decisions.
    Mr. Whitfield. So all 180 nations would have a 
representative on the decisionmaking body?
    Mr. Burnam. Well, we would go to the meeting in Nairobi 
this November and this would be like the No. 1 item on our 
negotiating list. We want the approval of our critical use 
exemption, so this would be a major aspect of the U.S. 
Negotiating position.
    Mr. Whitfield. Well you know it is my understanding that 
our industries that use this product went to EPA to come up 
with a quantity that they would need for their critical use 
exemption and that when EPA presented this or is going to 
present it in Nairobi or wherever, that they did not provide 
any input by the industry representatives, did not tell them 
anything about what they were asking for. And as it turns out, 
the EPA is even requesting a significantly smaller amount than 
is really needed. Is that wrong or is that right?
    Mr. Holmstead. No, that is not really the way that the 
process works. It is the U.S. Government obviously that goes 
and makes the submittal so we have been working with a number 
of months with the agricultural community, with research 
organizations, with USDA, with the State Department, and it is 
actually the State Department that presents our request for a 
critical use exemption. Now, it is true that if you add up all 
the requests that came in those came to a larger number than we 
actually asked for through the Protocol. But that is largely 
because there was a lot of double counting in the way the 
request came in. For instance, for a particular piece of land, 
a request to use methyl bromide on that land may have come in 
directly from a company. It may have come in through a trade 
association. And so what we did was go through all of those 
requests to make sure that there was a technically sound 
justification for them.
    So that is what we went to, collectively, the U.S. 
Government went to the parties with and as Mr. Burnam has 
mentioned, we expect that at the end of the day we will get the 
critical uses that we need for our farmers.
    Mr. Barton. The gentleman's time has expired. The gentleman 
from Ohio, Mr. Strickland, is recognized for 5 minutes.
    Mr. Strickland. Mr. Chairman, I apologize that I have been 
unable to be here and I just feel like it is inappropriate for 
me to ask questions that may have already been asked. But thank 
you for recognizing me.
    Mr. Barton. The gentlelady from Missouri is recognized for 
5 minutes.
    Ms. McCarthy. And I would like to second Mr. Strickland's 
wisdom on that having just arrived, and I would like to pass at 
this time.
    Mr. Barton. All right. All members of the subcommittee 
present have been given an opportunity to ask questions. The 
Chair would recognized the distinguished subcommittee chairman 
of the Health Subcommittee, Mr. Bilirakis, for questions.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. Thank you 
for allowing me the privilege of sitting in. And I first I 
would ask unanimous consent that my opening statement for the 
record plus a two-page letter dated May 29 of this year by the 
Florida Strawberry Growers be submitted for the record.
    Mr. Barton. We need to show that to the minority, but if 
there are no objections----
    Mr. Bilirakis. I would ask that that be made a part of the 
record after the minority has taken a look at it.
    [The prepared statement of Hon. Michael Bilirakis and the 
letter follow:]

   Prepared Statement of Hon. Michael Bilirakis, a Representative in 
                   Congress from the State of Florida

    Thank you, Mr. Chairman. First, I want to commend you for 
scheduling today's hearing on the use of methyl bromide. I also 
appreciate you allowing me to participate in this hearing since I am 
not currently a member of the Energy and Air Quality Subcommittee. I 
would like to take a moment to welcome our witnesses from Florida.
    The phase-out of methyl bromide is a major concern to many in 
Florida's agriculture industry. Some have estimated that the loss of 
methyl bromide would have a $ 1 billion impact on the U.S. winter 
vegetable industry, with Florida accounting for nearly all of this 
impact. I am pleased that a representative from the Florida Tomato 
Exchange will be testifying this afternoon.
    Methyl bromide is also critical to Florida's strawberry industry. 
I'm not sure how many of my colleagues know that Florida has been a 
primary domestic source of fresh strawberries for over a century. In 
fact, the area around Plant City and Dover is known as the ``the winter 
strawberry capital of the world,'' and the local strawberry festival 
draws nearly a million participants each year. I represent many of the 
strawberry growers from the area and have met with them on several 
occasions.
    Small family farms dot the countryside in the region and there is a 
mixed land use of small farms and rural and suburban homeowners in 
close proximity to strawberry production has coexisted for decades. 
According to the Florida Strawberry Growers Association, the median 
sized strawberry farm is 34 acres and the average farm is 53 acres.
    Methyl bromide has been the strawberry industry norm for pre-plant 
fumigation since the early 1960's. The potential loss of methyl bromide 
as a fumigant has been taken seriously by Florida' agriculture 
community. Like other growers from the state, the strawberry growers in 
my district feel that there are no reliable alternatives for methyl 
bromide available for their use at this time.
    The closest available alternative is Telone. However, there are 
several aspects to its use that make it undesirable to Florida's 
growers. First, it requires a 300-foot setback in the State of Florida, 
which could remove over 40 percent of our suburban acres currently used 
for strawberry production from use.
    Telone also has personal protection equipment (PPE) limitations 
that would require 45 minutes of rest for each hour in the field for 
temperatures over 85 degrees. The average high temperature during 
Florida's fumigation season for strawberries is 87 degrees. I am sure 
this limitation impacts Florida's vegetable industry as well.
    Label restrictions on the use of Telone on lands designated as 
Karst geology are specific. The subsurface geology of the Plant City/
Dover area is riddled with limestone fissures which could eliminate the 
use of Telone in these areas.
    Florida's strawberry growers fear that they will be forced out of 
business if methyl bromide is phased-out without viable alternatives 
being available to them. They have been actively involved with the 
Florida Fruit and Vegetable Growers Association to develop a ``critical 
use exemption.'' However, in light of the recent actions of the 
Technology and Economic Assessment Panel (TEAP) of the Montreal 
Protocol, they are concerned that their request will not be granted.
    Mr. Chairman, I have a letter from the Florida Strawberry Growers 
Association that outlines the organization's concerns that I would like 
to submit for the record. I look forward to hearing from today's 
witnesses and to working with you and the other members of the Energy 
and Commerce Committee on addressing the needs of the nation's growers 
as we deal with the requirements of the Montreal Protocol.

                                 ______
                                 
                     Florida Strawberry Growers Association
                                                       May 29, 2003
Representative Michael Bilirakis
2269 Rayburn House Office Building
Washington, D.C. 20515-0909
    Dear Representative Bilirakis: Florida has been the primary 
domestic source of fresh strawberries for over a century. The area 
around Plant City and Dover is justifiably known as ``The Winter 
Strawberry Capital of the World''. Last year, the farm gate value of 
strawberries in the county was $170 million. Strawberries are integral 
to the local economy and the culture of the community.
    Small family farms dot the countryside extending to the 
metropolitan area of Tampa to the west. This mixed land use of small 
farms and rural/suburban homeowners in dose proximity to strawberry 
production has coexisted for decades. Homeowners appreciate the open 
space and the rural character of the strawberry fields. In many cases, 
multiple sides of a strawberry field have residences overlooking the 
fields.
    The loss of the strawberry industry would have tremendous local 
impacts upon the economy and land use. It would have a major impact 
upon consumers, as the majority of the nation's winter fresh 
strawberries come from this community. Yet that is a probability if the 
current runaway train associated with the phase out of methyl bromide 
without viable alternatives isn't rethought.
    There are no reliable alternatives available for Florida strawberry 
growers at this time. The closest to an alternative is Telone, which 
provides lower yields and erratic performance. It also requires a 300-
foot setback in the state of Florida, which would remove over 40 
percent of our suburban acres for consideration. Telone has Personal 
Protection Equipment (PPE) limitations that would require 45 minutes of 
rest for each hour in the field for temperatures over 85 degrees. The 
average high temperature during the fumigation season is 87 degrees. 
These two factors alone would eliminate Telone as a viable option, but 
the production is also in Karst geological areas, which may eliminate 
its availability for Florida.
    This time last year, we were placing our hopes on the EPA's 
Critical Use Exemption (CUE) process. We worked for months bringing 
together the best scientists and technical expertise to state our case 
for an exemption until we could transition to something that wouldn't 
disrupt our community. EPA was charged with a Herculean task to examine 
and evaluate the dozens of CUE applications nationwide. They missed 
some things, but deserve credit for dispatching their duty in a 
professional manner.
    EPA requested a CUE for 39 percent of the 1991 baseline level. This 
was less that we felt we justified, but was nine percent more than was 
currently allowed through the phase out schedule. When the EPA CUE 
request was forwarded to TEAP, we were uneasy, knowing the volume of 
data we had assembled, and the short time the committee had allowed for 
review. It appears our fears were justified. TEAP alleges that EPA 
didn't submit sufficient information to justify the CUE. They totally 
ignored local situations like our own in their analysis.
    We are absolutely petrified that TEAP never had any intention of 
fairly reviewing our request, and that we have no chance of receiving 
an exemption through the CUE process. That would be a disaster to our 
community. It would also be a sad statement for our country, to allow 
foreign agendas to limit our ability to produce food.
    We are running out of time and options. We have played by the 
rules. We have tried everything to meet this deadline, spending huge 
amounts of money on research. We have utilized the supposed remedy to 
our situation in good faith. We need your help in granting us more time 
to find an alternative that works, is practical, and doesn't damage the 
environment more than the compound it is supposed to replace.
    We are eager to provide any additional support information you 
might need. Please contact us at the Association office if we can help.
            Sincerely,
                                           Charles F. Hinton, Ph.D.

    Mr. Bilirakis. I guess Ms. Bono asked the question whose 
side are you on and we sometimes wonder, don't we? I wonder, 
you know negotiating takes place and I appreciate it is a heck 
of a lot more complex than I can imagine. But, you know, the 
unintended consequences again, as she referred to. But I 
represent an area in Florida, and after all this is a 
representative republic and we do represent those areas and we 
care about them, and so we get a little bit local in our 
thinking. But that is okay. That is the way the founders 
intended it. But my area is the winter strawberry capital of 
the world. And my strawberry farmers are going through a rough 
time. I know later on some of the Floridians here will be 
testifying on behalf of the Florida tomato people, which I 
think some of those are grown in our area, too. But according 
to the Florida Strawberry Growers Association, a medium size 
strawberry farm is 34 acres and the average farm is 53 acres. 
They are small family farms is what they are. Not great big 
conglomerates but small family farms, and I wonder if the 
negotiators are aware of that. I wonder if they are aware that 
at least now in any case, as I understand, the closest 
available alternative is telone. I am not sure whether I 
pronounced that correctly. However, there are several aspects 
to its use that make it undesirable to Florida's growers. Our 
negotiators, our State Department, Agriculture Department, are 
they aware that it requires a 300-foot setback in the State of 
Florida, which could remove over 40 percent, gentleman, over 40 
percent of the acres currently used for strawberry production 
from use. It also has personal protection equipment limitations 
that would require 45 minutes--and I don't understand this 
stuff but in any case that is what I hear--would require 45 
minutes of rest for each hour in the field for temperatures 
over 85 degrees. And the average high temperature during 
Florida's fumigation system for strawberries is 87 degrees. So 
you can see that this limitation certainly impacts the 
strawberry people and I think it also would impact Florida's 
vegetable industry as well.
    Also the geology, the subsurface geology of the area is 
very significant in terms of limestone fissures which could 
eliminate the use of telone in these areas. So, you know, 
gentlemen, decisions are made and I oftentimes wonder whether 
counsel has taken place with the real world's agriculture 
community or the real world people who are so very responsible 
for these jobs. And I don't know whether you were aware of all 
this when you made your decisions, when you allowed this so-
called developing nations to use methyl bromide until 2015, 
that some of these developing nations are among our biggest 
food and agriculture competitors, that approximately 40 nations 
have not yet even ratified the Protocol or its amendments, many 
of them our competitors. How can we be certain that these 
nations meet the phaseout schedule? They haven't even ratified 
it, for crying out loud. Do they even use it? Do they continue 
to use it? They haven't ratified it. What enforcement mechanism 
is currently in place? I think Mr. Whitfield pretty well asked 
that. Under the Protocol to assure that information received on 
methyl bromide from other countries is true and correct, a 
whole slew of questions there. But basically I throw these out 
because I want them a part of the record. But more than 
anything else, come on. Unintended consequences. We face it up 
here all the time with some of the legislation we pass and we 
are sometimes sorry later on because of unintended 
consequences. We are hurting our own people who we represent, 
who pay our taxes, pay our salaries.
    Comments.
    Mr. Burnam. Well, we are aware of the factors that you 
mentioned and they were concerned in the interagency's review. 
The decision to allow developing countries a different 
timeframe than developed countries was made in the early 1990's 
when the question was would they come under the Protocol at 
all. And so it was in the context of are they going to be part 
of the Protocol or are they not. And the position, you know, 
the differentiation and the timeframe for the developing 
countries and the developed countries was made in 1991 and 
1992.
    As I testified before, I think it is very important that 
the critical use exemption not be politicized; that the parties 
make this on an objective basis and if indeed, you know, there 
is a need for the use of methyl bromide in Florida, as there 
certainly is, that the parties recognize that need and grant 
the exemption.
    Mr. Bilirakis. Is the Federal--well, I see the red light is 
on, Mr. Chairman. With your indulgence I would ask is the 
administration, whoever is responsible on our side, going to 
take this into consideration and make a move to maybe get a 
change made there?
    Mr. Burnam. In the phaseout?
    Mr. Bilirakis. Yes.
    Mr. Burnam. The European Union has made a suggestion for an 
accelerated phaseout for developing countries and we just 
received that proposal. Twenty of the developing countries have 
agreed to phase it out sooner than required under the Protocol. 
But under the current provision the developing countries are 
capped at 80 percent of their 1995, 1998 use after 2005 and 
unlike the United States they would not be entitled to a 
critical use exemption under that provision. In other words, 
they will be bound with an 80 percent cap whereas we would be 
able to pursue critical use.
    Mr. Bilirakis. I yield back whatever time I don't have, Mr. 
Chairman, but I would hope someone would ask the question how 
do you go about amending this thing.
    Mr. Barton. I have already asked it once.
    Mr. Bilirakis. Have you?
    Mr. Barton. I am going to ask it again on wrap-up.
    Mr. Bilirakis. Thank you, sir.
    Mr. Barton. Mr. Shimkus, who deferred his questions while I 
was out of the room. I apologize. I thought he had asked 
questions. So he is recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I appreciate the 
efficiency of the State Department. However, I think they left 
page 5 out, so I don't have page 5. But to show that I have 
read it, I want to ask about the last question in response----
    Mr. Burnam. I have page 5 here somewhere.
    Mr. Shimkus. That is okay.
    Mr. Barton. He doesn't have 1, 2, 3 and 4 but he has 5.
    Mr. Shimkus. The last question asked about the parties to 
the Montreal Protocol that do not use or have never used 
particular ozone depleting substance who receive multilateral 
fund grants. This was also part of my opening statement, and 
that is why I wanted to see if the letter had been--if the 
letter had been responded to. Basically the response is 
generally no. And then you go on to mention Panama, which is 
the subject of the question, and then that is where I got 
cutoff. But isn't it true to say that any country can say they 
might use methyl bromide and then get funds to do the research 
on alternatives? When that occurs, that takes additional money 
out of the methyl bromide using countries to fund research on 
alternatives. Wouldn't that be the case? And I will throw that 
out.
    Mr. Burnam. No. The fund under which Panama, which on page 
5 has reported using methyl bromide and has received funding 
for methyl bromide related projects----
    Mr. Shimkus. Can you tell me what Panama has, what they use 
methyl bromide for? Not that I don't trust the--obviously the 
Panamanians, but I am being told that they do not use methyl 
bromide.
    Mr. Burnam. Well----
    Mr. Shimkus. I mean you don't have to do it now.
    Mr. Burnam. More importantly, the budget for research on 
alternatives to methyl bromide is a budget within USDA. The 
budget that the developing countries receive is a budget which 
helps them adapt to new technologies. The developing countries 
said----
    Mr. Shimkus. Which we pay into?
    Mr. Burnam. The multilateral fund.
    Mr. Shimkus. Which we pay into about 25 percent?
    Mr. Burnam. Right. They basically said to us you have the 
technology, we don't. Why don't you give it to us and we said, 
well, we are not giving it to you but we are willing to help 
you purchase the American technology.
    Mr. Shimkus. The same technology that we really have no 
alternative right now in this country to replace in a lot of 
items. Is that the same technology you are referring to?
    Mr. Burnam. Well I was referring more generally to 
refrigerants and CFCs where back in 1991 they said we don't 
have this technology. We said, well, we will help you get it. 
But in the case of methyl bromide, as the USDA witnesses 
indicated, it has been very hard to find alternatives for all 
crops and all soils, so----
    Mr. Shimkus. What would be the opportunity for this 
administration, which you all represent, I guess it would be 
this fall, to renegotiate the United Nations' Montreal Protocol 
treaty this year and allow the U.S. more time beyond 2005?
    Mr. Burnam. We don't believe there needs to be any changes 
in the Montreal Protocol or in current law. The United States 
is firmly committed to this process for critical use exemption 
and we don't----
    Mr. Shimkus. Obviously, the vast majority of members who 
have spoken, not all of them, but are skeptical, I guess you 
could say, that we will see a large critical use exemption 
especially to those crop areas that are needed.
    Mr. Burnam. Well, the proof is in the pudding. The decision 
will be made in November for the years 2005 and maybe 2006, but 
as I have said many times, the State Department will push very 
hard and use every diplomatic effort we can muster between now 
and November to make sure that the parties don't politicize 
this process.
    Mr. Shimkus. Mr. Holmstead, do you have a response to that 
question?
    Mr. Holmstead. Yeah. I think it is premature to talk about 
any need to change the Protocol. We are quite confident based 
on the experience of our folks that we will get the critical 
use exemption that we need.
    Mr. Shimkus. Mr. Brown.
    Mr. Rodney Brown. Well, USDA's role in this of course is to 
come up with the alternatives, but we participated with the 
other agencies in putting together the package for the critical 
use exemptions. We think it was thoroughly done and carefully 
done. We think it covers the areas where we don't have 
alternatives. If there are other areas where we find we don't 
have alternatives, we could apply for those also. We think it 
is supportable and we think we should push as hard as we can to 
get those exemptions to the full extent we requested.
    Mr. Shimkus. But application is not receipt of, correct?
    Mr. Rodney Brown. Correct. We won't know until November.
    Mr. Shimkus. And that is when we go before the 
international body and so there is no certainty that we will 
get any critical use exemption?
    Mr. Rodney Brown. That is technically correct.
    Mr. Shimkus. That is the problem, Mr. Chairman. I yield 
back.
    Mr. Barton. The gentleman from Idaho wish to ask questions?
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Barton. If so, he is recognized for 8 minutes.
    Mr. Otter. I thank the panel for being here and trying to 
at least sort through the Montreal Protocol for us. I want to 
follow a line of questioning that was introduced earlier in 
this discussion. It revolves around you know, No. 1, how do we 
verify that these folks are in compliance? What kind of 
verification do we use? I know how you verify the folks in 
Idaho and I know how you verify the folks in Imperial and San 
Joaquin Valley and places like that. But how do you verify it 
in Chihuahua?
    And the reason I ask that question is because I remember 
years and years and years ago where we agreed not to use DDT 
and I could still go down there as recently as a few years ago, 
which I spent many days down there, and I could still find 55 
gallon drums of DDT and none of us were using it. Yet 900 
trucks a day of lettuce and all the other kinds of fruits and 
vegetables that compete with our farmers in the southern 
region, our producers in the southern region, are lined up at 
the border at Nogales coming across the border. Our folks can't 
use them. Their folks can use them. And I have a real problem 
with the sincerity that the State Department, that the EPA, 
that the U.S. Agriculture Department use in the compliance and 
the verification.
    Now, let me say at the outset that methyl bromide, although 
it is important to us in Idaho because we have a lot of 
nematode problems and we have lots of soil borne pathogens, but 
we are visited every year by the greatest fumigant there is and 
that is called about 10 days of subzero weather, and what it 
doesn't kill it weakens pretty bad. So we don't have to use it 
too bad. But unfortunately, they don't have that in the San 
Joaquin Valley. They don't have that in the Imperial Valley. 
They don't have that in a lot of areas that don't enjoy the 
weather that we do in the northern climate. And so take a 
minute here or two and run through the verification process for 
me if you will, somebody.
    Mr. Holmstead. Let me give you the highlights and then we 
can provide an answer in more detail for the record.
    Mr. Otter. Okay.
    Mr. Holmstead. Under the Montreal Protocol the reporting 
mechanisms have worked quite well.
    Mr. Otter. Are these volunteer or do you check on the 
checker?
    Mr. Holmstead. We actually have ways of checking on the 
checker.
    Mr. Otter. How do you do that?
    Mr. Holmstead. Well, in particular for instance, methyl 
bromide we know there is really only three producers in the 
world of any size. Two of those are located in the United 
States and we know a lot about how much they make. We actually 
have explicit authority under the Clean Air Act to get 
information and they provide that to us. We get confidential 
business information about how much they make, how much they 
store, how much they ship, where they ship it to, and so we 
know a great deal about where the methyl bromide goes.
    Also there are less formal mechanisms for making sure. I 
mean, in other areas we get tips from competitors and they say, 
hey, you know, look at so and so. You know, they seem to have a 
source of CFCs which are illegal. So there are a number of 
formal and informal mechanisms. And I have to say, thus far 
anyway, we are very confident that the reporting under the 
Protocol has been quite accurate and fair. People have reported 
noncompliance in some cases. It is by very small amounts. But 
there is a whole series of a normal and informal enforcement 
mechanisms that are built into the Protocol, and we could 
provide you more detailed information about that.
    Mr. Otter. Okay. Mr. Burnam.
    Mr. Burnam. Yes, I would just endorse Mr. Holmstead's 
answer on that point. We have not had a case yet where we have 
identified a party that has not reported on its noncompliant 
status, although obviously the informal checks that Mr. 
Holmstead was indicating are important. I mean I don't say that 
it hasn't happened. But we are not aware of a case where a 
party has failed to report that it is not in compliance. The 
one major case of noncompliance involved Russia for a couple of 
years recently. But they are now back in compliance.
    Mr. Otter. When they went out of compliance, did we stop 
shipments of anything to the United States?
    Mr. Burnam. No, what generally happens under the Protocol 
usually it is a very small amount where they are out of 
compliance and they work with the Secretary and the parties to 
the Protocol or a get well plan. I mean often it is because of 
a civil war in the Democratic Republic of the Congo or Belize 
doesn't have the capacity to monitor. So what generally happens 
is they work with the parties to the Protocol on a get well 
plan. That is what Russia did. But Russia was the only case 
where there was a party with pretty significant abilities that 
was out of compliance.
    Mr. Otter. Okay. Well, I don't want to spend any more time 
on that. I am not totally satisfied, but that question will 
follow later. One of the things that I do want to go over is 
what the ranking member brought up, and that is the process by 
which American domestic producers enter their requirements, 
enter their requests for the use of such material. Is this 
pretty much uniform across the United States? In other words, 
does a request, let's say, from Texas meet with the same 
enthusiasm and permission for a request where there is a whole 
lot more votes in the Congress than a request from Idaho, where 
there is only two?
    Mr. Holmstead. We take seriously requests from Idaho and 
Texas and, let's see, California. The process is very 
regularized. We actually provide a Federal Register notice to 
put everyone on notice. We also go informally out through trade 
associations, and I would say it is a very robust process that 
involves--our office is the Air Office but we have an Office of 
Pesticide Programs that knows exactly where all the methyl 
bromide users are. We have numerous folks who spend, you know, 
several months of time working with their counterparts in USDA, 
and it is a very open air process.
    Mr. Otter. So we have pretty much domestic balance?
    Mr. Holmstead. Yeah.
    Mr. Otter. We have pretty much domestic balance on it. The 
other question that comes to mind is we are having a real 
problem with, quote-unquote, GMOs. I think it is an artificial 
trade barrier myself because there isn't any crop that we have 
got today that hasn't been genetically modified one way or the 
other. And interestingly enough the Montreal Protocol is silent 
on that and yet advancing GMOs in the world could make a plant 
nonsusceptible to nematodes or other pathogens. It would seem 
to me that we need to modify things like the Montreal Protocol 
so that we could breed plants to genetically modified organisms 
in order to make them nonsusceptible so that we wouldn't need 
to use these kind of chemicals. And we seem to have the 
breeding characteristics and the grafting characteristics in 
our agricultural areas to do this now. And it would seem to me 
that if there is a process by which we could modify the 
Montreal Protocol that we would champion that effort and 
encourage that.
    Would you like to respond to that? Yes, sir.
    Mr. Rodney Brown. USDA's role isn't so much to modify the 
Protocol as the plants and in fact we are doing that very 
thing. One of the things you would be interested in is plants 
that are less susceptible to nematodes and many of the others 
that you have mentioned.
    Mr. Barton. The gentleman's time has expired.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Barton. We are not going to do a second round. We have 
got seven more witnesses. Oh, Mr. Radanovich has just arrived. 
So he is recognized for 5 minutes. Oh, you are here.
    Mr. Radanovich. Thank you, sir. If somebody--let's see, Mr. 
Brown or Mr. Holmstead, if could you answer this question for 
me. The administration is placing great faith on the success of 
the CUE process. In essence it is leaving the future of our 
food and agriculture interests to be decided by foreign 
governments. What steps is the administration prepared to 
pursue if it turns out that reliance on the CUE process is 
misplaced? For example, what will the administration response 
be if the requested CUE nomination by the U.S. Government is 
not approved in total? Remember that the EPA has critically 
determined after exhaustive review that 39 percent of the 
baseline represents a critical need for the United States.
    Mr. Burnam. Well, I don't think it would be wise to 
speculate on what we might do if we don't get our request 
satisfactorily resolved. I have indicated in previous answers 
that we are prepared to take every diplomatic step necessary. 
If, for example, we were to suggest some modification to the 
Protocol at this time, I think that would undermine any attempt 
we might make to get a critical use exemption.
    Mr. Radanovich. Just between us friends; we don't have to 
formalize it in any way?
    Mr. Burnam. Well, I mean our position is that the critical 
use exemption is adequate. We can make it work. We can get the 
farmers what they need, and that is our position. We don't 
believe we need to modify any provisions of the Protocol to 
achieve that.
    Mr. Radanovich. The TEAP's recommendation suggests that the 
U.S. Government simply did not do their job properly in 
submitting the key request. Is it conceivable that the TEAP is 
correct or instead does it now make it clear that UNEP is 
predisposed to not approve most uses of methyl bromide 
particularly for pre-plant soils in the United States.
    Mr. Burnam. No. I don't think it is conceivable. I think it 
is a very complex matter involving different soils, different 
crops. I think it is only natural that they would want more 
information and we are happy to supply them with it. There have 
been cases in the past where more information was asked for, it 
was supplied. We don't believe the request for more information 
indicates an adverse view on their part.
    Mr. Radanovich. Okay. Given the TEAP recommendations, can 
the CUE process be relied on to protect U.S. interests, do you 
think?
    Mr. Burnam. Absolutely. I think it can be relied on to 
fully protect U.S. interests, and the State Department intends 
to ensure that that is the case.
    Mr. Radanovich. Okay. Thank you, Mr. Chairman. Those are 
the only questions I have got.
    Mr. Barton. Okay. Before we let the panel go, I want to 
thank you for your attendance and the sincerity of which you 
testified. I still have a lingering concern. I sense that you 
are trying to work within the framework, but it is a framework 
that is very difficult to work within because there is no 
alternative in these critical use exemptions that are being 
requested of some amorphous body of 183. And I look through the 
list and they are countries I don't know where they are. I 
didn't even know they were countries, yet they have a vote on 
this if it comes to a vote. We have a rider on an appropriation 
bill that extended the deadline. I think we did that back in 
1998. I feel very strongly that the authorizing committees 
should authorize.
    I don't know which of you is the senior ranker of 
administration, so I am just going to ask all three of you to 
go back to your respective agencies. I understand we need to 
let the process work. I think that is what you said makes a 
little sense. But we are going to end up in November, Congress 
is still going to be in session because it is not an election 
year. If we need to do something I want this subcommittee to do 
it. I don't want to sit around and have to go through the 
appropriation process if they reject it. So, I mean, look at 
your hole cards, you know, and I think you are making a good 
faith effort but we have got lots of--Mr. Whitfield and Mr. 
Bilirakis and Mr. Radanovich and Ms. Bono and Mr. Issa all, 
their people are suffering and we could say the same thing on 
the Democratic side of the aisle. So if you think you are 
making progress and you are going to get these special use 
exemptions, critical use exemptions, the sooner we know that 
the better. If that ain't going to work, then somebody--just 
pull a country out of the air, France is going to object, you 
know, let us know. I mean, but my guess is that right now you 
want the Congress to just monitor, but not put a legislative 
bill in play. Is that a fair assessment?
    Mr. Burnam. Well, we certainly appreciate your calling this 
hearing and flagging the issue, and we will keep you very 
informed and work very closely with you in the coming months. 
But, no, we would not recommend any changes in law.
    Mr. Barton. Well, we are a coequal branch and we do 
exercise that coequalness and there is a lot of support on this 
subcommittee to do something. Now I have one special personal 
request. I want each of you three gentlemen to stay in the 
audience and listen to the next panel. We have got seven 
witnesses on a bipartisan basis, and you are going to get an 
earful. But you need to hear it because we hear it. If you are 
in an ag district, you know, when we go home, this is what we 
hear and sometimes administration is off in the ivory towers 
and they don't hear it. So if y'all would do me this favor and 
listen to the next panel, it may help in the negotiations. Are 
y'all willing to do that? It will only be another 35 minutes or 
so. Okay, this panel is excused and we are going to hear from 
our next panel.
    The subcommittee will come to order. We have had to expand 
the table because of the number of witnesses. And if everybody 
could be seated, we have a few special introductions.
    Mr. Radanovich. Is Congressman Radanovich----
    Mr. Issa. I think he just stepped out, Mr. Chairman.
    Mr. Barton. Is he in the anteroom?
    Mr. Issa. He is coming back.
    Mr. Barton. All right. We want to welcome our second panel. 
We have Mr. Bill Pauli, who is President of the California Farm 
Bureau; Mr. Reginald Brown, who is Vice President of the 
Florida Tomato Exchange; Mr. Rich Siemer, who is President of 
Siemer Milling Company in Teutopolis, Illinois; Mr. Michael 
Mellano, Senior Vice President of Mellano and Company in San 
Louis Rey, California; Dr. Joseph Noling, at the University of 
Florida Cooperative Extension Service's Citrus Research and 
Education Center; Dr. Jack Norton, who is the manager for 
Interregional Research Project No. 4 of the Methyl Bromide 
Alternatives Program, Edmond, Oklahoma; last but not least Mr. 
David Doniger, who is the Policy Director of the Climate Center 
for the Natural Resources Defense Council.
    And so we are going to recognize Mr. Radanovich to 
introduce Mr. Pauli and then Mr. Issa to introduce Mr. Mellano.
    Mr. Radanovich. Thank you, Mr. Chairman. I want to welcome 
the third term President of the California Farm Bureau, Mr. 
Pauli, to be here testifying today. Bill, good to see you. And 
just a reminder of California, it is a State with about 200 
different types of crops. It is a specialty crop State with a 
net worth of $30 billion a year. It is the State's largest 
industry, and Bill Pauli does a wonderful job representing 
California agriculture here in California and also in 
Washington. So I want to welcome Bill and we look forward to 
your testimony.
    Mr. Barton. Okay. Mr. Issa.
    Mr. Issa. Mr. Chairman, thank you. It is my pleasure to 
welcome my constituent, my friend, and a leader in our 
community. Dr. Mellano has spent his entire life in the cut 
flower industry, holds a Ph.D. And has been active in just 
about every organization in a State in which we dominate the 
United States market for cut flowers, $6.5 billion portion of 
California's agricultural market. It goes without saying that I 
am thrilled to have Dr. Mellano here today and to have the 
benefits of his years of experience and his understanding, 
particularly with methyl bromide, of where there are viable 
alternatives and where there are not.
    So thank you, Mr. Chairman.
    Mr. Barton. Thank you. Gentlemen, welcome. Your testimony 
is in the record in its entirety. We are going to start with 
Mr. Pauli, ask each of you to summarize in 5 minutes. Since we 
have seven witnesses and we are expecting a series of votes in 
the next 30 minutes, we would like to at least get your 
testimony summarized before we have to go vote. Welcome to the 
subcommittee, Mr. Pauli.

  STATEMENTS OF BILL PAULI, PRESIDENT, CALIFORNIA FARM BUREAU 
  FEDERATION; REGINALD BROWN, VICE-PRESIDENT, FLORIDA TOMATO 
EXCHANGE; RICHARD C. SIEMER, PRESIDENT, SIEMER MILLING COMPANY; 
H. MICHAEL MELLANO, SENIOR VICE PRESIDENT, MELLANO AND COMPANY; 
 JOSEPH W. NOLING, UNIVERSITY OF FLORIDA, FLORIDA COOPERATIVE 
   EXTENSION SERVICE, CITRUS RESEARCH AND EDUCATION CENTER, 
   INSTITUTE OF FOOD AND AGRICULTURAL SCIENCES; JACK NORTON, 
 MANAGER, INTERREGIONAL RESEARCH PROJECT NO. 4, METHYL BROMIDE 
 ALTERNATIVES PROGRAM; AND DAVID D. DONIGER, POLICY DIRECTOR, 
       CLIMATE CENTER, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Pauli. Thank you, Mr. Chairman and members of the 
committee and fellow Californians who are on the committee. It 
is a pleasure for me to be here today, and I have submitted 
written comments for the record. Let me summarize a few of 
those comments.
    No. 1, I am a farmer. I am a wine grape grower and Bartlett 
pear farmer in northern California. I am representing both the 
American Farm Bureau and the California Farm Bureau here today. 
There are really three points I think that we need to focus on 
today. Obviously we focused on how important methyl bromide is 
to the industry and we all understand that; No. 2, the Montreal 
Protocol and how badly flawed we believe the process appears to 
be; and, third, what Congress must do to be sure that we 
receive an adequate amount of the 39 percent under the CUEs 
that have been requested.
    I don't think there is any disagreement about methyl 
bromide and its importance. We have talked about that. All of 
you have heard that. We understand both from a pre-plant and a 
post-harvest standpoint how important it is. The number was 
kicked around a little earlier, whether it is 85 to 95 percent 
of the use. But it is clearly more like 95 percent of the use 
is for a fumigant rather than post harvest. A wide variety of 
crops use it: Grapes, almonds, tomatoes, peppers and 
particularly cut flowers. As a post harvest fumigant we use it 
in grains, dried beans, raisins, prunes, almonds, walnuts and 
certain other crops, and it is very important there as well.
    Methyl bromide, it is cost effective. It works extremely 
well. It is an effective product, and it is a safe product. And 
certainly, through our worker safety programs we have tried to 
assure that it is safe. It is always safe. We recognize that 
there are challenges there as well.
    What are the alternatives to methyl bromide? You know, we 
all keep hoping there is a silver bullet and yet we haven't 
found that silver bullet of an alternative. We have spent in 
excess of $100 million and probably over $150 million by USDA, 
various registrants, by universities and by private firms to 
try to find effective alternatives, and yet we have not found 
viable alternatives that are nearly as effective or cost 
effective as methyl bromide. We also have to recognize that 
with these alternatives come problems and challenges related to 
worker safety and that they are less efficient, that they are 
more costly. But they too have environmental effects. 
Hopefully, in the short-term, we will begin to find some 
meaningful alternatives.
    Let's talk for a second about what is occurring because of 
the lack of methyl bromide availability in our country and the 
phase-down. Production is simply shifting to other countries. 
In the end, who does that hurt? The California consumer, the 
California farmer, and the United States economy. The phase-in 
is leading to increasing dependence on imported food from other 
countries. Any environmental benefits achieved by American 
farmers because of the reduced methyl bromide use has been 
undone by increasing use in other countries.
    Accordingly, in 1991 the United Nations reported China's 
consumption of methyl bromide was expected to increase tenfold 
by 2002, and we believe that they are beginning to increase 
their production of methyl bromide and that there are more than 
the number of facilities that were talked about in the earlier 
testimony.
    Critical use exemption process. This is the key point that 
I think we have to focus on today. The CUE process has been 
touted to provide the necessary relief. Commodity groups 
committed significant time, expertise and financial resources 
in working with the EPA to prepare the CUE requests. Producers 
have attended workshops, participated with the EPA and done 
everything we can to help build that case. All to no avail. We 
are afraid. We will see what the final results are, but our 
concern is that we will not receive the 39 percent requested.
    Let me put that in perspective. 821 tons is about 1.8 
million pounds. At 200 pounds of active ingredient per acre 
that will allow the fumigation of only 900 acres. California 
has averaged 25,000 acres of strawberries alone in the last few 
years. Let's talk for a second about the Montreal Protocol. It 
is seriously flawed. Contrary to the U.S. EPA assertion that 
the amount of methyl bromide being requested was necessary 
because of the lack of feasible alternatives from the threat of 
disruption of the American agriculture, the TEAP determined 
that the U.S. Government had not submitted sufficient 
information to substantiate the U.S. request. The rejection 
comes in the face of thousands of man-hours, the expertise of 
scientists and agriculture economists and EPA's commitment to 
putting together its nominations to the United Nations. 
Further, it rejects the realm of data compiled from millions of 
dollars of agriculture research conducted by both the USDA and 
other commodity groups.
    Let me summarize because I know we run really, really close 
on time. You know, despite years of research there are not 
alternatives. Commodity groups have committed significant time, 
expertise and financial resources to work with the EPA on the 
CUEs. Following submission of the CUE requests TEAP developed 
additional criteria to evaluate the nomination package without 
notifying the nominating countries. The recommendations issued 
by the review committee confirm that the CUE process is fatally 
flawed and cannot be relied on to protect our Nation's 
consumers or farmers. A couple of things were said----
    Mr. Barton. You do need to summarize.
    Mr. Pauli. 30 seconds. No. 1, the process is working well, 
according to Mr. Holmstead. We have serious reservations about 
that. No. 2, Mr. Brown stated the full amount will be granted 
and I am certainly relieved to hear that that will be the case, 
although I have serious reservations.
    We appreciate the opportunity to be present today, and our 
record will be submitted.
    [The prepared statement of Bill Pauli follows:]

  Prepared Statement of Bill Pauli, President, California Farm Bureau 
      Federation on Behalf of the American Farm Bureau Federation

    Good afternoon Mr. Chairman, members of the Committee. My name is 
Bill Pauli; I farm in California's Mendocino County producing wine 
grapes and Bartlett pears. I am president of the California Farm Bureau 
Federation and a member of the American Farm Bureau's Board of 
Directors. On behalf of the thousands of Farm Bureau members who use 
methyl bromide, I thank you for the opportunity to address you today 
regarding our concerns.
    Methyl bromide is an essential tool for crop production, grain 
storage facilities, public health and general pest control. It is a 
crucial production tool in providing consumers with a safe and reliable 
food supply. As you are aware, use of methyl bromide in the U.S. is 
being phased-out in accordance with the Montreal Protocol as 
incorporated in the federal Clean Air Act.
    I'm here to make three points:

1. Securing the continued availability of methyl bromide is critical 
        for many U.S. farms and uses.
2. The Montreal Protocol Critical Use Exemption (CUE) process is 
        flawed.
3. Congress must work with the Administration to act to ensure U.S. 
        consumers and farmers receive meaningful, much needed relief 
        from the phase-out.

                               IMPORTANCE

    Methyl bromide has two main agricultural uses: fumigation of soil 
prior to planting and post-harvest commodity treatments.
    In 1997, USDA's Economic Research Service (ERS) estimated that 
about 70 percent of methyl bromide used in the U.S. was for pre-plant 
soil fumigation. A March 2003 USDA-Agricultural Research Service (ARS) 
report states that 95 percent of strawberry acreage in California and, 
by Florida Strawberry Growers Association estimates, 100 percent of 
strawberry acreage in Florida is fumigated prior to planting each year. 
The strawberry industry will see some of the most significant projected 
losses due to the phase-out of methyl bromide--a nationwide loss of 
$131.5 million born by producers. A 1996 study estimates that a 
complete methyl bromide ban will increase the farm-gate price of 
strawberries by 18.2 percent--$132.62 more per ton. Methyl bromide is a 
critically needed pre-plant soil fumigant for other important 
commodities such as grapes, almonds, tomatoes, peppers and cut flowers.
    Using methyl bromide means yields improve because the need to hand 
weed and cultivate is reduced, allowing for the use of drip irrigation. 
Better yields mean better margins. Pre-plant soil fumigation also 
controls soil-borne fungal pathogens and various pests contributing to 
the reduced vigor of newly planted crops.
    Methyl bromide is an important post-harvest treatment used to meet 
sanitary standards set by the Food and Drug Administration and 
importing countries for grains, dry beans, raisins, prunes, figs, 
dates, almonds and walnuts. These products are typically treated before 
and during storage, and prior to being packed or shipped. Storage 
structures, containers and processing facilities are also fumigated to 
ensure proper sanitation.
    For most users, methyl bromide continues to be an extremely simple, 
cost-effective treatment that can be applied within a flexible 
treatment timeframe--it works every time, all the time.
    Over the last 10 years, a great deal of effort has been expended to 
find alternatives to methyl bromide use. Research efforts by 
registrants, university researchers, private firms, and other 
government agencies are estimated to have totaled over $120 million. 
But, problems still exist in finding and developing viable alternatives 
to methyl bromide. There is no one size fits all replacement or 
combination of replacements that works as well, as consistently or as 
cost-effectively as methyl bromide.
    Previously proposed alternatives have problems, such as possible 
carcinogenic traits and groundwater contamination, far greater than any 
posed by use of methyl bromide. Some potential replacements require 
higher rates of application, or application in conjunction with other 
products to control all the target pest and diseases. Plus, varying 
soil types affect the ability of a product to absorb to appropriate 
soil depths. So far, proposed alternatives have limited real world use 
due to application restrictions and other concerns. No product comes 
close to functioning as cost-effectively or efficiently as methyl 
bromide.
    Even when potential alternatives are identified, developing all the 
data necessary to support the product's registration by EPA takes years 
and requires meeting the conditions of a variety of laws such as the 
Food Quality Protection Act. And, that's assuming that an alternative's 
potential use in the market justifies a registrant taking a product 
through registration. Many uses needing alternatives are ``minor 
crops'' representing smaller market shares. There is no guarantee that 
a registrant could recoup the costs of these registrations while still 
making the price to producers affordable. As a result, farmers and 
users are helpless in determining long-term feasibility of their 
dependence on methyl bromide and planning for the future of their 
operation.
    The progression of the phase-out and lack of suitable replacements 
has caused the cost of methyl bromide to skyrocket. As reported by ERS 
in April 2003, ``The U.S. average price rose from $2.50 per pound of 
active ingredient in 1999, when the first reduction began, to $4.50 in 
2001.'' At an application rate of 200-250 pounds of methyl bromide per 
acre, that's an additional $400-$500 per acre in production costs. For 
most farmers, there is no way to recoup or pass along these added 
costs.
    Already, producers of tree fruit and nuts cannot afford to use 
methyl bromide. Switching to less effective products causes pest 
pressures to build. It will take a few more years before we know the 
full consequences on yield, quality and competitiveness from these 
producers going without methyl bromide applications. To cope with the 
lack of adequate crop protections, some U.S. producers are even 
choosing to move large parts of their production to Mexico or 
elsewhere.
    The University of Florida, ERS and the National Center for Food and 
Agricultural policy all recognize that losses are occurring as a result 
of the methyl bromide phase-out. An ERS and University of Florida 
collaborative study found that a complete ban on production uses of 
methyl bromide for annual fruit and vegetable crops in California and 
Florida would result in estimated losses of ``about $200 million 
annually in gross shipping point revenues, which represented about 20-
30 percent of estimated revenues from treated commodities in each 
state.''
    Without a doubt, the phase-out of methyl bromide will lead to 
increased imports from China and ``developing'' countries that can 
continue to use methyl bromide long after the U.S. and other 
``developed'' nations have been cut off. China and developing nations, 
such as Chile and Mexico, will have access to methyl bromide until 2015 
while the U.S. faces a phase-out deadline of January 1, 2005. Many of 
these developing nations and China are major competitors with U.S. 
producers in specialty crop markets such as tomatoes, peppers and 
strawberries, to name a few.
    In the end, American consumers will suffer most from the U.S. loss 
of methyl bromide. The phase-out means the U.S. will increasingly 
dependence on imported, international food sources that are less 
regulated, less reliable and less safe. A perfect example: recent 
outbreaks of Hepatitis A in U.S. consumers from eating imported 
strawberries and cantaloupes.
    Any environmental benefits and protection of the ozone layer 
achieved by American agriculture's reduced usage of methyl bromide is 
negated by the increasing usage in other countries not yet subject to 
the phase-out. According to a 1991 United Nations report, China's 
consumption of methyl bromide alone was expected to increase ten-fold 
by 2002 to 4,000 tons.
    Regardless of whether farmers believe the accuracy of the science 
used to justify the phase-out of methyl bromide, agriculture has 
drastically reduced its use of methyl bromide while searching for 
alternatives. We've adjusted application rates and looked at using 
different combinations of products. Over the last 10 years, commodity 
groups have made significant contributions to researching alternatives 
and participated in field trials. Yet, readily available alternatives 
have still not been identified. Production agriculture has reduced the 
use of methyl bromide to the bare minimum, but we have come to our 
breaking point on further compliance with the phase-out.
    The CUE process as the answer to providing meaningful relief to 
American agriculture, Commodity groups committed significant time, 
expertise and financial resources in working with EPA to prepare 
individual CUE request applications. Producers attended workshops to 
better understand the CUE application process and provided EPA the vast 
amounts of data requested to build a strong case for CUEs.
    But, to no avail. The Protocol's Technology and Economic Assessment 
Panel (TEAP) has recommended that the Parties approve less than 10 
percent of the U.S. government's full CUE nomination request for pre-
plant treatment use (831 long tons), while, the EPA-prepared U.S. 
nomination requested that agriculture retain 39 percent of the 1991-
established baseline, about 9,942 long tons.
    To put this in perspective: 831 long tons is about 1.8 million 
pounds. At an average of 200 pounds of active ingredient per acre, that 
allows fumigation of 9,000 acres nationwide. Over the last three years 
alone, California averaged 25,000 acres of strawberries; Florida 
averaged 35,000 acres of tomatoes. Keep in mind this is just two 
commodities in two states and does not include other crops, states or 
any post-harvest uses.

                      MONTREAL PROTOCOL IS FLAWED

    Despite the U.S. government's position that that the methyl bromide 
exemption request is necessary and justified due to the lack of 
feasible alternatives and the threat of economic disruption of American 
agriculture, TEAP determined that the U.S. had not submitted sufficient 
information to substantiate our request. In a letter to EPA, TEAP did 
not even articulate the additional information that would be needed to 
re-evaluate the U.S. request.
    This international decision--or lack thereof--comes after thousands 
of man-hours, expertise of U.S. government and industry scientists, 
agricultural economists and EPA's commitment to put together a 
``rigorous'' nomination to the United Nations. Further, the TEAP 
response unjustifiably ignores the reams of data compiled from the 
millions of dollars of agricultural research conducted by USDA/ARS and 
commodity groups.
    Many individuals and groups have questioned the legitimacy and 
objectivity of the CUE process. The recommendations of TEAP issued this 
month on the U.S. government CUE request confirm that the international 
process is not objective, transparent or science-based.
    According to its own recent report, TEAP, during the review 
process, developed ``new'' criteria for evaluating CUE requests. These 
``new'' criteria were not presented or discussed with the applicant 
nations before submitting their nominations. Among the ``new'' 
criteria: TEAP used the amount of money the U.S. has given to 
developing third world nations under the UN Environment Program (UNEP) 
multilateral fund for researching third world alternatives to methyl 
bromide as a guide for determining the economic feasibility of 
alternatives in the U.S. This type of criteria has nothing to do with 
the any alternative's feasibility or economic impact in the U.S. 
attributable to the phase-out of methyl bromide. This process is yet 
another example of the international community--many our direct market 
competitors--establishing U.S. agricultural policy without 
accountability or consequence, and without concern for the severe 
impacts on our farmers, consumer and economy.
    This so-called ``technical review'' process is extremely 
politicized. Looking at the recommendation, it's interesting that the 
U.S. received our post-application use grain requests, but in the 
commodity markets in which we are most competitive with developing 
nations--fruit and vegetables, we didn't fare so well. Interestingly, 
the committee should notice that in comparison, other developed nations 
like France fared quite well. TEAP recommended that France receive 
about 80 percent of its CUE request, compared to the U.S. 
recommendation of less than ten percent. Farm Bureau and many others in 
agriculture strongly believe that it is the intention of TEAP and the 
international community effectively makes planting decisions for 
American farmers that threaten our competitiveness and enforce their 
political grudges against the U.S. economy.
    It is very hard to imagine that the U.S. government simply did not 
do its job properly in submitting its CUE request, as TEAP would have 
us believe. Rather, UNEP's action makes it clear that its international 
members are predisposed to not approve most U.S. uses of methyl 
bromide, particularly for pre-plant soil application. Farm Bureau does 
not believe there is any hope that the CUE process can be relied on to 
protect American consumers or farmers.

                             RELIEF NEEDED

    Farm Bureau respectfully requests that Congress urge the 
Administration to either take the steps necessary to renegotiate the 
Montreal Protocol as soon as possible or provide a legislative fix 
freezing the phase-out. We ask you to ask of them, what do they intend 
to do between now and November? What is their strategy to ensure 
American farmers' continued access to methyl bromide?
    We also need your guidance and assistance to ensure that in the 
final months of the CUE resubmittal process, the Administration, 
specifically EPA, advocates on our behalf to their fullest ability. 
Once final CUE decisions are made by TEAP, how does EPA intend to 
allocate the exemptions among farmers, commodities and states? 
Administering the exemptions will be a nightmare and producers need 
more information for planning future years' production.
    Although American farmers are drastically reducing use of methyl 
bromide, other countries, some parties to the Protocol and some not, 
continue increasing their usage and production of methyl bromide. Will 
Congress and the Administration continue to let the American economy, 
consumers and farmers struggle or will the U.S. take our fate back into 
our own hands?
    Will the American government allow its consumers to access to U.S. 
food produced using less methyl bromide or compel them to consume less 
regulated imported food produced with the unrestricted use of methyl 
bromide?
    I thank you for the opportunity to address the subcommittee today 
regarding this complex issue and voice our concerns over the incredibly 
flawed process governing the phase-out the use of methyl bromide.

    Mr. Barton. Thank you. Mr. Reginald Brown.

                   STATEMENT OF REGINALD BROWN

    Mr. Reginald Brown. We appreciate the opportunity to be 
here, and I would second Mr. Pauli's comments and depart from 
my written statement to a large extent to talk about real 
issues and the realities of the world as we see it. Hopefully 
the discussion this morning involved the CFC and the 
elimination of the air-conditioning compounds. Hopefully our 
solution for methyl bromide will work better than the AC in 
this room.
    Mr. Barton. There may be a method in that. We focus your 
attention that way.
    Mr. Reginald Brown. We have spent a tremendous amount of 
time as industry in this country preparing critical use 
applications that went to the EPA. The Florida application 
alone at the end of the table is over 3,000 pages and weighs 
some 70 pounds. It would weigh more than that if we had not 
economized the shipment of the product and used the references 
to the research that has been done in the State over the last 
10 years in order to minimize the shipping cost. But it is a 
herculean task we are facing on an annual basis.
    Now, we went through the process and we asked for more--63 
percent of the number that EPA--the EPA granted or moved 
forward with 39 percent. We don't have a problem with EPA's 
process. It was open and we were engaged in that process. What 
we have a real problem with is we move over to the MBTOC 
committee. They review the information in 5 days from all the 
parties in the world that made application. They failed or 
refused to communicate, operated in secret, moved the 
information over to TEAP. And TEAP then proceeds to evaluate 
the information from MBTOC and they in turn make decisions that 
the U.S. Application fails to meet the muster.
    We have a fundamental problem with the blatant unfairness, 
the lack of transparency, and the lack of interchange that took 
place in this whole process.
    Now TEAP says we need more information. We had 3,000 pages 
of information. And I would surmise that there is not a country 
in the world that has done more and worked harder to solve the 
problem than the farmers in this country and in this process to 
try and replace methyl bromide. But the reality is even our own 
government agrees, as we as producers agree, we don't have a 
solution to the problem. We are headed to a train wreck. If we 
don't do something to resolve this problem, American 
agriculture is going to be seriously injured at the end of this 
international process.
    Many of your business people, right--how would you like it 
if 83 of your best competitors--we are in an international 
traded commodity business in agriculture in this country--to 
vote up or down as to whether you stay in the business or not. 
Methyl bromide is a fundamental tool to the enterprises in this 
country. We are working to replace it. Until we have a 
replacement, don't throw us over the wall. We either have to do 
one of two things. We need to have the administration to move 
forward to adjust the Montreal Protocol in that process of 
international treaties or we need the Congress to recognize the 
crisis that we are going to be in and move forward to make 
adjustments to the phaseout period.
    Now, we are not asking that methyl bromide be kept 
indefinitely. We are asking for a delay until a solution is 
found. We are reasonable people. We care for the environment 
just much as any of you on that panel. We care for our workers, 
but we like to employ Americans. We like to grow food for 
America. And we like very much to be in business in this 
country because we are in fact Americans. We do not want to 
leave this country and grow production somewhere else. But if 
you take our tools away, somebody is going to provide food to 
America, and it is an international marketplace and it won't be 
American agriculture.
    You have got to wake up to the problem we are creating with 
decisions that were made years ago in a process--that ozone 
depletion is your concern, Mrs. Capps. Man-made ozone only 
represents 20 to 25 percent of the methyl bromide in the 
environment. Most of it comes from the ocean or from biomass 
burning. We are only asking for a small continuation of that 
less than 25 percent number to keep Americans in business, to 
keep Americans employed, and for our survival long term in this 
business.
    We appreciate the opportunity to be here. Our concern is 
real and we appreciate this opportunity.
    [The prepared statement of Reginald Brown follows:]

    Prepared Statement of Reginald Brown, Chairman, Crop Protection 
                               Coalition

    Mr. Chairman, I am Reginald Brown. I am Chairman of the Crop 
Protection Coalition (CPC) and Executive Vice President of the Florida 
Tomato Exchange. The CPC is comprised of agricultural organizations in 
the United States representing tens of thousands of American farmers, 
processors, and horticultural interests, billions of dollars of 
agricultural production and employing hundreds of thousands of people. 
Our commodities, farmers, mills and the economic contribution they 
make, are an extremely important economic factor in many rural 
communities of the United States.
    While the crops we produce are diverse, we share a common concern 
about the potential loss of an important crop protection tool--methyl 
bromide. Our message is simple. The current phaseout of methyl bromide 
under the Clean Air Act and the Montreal Protocol will cause serious 
economic disruption to many segments of the American agriculture, 
economic losses to communities that rely on our farmers, the loss of 
jobs and a loss of international competitiveness. In short, this is a 
wreck waiting to happen.
    We believe there are many critical uses of methyl bromide, 
including use as a pre-plant soil fumigant, post-harvest commodity 
treatment and structural treatment of processing and storage 
facilities, for which feasible alternatives are not available. This 
belief has been confirmed most recently by the U.S. government, 
including the U.S. Environmental Protection Agency (EPA). Specifically, 
in response to an exhaustive evaluation of substantial applications for 
critical use exemptions (CUE), involving a large number of EPA and USDA 
Ph.D. scientists, the U.S. government determined that there was a lack 
of feasible alternatives for many uses of the chemical. It is 
understood that the U.S. government recommended approval of 
approximately 22 million pounds of methyl bromide under the CUE 
process. This translates into almost 10,000 long tons. The CUE 
applications reviewed by EPA to reach this conclusion were extensive. 
In fact, CUE applications for just three Florida crops exceeded 3,000 
pages of supporting documentation from the industry. The industry 
devoted significant and substantial resources to make certain that the 
applications submitted were rigorous and reliable. Thousands of 
industry man hours were required to develop the applications to achieve 
the degree of rigor that the U.S. government had said would be needed 
to obtain the CUE. Extension scientists were very heavily involved in 
this effort as well. The industry met with EPA and USDA officials on 
numerous occasions to make certain that what the U.S. government said 
was needed to support a CUE application, was in fact provided. In 
short, a good working relationship developed between industry and the 
EPA to make certain that the U.S. government had all the information 
necessary to support the approval of the CUE application.
    Based on the extensive record it had, the EPA recommended that CUE 
applications equating to 39% of 1991 baseline levels should be 
recommended for approval. It should be noted that the original CUE 
applications from all sectors totaled 35 million pounds or 62% of the 
1991 baseline levels. Through the critical review process, EPA reduced 
this number to the 39% figure. Clearly, no one can say that he Agency 
simply ``rubber stamped'' the CUE applications it received. If the EPA 
or USDA did have questions concerning a specific application request, 
the government would contact the applicant and seek clarification of 
the request or the information submitted with it. Attached to this 
testimony is the sector analysis that was provided by the EPA, which 
analysis describes EPA's review of the applications received. 
(Attachment 1)
    The CUE process might have a chance to work if it simply required a 
review and approval by the U.S. government. However, as the chairman 
knows, this is not how the CUE process works. In fact, securing the 
U.S. government's recommendation for approval is simply an early step 
in the CUE process. Once such recommendation is given, the U.S. 
government forwards it for approval to the Montreal Protocol. This then 
entails review by the Methyl Bromide Technology Options Committee 
(MBTOC). That review occurred over a 5-day period in May, 2003. The 
MBTOC's deliberations are apparently secret. Even when the EPA was 
asked after the MBTOC meeting, what the MBTOC had decided, senior 
Agency representatives indicated that they did not know. MBTOC would 
not disclose its analysis and conclusions to the EPA.
    Once MBTOC commented on the CUE applications, its recommendations 
were forwarded to the Technology and Economic Assessment Panel (TEAP) 
for review. Ultimately, the TEAP determined that most of the U.S. 
applications were inadequate. While it did approve the U.S. requests 
associated with post-harvest and structural uses, it approved less than 
10% of the U.S. CUE application requests. This equates to only 
approximately 830 long tons. Unfortunately, 90% of the pre-plant uses 
were not recommended for approval by TEAP (more than 9,000 long tons). 
TEAP stated that the U.S. government had not submitted sufficient 
information to support the U.S. request. It left the door open for the 
U.S. government to do a better job, submitting more information. Then, 
perhaps, maybe the TEAP could support approval of additional CUE 
requests.
    Given the response of the TEAP in considering applications for 
continued use of ozone depleting substances for use in asthma inhalers, 
a use which can help save lives and mitigate a public health threat, 
the CPC is not optimistic about he likelihood that the U.S. requests 
for pre-plant soil uses will ever be approved, regardless of the 
volumes of supporting material that the U.S. includes with its CUE 
requests. There simply is a bias that exists in TEAP against approving 
any exemptions that could continue the use of ozone depleting 
chemicals, regardless of the legitimate needs of various sectors.
    It is clear that the CUE process is substantially and fatally 
flawed. This conclusion is based on the observation of the operations 
under the Montreal Protocol. It would be one thing if the CUE system 
was designed to not present an undue regulatory burden, that is was a 
transparent, open, objective and fair review process. However, the CUE 
process is none of these things. The application itself is 
overwhelming! Such application process is structured on a yearly basis. 
As noted above, the amount of resources needed to complete the 
application are enormous. Even with all that effort, and after securing 
EPA approval, it turns out that the bureaucrats of the UNEP committees 
can act to derail the approval process, all under the guise that the 
U.S. government had not submitted quite enough information to 
substantiate the application requests. No wonder that Johnathan Banks, 
co-chair of MBTOC publicly announced at an alternatives research 
conference in 1997 that industry should not place any hope in the CUE 
process. No significant amounts of methyl bromide would be allowed 
under the Montreal Protocol. The sooner the U.S. industry ``got over 
it'', it would then move on to full implementation of alternatives to 
methyl bromide and achieve complete phase out of the chemical. This was 
from one of the leaders under the Montreal Protocol.
    Unlike the review conducted by EPA and USDA of the CUE 
applications, it appears that neither MBTOC nor TEAP decided to conduct 
their evaluations in the sunlight nor engage the countries involved in 
any meaningful dialogue over the requests that had been submitted. 
Further, these committees under the Montreal protocol appear to be 
perfectly content to create whatever standards they want to in 
evaluating CUE application requests. There is no public comment 
opportunity on these standards before they are adopted by the 
committees. A simple example of this involved a criteria that TEAP 
adopted to determine whether an alternative was economically feasible. 
Instead of relying on the economic analysis associated with a 
particular use, the TEAP adopted an analysis that was tied to the 
amount of funds given to developing countries under the Montreal 
Protocol Multilateral Fund to encourage the elimination or reduction of 
methyl bromide use in that developing country. This created a cost per 
ton figure. If the CUE request was below such amount, this would 
indicate that economically viable alternatives did exist and the CUE 
should not be granted. Only if the alternatives costs in the developed 
nation were above that figure, would the alternatives be considered not 
economically viable.
    Setting aside the obvious questions regarding the appropriateness 
of such criteria, nevertheless, it remains that such standard was never 
put forth for public comment. It was simply unilaterally adopted by 
TEAP in evaluating the U.S. CUE requests. I am certain that the leaders 
of these committees believed that they have not done anything wrong. 
While serving on these committees they operate divorced from their 
countries. They serve as universal soldiers in a fight to protect the 
environment. They know their goal and because it is for the greater 
good, they feel comfortable with taking whatever approach necessary to 
achieve that goal. Unfortunately, questions about facts, due process 
and fundamental fairness tend to get swept aside in such a system. 
Accountability to the public becomes irrelevant.
    This same phenomena can be seen in the operation of the 
Multilateral Fund (MLF) under the Montreal Protocol. It is understood 
that a total of $1.3 billion has been spent on the MLF from 1991 to the 
present date. The U.S. government's share of this is approximately 27% 
or $350 million. Since 1997, MLF has spent approximately $81 million on 
methyl bromide projects. Roughly 40% of that amount has gone directly 
to nations that are agricultural competitors of the U.S., including 
Mexico, China, Chile, Costa Rica, Guatemala and Argentina. The MLF 
requires recipient countries to file progress reports. However, 
progress reports have not been submitted for 40% of the methyl bromide 
projects ($27 million). The non-reporting countries include Costa 
Rica, Argentina, Guatemala, Chile and Turkey. These countries are 
therefore technically out of compliance with the Montreal Protocol.
    Additionally, some nations that had not yet ratified the relevant 
amendments to the Montreal Protocol, have received MLF funding for 
methyl bromide projects. For example, China received over a million 
dollars for methyl bromide alternatives research before it signed the 
Copenhagen Amendments to the Protocol. (Incidentally, during this time, 
China was also building a new methyl bromide production facility.) 
Further, MLF funding for methyl bromide projects was given to countries 
that never even reported using methyl bromide (e.g., Albania, Panama 
and Burkina Faso).
    The foregoing demonstrates that a lot of funds, including U.S. 
funds have been spent under the MLF with little or no supervision, 
accountability or results. Again, since the apparent, environmental 
goal is justified, the mechanics used to achieve that goal appear to 
have little importance under the Protocol.
    The Congress and this Administration cannot pin their hopes on such 
a flawed system to protect our nation's interests. The Congress and 
this Administration should not abrogate their responsibility to our 
nation's food, fiber, or horticultural industries by defaulting to the 
decisions of other foreign countries, particularly when such decisions 
are final and not reviewable. This is simply wholly inconsistent with 
the principles of our country.
    The CPC is not at this time advocating an end to the phase out of 
methyl bromide. The issue is not whether the chemical has an ozone 
depletion potential value that warrants its phaseout, regardless of the 
uncertainties associated with that value. We seek a delay. We recognize 
that developing nations have access to the product long after the 
developed countries are to have phased out the chemical. We believe the 
playing field should be leveled. We believe the phaseout date should be 
extended for all parties under the Montreal Protocol until 2010. We 
believe freezing the production level at 50% of the 1991 baseline would 
not significantly impact the restoration of the ozone layer. Again, it 
should be remembered that man's contribution to the production of the 
chemical is approximately 15-25% of all methyl bromide produced. (Most 
of the methyl bromide is produced naturally such as by the oceans or by 
biomass burning.) We have discussed this issue with several ozone 
scientific experts who privately agreed that such an adjustment would 
not have a significant impact on the restoration of the ozone layer.
    When the foregoing is contrasted with the adverse economic effects 
to a wide variety of food, agriculture, and horticultural interests 
that will result if methyl bromide is not available, it is clear that 
an adjustment to the phase out schedule must be implemented. Action 
must be taken by the Parties to the Montreal Protocol to achieve such a 
change. If the Parties are unwilling to make such a change, then 
Congress and this Administration must make the change through a change 
in the domestic law, the Clean Air Act. Action is needed now so that 
all affected parties have an opportunity to know what tools will be 
available to them come January 1, 2005.
    CPC appreciates the opportunity to provide these comments to the 
subcommittee. We hope that meaningful action will result to address 
this critical problem for our nation.

    Mr. Barton. We are going to turn off what we call the TV 
lights. There are no TV cameras here, so that will cool things 
down a little bit. And I want to let the panel know that Mr. 
Holmstead of EPA is still here, he is listening. And Mr. Brown 
of USDA is still here, and he's listening. But Mr. Burnam of 
the State Department had a prior engagement and said he had to 
go to. He heard Mr. Pauli and he had to excuse himself. But we 
have two of the three administration officials still here and 
listening, and the State Department is represented in the 
audience; just Mr. Burnam is not here. So Mr. Siemer, you are 
recognized.

                 STATEMENT OF RICHARD C. SIEMER

    Mr. Siemer. Thank you, Mr. Chairman. Glad to have the 
opportunity to talk to you this afternoon. My name is Rick 
Siemer and I am the President of Siemer Milling Company. We are 
wheat processors. We make flour for cookies, crackers, cakes, 
pretzels, that sort of product. We have plants in Teutopolis, 
Illinois; Hopkinsville, Kentucky, in Mr. Whitfield's district; 
and Gainesville, Missouri, which is now in Ms. Emerson's 
district, unfortunately--well, fortunately, but used to be in 
Mr. Blunt's district.
    I am testifying today on behalf of the North American 
Millers' Association. We are 44 companies operating wheat, 
corn, and oat mills in 38 States, and we make 90 percent of the 
Nation's supply of wheat, flour, cornmeal, oatmeal and similar 
products.
    We would like to offer three reasons for the continued use 
of methyl bromide beyond 2004. For our purposes, there are no 
generally available viable alternatives at this time. We do not 
believe that our use and, in fact, industrial use of 
manufactured methyl bromide at reduced levels is a serious 
environmental hazard, and we also believe, as other witnesses 
have stated, that the international phaseout program under the 
Montreal Protocol, including the CUE, is illogical, unfair, and 
at best a questionable proposition.
    Now, we are processors. We are taking a product that is 
grown and turning it into something else, so our use is a 
little bit different than has already been described, and I 
would like to go into that a little bit. We are using methyl 
bromide, of course, because the public expects and we want to 
provide a clean and wholesome food product. We have standards 
to meet, set by the FDA, and methyl bromide is one of the tools 
that we use within the context of an integrated pest management 
program to ensure that we meet those standards, in fact exceed 
those standards, and meet our obligations and the public's 
expectations.
    How do we use methyl bromide as a structural and space 
fumigant? We don't fumigate the grain. We don't fumigate the 
end product. We take the building after it has been evacuated 
of those natural substances and we fill it with methyl bromide, 
sometimes methyl bromide in combination with a substance such 
as carbon dioxide which also kills bugs, and let it sit there 
for a period of time. Typically 30 to 36 hours is the total 
process. And that accomplishes the task of eliminating--
typically eliminating insect presence in our building. Compared 
to current alternatives, we feel that methyl bromide is fast; 
it works faster than currently available alternatives, and time 
is money. Every day that our mill is shut down is approximately 
$200- to $220,000 in lost revenue. And in the meantime, our 
occupancy and overhead costs and some labor costs continue.
    So a speedy acting tool is extremely important to us. It is 
thorough. It kills bugs at all life stages. It gets into the 
cracks and crevices that we don't even know exist and 
eliminates, as I said, the insect life in all phases. It is 
usable in almost all facilities.
    There are alternatives that can't be used in some 
facilities because of their structural integrity or lack of 
same, because of their inability to be closed up effectively, 
because they are old. Methyl bromide seems to be effective in 
all of those--in practically all facilities in the industry. It 
is relatively inexpensive compared to alternatives. And 
frankly, there are no new alternatives that we have seen made 
available to us.
    Secretary Holmstead's testimony described alternatives. He 
listed 10 compounds. And I think Assistant Secretary Brown also 
alluded to this. Of those 10 compounds listed in the written 
testimony, none are for structural uses like sanitizing grain 
mills. We have taken steps to reduce our reliance on methyl 
bromide. We have accomplished a 60 percent reduction in the 
last 10 years. We use methyl bromide at less than a 20 percent 
label rate, but we would be very hard-pressed to do without it 
altogether, and we do not understand why we should have to do 
so.
    I see that my time is close to expiring, so I will not 
repeat what others have said before me, but we do believe that 
banning it in the U.S., banning methyl bromide will threaten 
the cleanliness and wholesomeness of the food supply and the 
survivability of small processors. Allowing its continued use 
elsewhere shifts jobs and economic activity offshore with no 
possible offsetting gain to the environment. It is illogical 
and unfair to U.S. Growers and processors.
    We recommend to the Congress that either the Montreal 
Protocol be renegotiated this year because the deadline is very 
close, and if manufacturers are going to continue 
manufacturing, if they need to have some certainty, to allow 
the U.S. More time beyond 2005 or enact legislation to amend 
U.S. Law to freeze the phaseout level at the 50 percent level 
in place prior to 2003.
    That concludes my testimony, Mr. Chairman. Thank you very 
much.
    Mr. Barton. You would be a great PA announcer. I could just 
hear you in Yankee Stadium. You would be great.
    Mr. Siemer. St. Louis Cardinals.
    Mr. Barton. I would say the Texas Rangers.
    [The prepared statement of Richard C. Siemer follows:]

  Prepared Statement of Richard C. Siemer, President, Siemer Milling 
                                Company

    Thank you Mr. Chairman and members of the Committee. I am Rick 
Siemer, president of Siemer Milling Company. Siemer Milling Company 
operates flour mills in Teutopolis, Illinois, Hopkinsville, Kentucky 
and Gainesville, Missouri. Together, the three Siemer Milling Co. 
facilities produce more than 2.1 million pounds of product each day.
    Siemer Milling Company is a family- and employee-owned company. It 
was founded in 1882 with my great grandfather Joseph Siemer as 
proprietor.
    Siemer Milling Company's primary product is wheat flour milled to 
different specifications for the making of such foods as cookies, 
crackers, cakes, pretzels, bread and buns.
    We are proud to have received numerous awards including the 2000 
Business Ethics and Social Involvement Award from Eastern Illinois 
University and East Central Illinois Development Corporation.
    I am testifying today on behalf of the North American Millers' 
Association (NAMA). NAMA is the trade association representing 46 
companies that operate 169 wheat, oat and corn mills in 38 states. 
Their collective production capacity exceeds 160 million pounds of 
product each day.
    The purpose of my statement is to encourage Congressional action to 
extend the use beyond 2004 of methyl bromide as a food safety and 
sanitation tool by the flour milling and food processing industries. 
There are three reasons for this extension: 1) Methyl bromide is easily 
the most cost-effective tool--and for many facilities, the only 
practical tool--currently available to protect grain processing 
facilities against insect pests; 2) Food and agricultural uses of 
methyl bromide are not a critical environmental hazard; and 3) The 
internationally-established program to eliminate methyl bromide is 
environmentally irrational and profoundly unfair to U.S. growers and 
processors.

                   WHY AND HOW WE USE METHYL BROMIDE

    At Siemer Milling Company, we use methyl bromide for one reason--to 
keep insects out of our nutritious, wholesome food products. Methyl 
bromide allows us to meet the U.S. Food and Drug Administration's 
strict rules for clean and wholesome food. We take those rules very 
seriously. We do so because it's the law, but just as importantly 
because clean food is something we want to provide and consumers 
expect.
    You may remember watching your grandmother or mother sifting flour 
when she baked. The main reason she sifted the flour was to remove the 
insects. Nobody sifts flour anymore because there are no insects in the 
flour. Methyl bromide helps us make sure of that. Our customers expect 
and appreciate that commitment to cleanliness and safety.
    Let me tell you how we use methyl bromide. We use it to fumigate 
the physical mill structure and the equipment contained in the mill. We 
do not use it to fumigate raw wheat or corn, nor processed products 
like flour.
    Our mills typically receive one or two general fumigations with 
methyl bromide over any two-year period. The fumigation usually occurs 
over a three-day weekend so as to minimize downtime. At the beginning 
of the fumigation process, grain is shut off entering the mill from the 
grain elevator storage facility. The mill continues to run until all 
incoming grain has been milled and conveyed into finished product or 
by-product storage.
    The machinery in the mill is opened and all remaining residues of 
grain and finished product are cleaned out. The machinery is left open 
to achieve maximum exposure to the fumigant. Deep structural cleaning 
is done also since fugitive dust and grain fractions in the structure 
will affect the effectiveness of treating the entire facility. There 
may also be treatment of empty storage bins at this time.
    The mill structure is then completely evacuated except for the 
trained applicators under supervision of the certified outside 
contractor who conducts the fumigation. The mill structure is sealed to 
prevent gas leakage. Applicators begin releasing the methyl bromide 
into the mill.
    The label approved by the U.S. Environmental Protection Agency 
(EPA) allows for usage at up to 6.0 lb. per 1000 cubic feet. But the 
common dosage for a 100% methyl bromide fumigation in the milling 
industry is 1.0-1.5 lb. per 1000 cu. ft., depending on the tightness 
and structural integrity of the building. Since 1998, we have used a 
combination of methyl bromide and carbon dioxide; this reduces the 
dosage for methyl bromide to 0.75-1.0 lb. per 1000 cu. ft. We have cut 
our total methyl bromide usage by nearly 60% in the last decade.
    The gas is held in the facility for 24 hours. At the appropriate 
time, the applicators aerate the facility and test the atmosphere to 
ensure safety. Workers then enter the mill to re-assemble the mill 
systems, close up the equipment, remove the sealing materials and 
prepare the mill for start-up.
    After the equipment has been closed, the mill is re-started and the 
flow of grain into the mill begins. The first few minutes of production 
may be diverted into by-product storage to scour the milling equipment 
and spouting essentially free of methyl bromide residues before the 
product destined for human consumption flows through.
    On the subject of residues, it is worth noting that the milling 
industry association funded a methyl bromide residue study in 1993 to 
meet EPA requirements. Despite the earlier comments about methyl 
bromide not being used to fumigate wheat or corn, grain was fumigated 
with the compound in order to generate worst-case scenario data. Also, 
the fumigant was applied at an exaggerated rate of 8.0 lb. per 1000 
cubic feet. Even with an extremely sensitive level of detection of 0.25 
parts per million, there were no residues.

                              ALTERNATIVES

    More than $140 million has been spent by the USDA alone to find 
alternatives for the many uses of methyl bromide, with very little 
success.
    The milling industry, too, is experimenting widely with potential 
alternatives, with mixed success. For example, high heat treatments 
have shown some promise in certain facilities. However, industry-wide 
experiences with heat treatments emphasize the importance of the 
structural integrity of the mill.
    In many mills heat treatments are not feasible. Those mills are not 
tight enough to facilitate raising and holding the temperature at high 
levels, nor do mills possess the heating capacity to raise the 
temperatures in the structure or equipment to insecticidal levels. 
There is considerable initial cost associated with outfitting a mill 
for heat-up, including changing sprinkler heads, kick-outs on motors, 
etc.
    Phosphine, effective in treating stored grain, empty bulk storage 
bins and grain and product transport vehicles, may not be a wise choice 
for the mill. This is mostly due to the extensive electrical equipment 
present. Phosphine is highly corrosive and can seriously damage 
electrical contacts, motors, programmable controllers, etc.
    We believe that an effective integrated pest management (IPM) 
program is the best answer for ensuring good sanitation. This includes 
non-chemical and chemical means so as to minimize the reliance on any 
one tool.
    An alternative is not truly an alternative if it is not BOTH 
economically and technically viable. For example, an average wheat 
flour mill produces about one million pounds of flour each day. One 
likely alternative treatment currently being tested will require about 
48 hours longer to complete than does a methyl bromide fumigation. At a 
sales price of about $0.12 per pound of flour, the miller will lose 
$240,000 in revenue every time the facility is treated with the slower-
acting alternative. In the meantime, labor, depreciation, tax and 
overhead costs continue. And the compounds currently being considered 
for EPA approval will likely cost much more than methyl bromide.
    So while there may be other treatments that can control the insects 
in the mill, they are not viable if they are not affordable. U.S. 
milling is an extremely competitive industry. Our profit margins are 
razor thin. Approximately 10 percent of our industry capacity has 
closed in the last two years. For a mature industry like flour milling, 
that is a huge adjustment.
    Losing methyl bromide would likely make more mills subject to 
closure, taking good paying jobs and economic activity with them. As 
noted above, our industry has drastically reduced the amount of methyl 
bromide we use, but complete elimination does not yet appear to be 
generally practical, or even possible.

                                SCIENCE

    EPA's web site states that human-made methyl bromide has 
contributed only about 4% to ozone depletion over the past 20 years, 
with only 2.5% attributed to agricultural uses. That raises a serious 
question as to whether delaying the ban on methyl bromide will aid in 
restoration of the ozone layer.
    If our uses of methyl bromide are, contrary to logic, very harmful 
to the environment, then it should be banned globally on the same date, 
and the sooner the better. However, the Montreal Protocol phase-out 
schedule suggests that it is not imminently harmful, since the schedule 
allows ten extra years of use for some very economically significant 
``developing countries.'' Banning methyl bromide in the U.S. while 
allowing its continued use elsewhere shifts jobs and economic activity 
offshore with no real gain to the environment. That is stupid and 
unfair to U.S. farmers and businesses, both small and large.

                         CRITICAL USE EXEMPTION

    Some potential alternatives have been identified, but for a 
significant range of uses, technically and economically viable 
alternatives do not exist. EPA and USDA have acknowledged this in the 
recent U.S. Critical Use Exemption (CUE) submission to the Parties of 
the Montreal Protocol. In fact, after an exhaustive objective review by 
government and university scientists, EPA confirmed that almost 40% of 
the baseline uses of methyl bromide do not have viable alternatives.
    There are several problems with the CUE process, not the least of 
which is that it doesn't take effect until 2005, the year when methyl 
bromide is scheduled to be banned in the U.S. Second, the U.S. cannot 
issue a CUE by itself, but must receive approval from the United 
Nations for exemptions. American agriculture is justifiably skeptical 
about fair treatment from the United Nations for the following reasons:
    The UN approval process is agenda-driven and highly politicized. 
Ultimately, the fate of the U.S. CUE applications that are recommended 
to the parties of the Montreal Protocol will be determined by a handful 
of individuals unaccountable to U.S. taxpayers, behind closed doors, 
despite the hours and expertise EPA committed to this process. It is 
inevitable that the decision-makers will be biased toward an 
ideological environmentalist agenda. A pervasive anti-U.S. antagonism 
in the group is not an unreasonable assumption. Some of the people are 
from countries that are agricultural competitors of the U.S., and they 
might be sorely tempted to maintain the competitive advantage that has 
been handed to their homelands.
    EPA did not allow us to see or comment on the conclusions it 
reached prior to submitting our CUE application to the Montreal 
Protocol. We had no chance to respond to any incorrect assumptions or 
resolve any open questions. In the end, the U.S. EPA recommended to the 
United Nations that a quantity of methyl bromide be made available for 
grain milling and other food processing industries that is much smaller 
than the quantity we requested for milling alone.
    If EPA is wrong and its recommended quantity is inadequate, how 
will the agency allot the available fumigant? Who gets to make that 
decision, and on what basis?
    In short, on one hand, the elimination of this tool will 
significantly adversely affect the food and agriculture industries in 
many states. This is certain. On the other hand, extending the phase-
out will not impact the restoration of the ozone layer.

                             ACTION NEEDED

    In closing, let me state that NAMA believes the Administration must 
either (1) renegotiate the United Nations Montreal Protocol Treaty this 
year to allow the U.S. more time beyond 2005, or (2) support 
legislation to amend U.S. law to freeze the phase-out level at 50%, the 
level in effect prior to 2003.
    That concludes my testimony, Mr. Chairman. I would be happy to 
answer any questions you or other committee members may have.

    Mr. Barton. Dr. Mellano, we would like to hear from you.

                 STATEMENT OF H. MICHAEL MELLANO

    Mr. Mellano. Mr. Chairman and members of the committee, we 
appreciate the opportunity to present our testimony on behalf 
of the nursery, landscape, and floriculture industry of the 
U.S. This topic of the continued availability of methyl bromide 
is of huge importance to our industry and we actually represent 
11 percent of the dollar value of agriculture in the United 
States, so it is a big thing for us. So with your permission, I 
have submitted my written statement and I will read a short 
summary.
    Mr. Barton. Without objection.
    Mr. Mellano. I will now tell you a little bit about how 
methyl bromide is used in our industry, discuss the research we 
have supported, and finally go over this critical use exemption 
process.
    I also have here today, with me today, Ms. Nancy Rechcigl 
from Yoder Brothers, who prepared that company's application 
for an exemption, which we chose to use as a very good example 
today. Methyl bromide is used before we plant the crop. We 
treat the soil to eliminate soil-borne pests, including wheat 
seeds. At Mellano & Company in southern California, it can cost 
up to $50,000 an acre to produce each of the 50 different crops 
that we grow. Methyl bromide is a critical part of our attempt 
to protect our investment.
    The situation is actually very similar in a worldwide 
basis. The MBTOC report that was dated 2003 verifies that 
statement. One very important point that I want to emphasize, 
and I respectfully disagree with Congresswoman Capps, methyl 
bromide is actually much safer than most of the alternatives 
that are proposed. Since methyl bromide leaves zero residues in 
the soil, there is actually no exposure to farm workers and to 
consumers. Now, this point is seldom discussed to make a 
comparison and I think it is very important and needs to be 
talked about more often.
    Moving to the topic of research, in the early 1990's, the 
California Cut Flower Commission started with a $150,000 
research project, and nationwide since then, hundreds of 
thousands of dollars of their own money has gone to research. I 
want to make a point. In the 1960's, I worked in the laboratory 
of Dr. Donald Munnecke, and he is the world's leading authority 
on soil fumigation. We worked on the same things 40 years ago 
as we are talking about today as alternatives. And the fact of 
the matter is that all this money has been spent and methyl 
bromide is still the best, and in many cases the only material 
that is available.
    Now, finally, as far as the seaweed process, the process is 
supposed to allow a critical use to continue using it in 
industries like ours that have no alternatives. But our 
experience with that process has been a very, very sad 
disappointment. You have already heard that. We use Yoder 
Brothers as an example. Yoder Brothers submitted a very, very 
good application and their objective was to reduce their methyl 
bromide fumigation from 30 percent of a facility in Florida to 
100 percent. After 10 years of research and preparation of a 
very good application, EPA and everybody else said it was a 
very good application and it was forwarded to MBTOC.
    The MBTOC has now appeared to deny their application and 
they are requiring--they will require Yoder to fumigate--steam 
their whole operation now, even though they don't have the 
generators to do it.
    Now, in addition to that, to add insult to injury, they 
approved similar applications in other countries, for instance 
France, Australia, and Spain, that made the application under 
the same criteria as Yoder. Now the French, that really irks me 
personally, because one of my biggest competitors on one of the 
crops I grow uses methyl bromide, and he got the exemption and 
we don't have it, and that is not fair.
    So to be quite frank with you, if this decision is allowed 
to stand, it really is a sham. And I have to be frank about it, 
okay? Remember that one criteria was to show that you were 
making progress, and Yoder did that. So now Yoder is being 
penalized for actually meeting the application criteria. That 
doesn't seem quite right to us.
    The California growers are now doing some more 
applications, but to be quite frank with you, we are not really 
encouraged about it.
    So in closing, we would like to ask the U.S. Government to 
support the U.S. Growers and to ensure that we still have 
methyl bromide, and we certainly hope that you don't capitulate 
to this unfair and biased decisionmaking process at the 
international level.
    [The prepared statement of H. Michael Mellano follows:]

   Prepared Statement of H. Michael Mellano, Senior Vice President, 
   Mellano & Company on Behalf of the Society of American Florists, 
    American Nursery & Landscape Association, California Cut Flower 
   Commission, Florida Nurserymen & Growers Association, and OFA--An 
               Association of Floriculture Professionals

    Chairman Barton, Ranking Member Boucher, and Members of this 
Committee, we are grateful for the opportunity to present joint 
testimony on behalf of the nursery, landscape and floriculture industry 
of the U.S. The topic of continued availability of methyl bromide to 
U.S. nursery and floriculture growers is of huge importance to our 
industry.
    The Society of American Florists (SAF) is the national trade 
association representing the entire floriculture industry, a $19 
billion component of the U.S. economy. Membership includes about 14,000 
small businesses, including growers, wholesalers, retailers, importers 
and related organizations, located in communities nationwide and 
abroad. The industry produces and sells cut flowers and foliage, 
foliage plants, potted flowering plants, and bedding plants.
    The American Nursery & Landscape Association (ANLA) is the national 
trade association for the nursery and landscape industry. ANLA 
represents 2,500 production nurseries, landscape firms, retail garden 
centers and horticultural distribution centers, and the 16,000 
additional family farm and small business members of the state and 
regional nursery and landscape associations. The Association's grower 
members are estimated to produce about 75% of the nursery crops moving 
in domestic commerce in the U.S. that are destined for landscape use.
    The California Cut Flower Commission (CCFC) is a non-profit public 
corporation formed in October 1990 by and for growers, under the laws 
of the State of California. Its mission is to provide a unified effort 
by growers to enhance the performance of the California cut flower and 
greens industry, by providing promotion, marketing, government 
education, and research on behalf of the industry. It was voted into 
being by a referendum of cut flower growers and is financially 
supported by grower assessments on the sales of fresh cut flowers and 
cut greens.
    The Florida Nurserymen and Growers Association represents Florida's 
entire environmental horticulture industry. The Association represents 
the interests of nearly 2,000 foliage, woody and floriculture 
producers, landscape contractors and interiorscapers, retailers and 
allied suppliers. Representation, professional education and marketing 
encompass the services provided to its members and the industry.
    OFA--an Association of Floriculture Professionals is a non-profit, 
all-industry, educational organization with more than 3,500 members 
representing 50 states, the District of Columbia, one U.S. territory, 
and 28 countries. The Association holds 76 percent of its membership 
outside of Ohio, and 7 percent outside the United States. Each year, 
OFA sponsors the Short Course, U.S. floriculture's premier educational 
and trade show event.

                     I. BACKGROUND ON THE INDUSTRY

    According to the USDA's National Agricultural Statistics Service 
(NASS), the nursery and greenhouse industry remains the fastest growing 
agricultural sector in cash receipts. The 1997 Census of Agriculture 
shows that nursery, greenhouse and floriculture crop sales totaled 
$10.9 billion in 1997, up from $7.6 billion in 1992. This represents a 
43 percent increase in sales over the previous 1992 Census. Together 
these crops make up 11 percent of total U.S. farmgate receipts, up from 
10 percent. Some 33,935 farms produced nursery plants as their 
principal crop; floriculture farms numbered 21,824.
    In crop value, nursery and greenhouse crops have surpassed wheat, 
cotton, and tobacco and are now the third largest plant crop--behind 
only corn and soybeans. Nursery and greenhouse crop production now 
ranks among the top five agricultural commodities in 24 states, and 
among the top 10 in 40 states. Growers produce THOUSANDS of varieties 
of cultivated nursery, bedding, foliage and potted flowering plants in 
a wide array of different forms and sizes on 1,305,052 acres of open 
ground and 1,799 million square feet under the protective cover of 
permanent or temporary greenhouses.

    II. METHYL BROMIDE USE IN THE FLORICULTURE AND NURSERY INDUSTRY

    Methyl bromide is a critically important part of ornamental 
production in many areas of the U.S. Field-grown cut flowers, shade 
house production of some flowers in the ground, caladiums and even 
treatment of dried flowers and materials such as tree fern totems (used 
for some vining foliage plants), are key uses in ornamental production.
    The diversity and intensity of cropping systems in ornamental 
production greatly aggravates the issue of the pending loss of methyl 
bromide, especially when our main competitors in third-world countries 
will continue to be able to use methyl bromide well beyond the U.S. 
phase-out, giving them a strong competitive advantage.
    At Mellano & Company, in southern California, we produce over 50 
different crops with upwards of 20 different varieties within a crop. 
New crops are our lifeblood and are being introduced annually at an 
extremely rapid pace, often with only a few years of market appeal. 
Without methyl bromide, we will not be able to respond to these rapidly 
changing market trends. The cost of establishing ornamental crops is 
extremely high--in some crops, costs can exceed $50,000 -$60,000 per 
acre. Methyl bromide helps insure that our investment isn't decimated 
by plant diseases.
    Methyl bromide is used as a preplant soil treatment that eliminates 
unwanted soil-borne plant pathogens and weed seeds. It is a general 
biocide, with virtually no residual activity or phytotoxicity to our 
ornamental crops. In addition, methyl bromide greatly reduces (and can 
even eliminate) weed populations, reducing our dependence on the labor-
intensive process of handweeding. Handweeding is currently under 
intense scrutiny in California by California-OSHA, and has the 
potential of being banned in the near future. Such a ban could be 
disastrous to horticultural producers, particularly if methyl bromide 
is not available to reduce the weed pressures.
    One very important point that I want to emphasize is that methyl 
bromide is actually safer--both for workers and for consumers--than 
many of the suggested alternatives. Methyl bromide has no ``residual 
activity.'' It is applied, by professional, certified applicators who 
are hired by us specifically to apply methyl bromide. Our regular 
workers who work day in and day out planting, caring for and harvesting 
crops have NO exposure to methyl bromide--which is not true of many of 
the other alternatives being considered. Many of those do have residual 
activity and are used over the entire crop cycle, which would raise 
worker safety concerns. In addition, methyl bromide is applied on 
fields which are covered with tarps or plastic to prevent it from 
escaping into the air. Once the fumigation process is complete, the 
tarps are removed and only then does the crop planting process begin.
    The same thing is true of consumer safety--because methyl bromide 
has no residual activity--it does not stay on the crop--there are no 
chemical residues to worry about. There are virtually no consumer 
safety concerns related to methyl bromide use.
    Similarly, for Florida growers, methyl bromide has been one of the 
most crucial tools used by the flower industry. Due to the Florida 
climate, without using a sufficiently clean soil to plant into, growers 
could not compete in the world flower industry. Growing any crop is 
difficult due to a variety of challenges growers deal with every day 
from cold to heat to rain to drought. Florida growers have stated that, 
if they lost methyl bromide tomorrow, they would have to shut down a 
large portion of their businesses, due to the fact that there are no 
practical chemical alternatives. Despite the fact that the whole 
agriculture sector, along with the USDA, have been looking for a 
substitute for years, no suitable substitute has been endorsed by 
anyone involved with that effort.
    For the nursery industry, too, methyl bromide is a critical tool in 
the production and shipment of plant material that must be acceptably 
free of regulated plant pests, including pathogens and weeds. Freedom 
from regulated pests is important toward the broad goal of safeguarding 
agricultural and environmental plant resources. While alternatives to 
methyl bromide are being actively researched, the fact remains that 
feasible alternatives do not exist for many critical uses that relate 
to regulatory plant protection. Such uses are especially important for 
that portion of the nursery industry engaged in propagation of plants 
ranging from fruit and nut trees to strawberries, grapes, roses, 
chrysanthemums, trees, and perennials. Simply stated, failure to 
adequately control regulated pests at the propagating nursery source 
jeopardizes the orchardists, vineyards, and other nurseries that are 
producing fruit or finished plants for sale to the public.

                     III. RESEARCH ON ALTERNATIVES

    In the early 1990s, the California Cut Flower Commission (CCFC) 
took the lead in funding research on methyl bromide alternatives in 
floriculture, by providing $150,000 to begin research projects. Since 
then, CCFC has continued grants over the past 12 years, with hundreds 
of thousands of private industry funds invested in research on 
alternatives. Research has involved everything from alternative 
fumigants, solarization, treatment of soil with steam, microwave or UV, 
soil fertility and amendment with green manures and biological agents. 
The current alternatives include fumigants such as 1, 3-D (Telone), 
chloropicrin, basamid and metam sodium (Vapam) applied alone and in 
various combinations.
    During the 1960s, as a graduate student at the University of 
California-Riverside, I worked for five years in the laboratory of Dr. 
Don Munnecke, one of the world's leading researchers on methyl bromide 
and methyl bromide alternatives. During that time, we were working on 
many of the alternatives that are still being considered today--
solarization, steam, and alternative fumigants, trying to find 
alternatives from a production and economic point of view. Despite the 
fact that 40 years have intervened, we still have not found 
alternatives that are economically viable, or effective from a 
production point of view.
    Moreover, none of these products can give the control of the pests 
that methyl bromide can. They very often require use of additional 
pesticides to improve efficacy. This use of additional pesticides 
results in an increased load on the environment over the current 
scenario. There are, of course, no guarantees that these materials will 
remain available in the future--many alternatives being considered 
today would have to go through a lengthy EPA registration process 
before they were commercially usable. In some cases, the alternatives 
are much more toxic--both to the environment and to workers and perhaps 
even to consumers--than methyl bromide. Our day-to-day workers, for 
example, could be exposed throughout the whole crop cycle. Much of the 
new research sponsored by the California cut flower industry has 
concentrated on weed control, although work on controlling soilborne 
pathogens such as Fusarium wilt fungi and nematodes is also ongoing. 
Trials have been run on a very diverse range of crops, including 
ranunculus, gladiolus, callas lilies, delphiniums, Dutch iris, and 
stock, to name just a few. Although methyl bromide is used in 
polyethelene covered greenhouses in both California and Florida, the 
bulk of the product is used in field production and therefore, much of 
the research has been done in the field. We hope to see some greenhouse 
research performed in the next year on crops such as snapdragons, 
freesia and Lisianthus. In addition to pest control data, data on crop 
response in phytotoxicity as well as yield have been gathered.
    New materials not currently registered are also an important part 
of the work that is being done with products such as Midas (by Arveta, 
formerly Tomen-Agro) and Sodium Azide (by American Pacific and Cal Agri 
Products), showing future promise. However, trials with these newer 
experimental formulations have had mixed results in both California and 
Florida. Nonetheless, research continues. Even if these newer materials 
are registered soon, however, it will be several years before enough 
experience has been gathered to consider them acceptable alternatives.
    The use of chemicals in our industry, in California, in Florida, 
and in other parts of the U.S., is the subject of much research, both 
publicly and privately funded, as growers attempt to move toward more 
environmentally and worker-friendly chemicals and toward integrated 
pest management (IPM) practices, which also reduces our production 
costs. Yet in the case of methyl bromide, our industry is being pushed 
to rely on those more toxic, more harmful chemicals, which runs counter 
to all of the public policy concerns we are discussing and which our 
industry is investing in and is attempting to embrace.

                 IV. THE CRITICAL USE EXEMPTION PROCESS

    Perhaps the most troublesome aspect of the methyl bromide story 
involves the application for a ``critical use exemption''. In September 
2002, CUE applications were filed with the EPA for consideration in 
exempting the use of methyl bromide for 2005 when the product can no 
longer be produced or imported into the US. Many of the uses were for 
post harvest use such as treatment of nuts and dried fruits. Others 
were filed for production agricultural use on crops such as tomato, 
pepper, strawberry and cucumbers. A few were filed for ornamental uses.
    Yoder Brothers, Inc., of Ohio, with major production facilities in 
Florida, is a large, yet family-owned horticultural company that is 
world-renowned for its production of culture- and virus-indexed 
chrysanthemums and other starter plant material. Present at today's 
hearing on behalf of Yoder is Nancy A. Rechcigl. As a member of Yoder's 
technical services group, she provides advisory, extension and research 
support services to Yoder operations on entomology and pathology 
issues. Ms. Rechcigl was also responsible for the preparation and 
submission of Yoder's Critical Use Exemption (CUE) in August of 2002, 
for the use of methyl bromide in chrysanthemum production. Many 
hundreds of corporate hours were devoted to preparing the CUE document, 
not to mention to the alternatives research which the company has been 
supporting for over the past 10 years.
    Unfortunately, the international body, the MBTOC committee, appears 
to have denied Yoder's application, even though the U.S. EPA (after 
extensive consultation with Yoder) found the application met the 
criteria for an exemption. Yoder's application requested 69,650 pounds 
of methyl bromide for 2005, with reduced amounts in succeeding years. 
However, EPA apparently combined the Yoder application together with an 
unrelated application for California nursery production of rose plants. 
This combination was made even though the application process required 
that to apply as a consortium or as a group, applicants had to have the 
same use patterns, pest issues and production practices--in other 
words, the same general issues. The nomination appeared to simply 
summarize the chrysanthemum production practices, and the rose 
production practices--which clearly differed significantly. It was 
unclear whether Yoder's original supporting documentation was ever even 
seen by MBTOC, much less considered.
    Yoder Brothers currently has the capability of steaming 30 percent 
of its facility, and so stated in its application. Complete adoption of 
steam sterilization as an alternative to methyl bromide is planned to 
be phased in over the next five to six years. The purpose of requesting 
this CUE was to provide Yoder Brothers, Inc. with additional time to 
raise the capital needed (over a million dollars) to expand its steam 
sterilization capabilities to the remaining 70 percent of its facility, 
while at the same time, allowing the company to continue investigations 
of alternatives (Idomethane), as an additional viable alternative. 
However, it appears that MBTOC found the steaming to be ``economically 
feasible'' at present, based on the specific revenue and cost numbers 
the company provided--which were for chrysanthemum production alone, 
and, per the application requirements, did not reflect overall 
financial health or other financial obligations of the company.
    EPA's nomination stated that the chrysanthemum grower needed methyl 
bromide to treat 35 hectares in 2005 with 31,593 kilograms methyl 
bromide (a rate of 902 kg/hectare), noting that the grower expected the 
critical methyl bromide need to decline as it increased its investment 
in steam sterilization. The request for nursery roses in the U.S. was 
for 235,868 kilograms, over 680 hectares, at a 347 kg/hectare rate. (A 
higher per-hectare rate is required in Florida production due to 
different pest complexes.) Thus, the total US industry request for the 
arbitrarily grouped ornamentals sector was 589,650 pounds.
    EPA's nomination reduced that request for the arbitrarily grouped 
ornamentals sector to a total of 63,299 pounds total, based on EPA's 
assumption that the industry's needs could be met by the quarantine 
exemption. Further reductions with margin of error multipliers and 
other calculations resulted in a total ``ornamentals'' request of 
64,843 pounds, or 29,412 kilograms. In every industry case, it also 
appears that EPA massaged the numbers to reach a final request figure 
that would not exceed 39 percent of the 1991 U.S. baseline--rather than 
basing the nomination on actual grower needs and data which were so 
laboriously and carefully compiled and submitted to EPA.
    In response to the EPA nomination, the final recommendation from 
MBTOC noted as follows:
        ``MBTOC recommends that a reduced allocation of 14.7 t be 
        approved for this CUN on the basis that feasible alternatives 
        are available for chrysanthemum cuttings (e.g. substrates) and 
        adoption of reduced dosages with emission control strategies. 
        MBTOC noted that the industry is aware of the technically 
        available alternatives and appears to be making an effort to 
        adopt these alternatives. From the case presented MBTOC is 
        unable to recommend a CUE for Chrysanthemums as steaming and 
        production in substrates are technically and economically 
        feasible. Roses are successfully grown in substrates worldwide. 
        The Party may wish to recalculate the nomination on the basis 
        of use of reduced MB dosages combined with emission control 
        technologies and availability of alternatives.'''
    At this time, EPA ``doesn't know'' how it would divide the 14.7 
tons, and the MBTOC application appears to state that Yoder would not 
receive any of the allocation. If this decision is allowed to stand, 
the whole application process is a sham: one of the criteria was the 
requirement to show that the applicant was making progress toward 
decreasing its use of methyl bromide. Yoder is one of the few companies 
that has successfully developed steam sterilization, through very 
significant private investments of the company's capital. This 
decision, if allowed to stand, will actually penalize Yoder for meeting 
the application criteria and trying to invest money (which could have 
been well-used elsewhere) in finding methyl bromide alternatives.
    What became clear was that the members of MBTOC either did not get 
the original packet that was submitted, which contained all of the 
pertinent information, or they did not bother to fully read it. It is 
also apparent that the EPA application was based on a pre-determination 
of a total amount of methyl bromide that EPA staff believed would not 
be ridiculed by MBTOC.
    A copy of Yoder Brothers, Inc.'s letter to a member of this 
Committee is attached to this testimony and submitted for the hearing 
record.
    The Society of American Florists has joined with the California Cut 
Flower Commission to file a joint application, covering uses by 
ornamentals growers in both California and Florida. We have started the 
process of gathering the data from Florida growers and researchers and 
plan to submit one or more CUE applications for ornamental uses 
(especially cut flowers and caladiums) in 2003.
    If the CUE application is considered sound it will be forwarded out 
of the EPA review into a series of international committees where each 
use will be scrutinized. The possibility of obtaining an exemption from 
the international community is unknown. However, based on the Yoder 
experience, we are not optimistic.
    The process is extremely costly and burdensome, and there are no 
guarantees that an exemption will get through U.S. EPA, let alone that 
the exemption will be gathered by the international review panel. Our 
major competitors in third-world countries, however, will continue to 
have methyl bromide available for their usage for several years beyond 
the U.S. phaseout.

                               CONCLUSION

    The United States government must support the U.S. agricultural 
economy in ensuring that methyl bromide remains available to growers, 
until suitable alternatives are found and can be implemented. We cannot 
simply bow to decisions which appear to be predetermined and which will 
put our agricultural sector at a very significant competitive 
disadvantage with growers in third-world countries. The phaseout of 
methyl bromide is a critical issue for U.S. agriculture, and we 
respectfully request this Committee for support and assistance in 
reaching a reasonable solution to what is rapidly becoming a crisis for 
many producers, and the workers they employ across the United States.

    Mr. Radanovich. Thank you Mr. Mellano.
    Mr. Barton. Dr. Noling, thank you. If you would like to 
begin your testimony.

                  STATEMENT OF JOSEPH W. NOLING

    Mr. Noling. I would like to begin first by telling you it 
is a real honor to be here and testifying at an important 
hearing like this. And I am here as an agricultural expert 
representing the research and extension arms of the University 
of Florida and not of any particular agricultural industry or 
commodity group.
    For the past 18 years I have worked as a research and 
extension nematologist, developing and evaluating various pest 
control strategies in commercial agriculture; and for the past 
10 years have worked on alternatives to methyl bromide 
research. For 4 years, I served as a U.S. Expert on the Methyl 
Bromide Technological Committee, and during the period of 1996 
to 2001, I served as the statewide coordinator for alternatives 
to methyl bromide research in the State of Florida. During that 
period, we invested $1.4 million in 54 different projects to 
evaluate many different chemical and nonchemical and 
combination IPM treatments for their effectiveness against the 
various pests and maladies that affect the fruits and 
vegetables of Florida. The results of this work has been 
published widely on an annual basis and, in fact, was probably 
a significant part of the drought factor for the critical use 
exemptions that were submitted to MBTOC.
    I would like to summarize, I guess, for the next 3 minutes 
of what some of that research has told us. And the first thing 
I would like to tell you is that no other country in the world 
has invested as much in resources and labor and just research 
as the United States, and no one understands it in a more 
comprehensive way and has a more comprehensive understanding of 
the mechanism which drives the activity and efficacy of the 
alternatives that we have explored.
    We have made pretty significant advances in the evaluations 
of these over the years and the integration of them, but what I 
can tell you is that there is no single chemical compound that 
will match equivalently the activity, the broad-spectrum 
activity of methyl bromide. So what we recognized early and 
what we have invested a significant amount of time in is the 
coupling or the coformulation or coapplications of a number of 
fumigants. And in fact the next best alternatives, as we have 
defined them in Florida, include 1,3 dichloropropene which is 
Telone in combination with chloropicrin, which is now a 
formulated fumigant that is applied with methyl bromide. But, 
as importantly, it also requires the coapplication of a 
separately applied herbicide to manage effectively the weeds 
that occur in these fields that also compete with the 
production of the crop.
    None of these are perfect, and I will tell you the 
benchmark for alternatives in Florida is consistency. And one 
of the things we have discovered in the past 10 years is the 
expectation that losses cannot be avoided. The losses that we 
have defined for the use of Telone and chloropicrin are in the 
neighborhood of 5 to 10 percent, depending upon the application 
methodology involved.
    It was earlier brought up, the strawberry growers of 
Florida. In fact, if there are not any regulatory changes that 
address the buffer issues or the protective equipment issues of 
these products, there is no alternative in the State of Florida 
for the strawberry producers, and they will quite literally be 
forced to move to areas where buffer zones are not as 
restrictive as they are now.
    Finally, I would like to invest a moment, since it came up, 
that I am somewhat familiar with the critical use exemption 
process, particularly in the ways and means in which the Methyl 
Bromide Technical Operation Committee may evaluate these. And I 
invested a few days, I guess, in reading a 180-page document. 
By far the biggest shortcoming that occurs with the TEAP 
document itself is they have invested a lot of multilateral 
fund money in 230 projects, 44 of which address demonstration 
projects to replace soil fumigant uses in methyl bromide. In 
the summaries of these studies, all they can address or 
indicate is that the results are comparable to that of methyl 
bromide. Black and white, north and south are comparable. They 
are 180 degrees apart, but they are comparable, and yet they 
use these results to proclaim that alternatives exist in the 
underdeveloped countries and use that to indicate that no 
critical use exemptions will be permitted as long as effective 
alternatives exist in the underdeveloped countries. This is 
patently wrong.
    And I guess there are two things that I would conclude 
with: that given the significant impacts that are likely to 
occur and the result that methyl bromide is removed in Florida, 
it is critical we provide a provision of some kind to continue 
the use of methyl bromide after the phaseout date; and second, 
some accountability within TEAP to ensure that the analysis of 
the data that has been collected overseas is reflective of a 
true comparison with that of the United States. So I would ask 
you to review their data as we have been instructed to do in 
the United States, and with that I conclude.
    [The prepared statement of Joseph W. Noling follows:]

 Prepared Statement of Joseph W. Noling, Department of Entomology and 
Nematology, Citrus Research and Education Center, Institute of Food and 
              Agricultural Sciences, University of Florida

    It is an honor for me to be here and I appreciate the opportunity 
to participate in this important hearing. I am here today to serve as a 
scientific expert, representing the research and extension arms of the 
University of Florida, Institute of Food and Agricultural Sciences. I 
am not here to specifically represent any particular agricultural 
industry or commodity group of Florida.
    As a research and extension nematologist with the University of 
Florida, it is my responsibility to develop farm level, pest management 
strategies which are cost effective, environmentally compatible, and 
worker safe. During the past 18 years, I have had many opportunities to 
research various pest management, methyl bromide alternative tactics 
and to observe the outcomes of this experimentation and the degree to 
which various pest problems or cultural practices effect fruit and 
vegetable crop production within Florida. As a scientific expert 
representing the USA, I served four years on the Methyl Bromide 
Technical Options Committee (MBTOC) under the auspices of the United 
Nations Environment Programme (UNEP). During the period 1996 to 2002, I 
also served as the statewide coordinator for alternatives to methyl 
bromide research in Florida. I am very familiar with the breadth and 
diversity of U.S. research on alternatives to methyl bromide and 
understand the potential problems associated with its phase out.
    During the six year period for which I served as statewide 
coordinator of a University of Florida task force to research 
alternatives to methyl bromide, over $1.4 million dollars of research 
funding was made available by congressional mandate through the United 
States Department of Agriculture--Agricultural Research Service (USDA 
ARS). Monies were provided on an annual basis ($243,000) to support the 
long term USDA-ARS Specific Cooperative Agreement (SCA) 58-6617-6-013 
``Field Scale Demonstration/Validation Studies of Alternatives For 
Methyl Bromide in Plastic Mulch Culture in Florida''. Overall, fifty-
four projects, involving 21 University of Florida and USDA scientists, 
were funded during the six year granting period 1996-2002. The 
diversity of projects was broad, involving evaluations of various 
chemical, nonchemical, and integrated pest management (IPM) tactics. 
The principal objective of this SCA was to evaluate and validate the 
effectiveness and economic viability of alternatives to methyl bromide 
soil fumigation for nematode, disease, and weed control in plastic 
mulch vegetable production systems in Florida. The results of this work 
has been annually reported in various trade and scientific journals, 
conference proceedings, as well as in a five volume, comprehensive 
final report and executive summary submitted to USDA (see literature 
citation section this document). Much of this research information was 
submitted to EPA and MBTOC in U.S. nominations for Critical Use 
Exemption (CUE) for Florida crops.
    A similar research program in California, receiving identical USDA 
ARS funding, was initiated during the same period to evaluate 
alternatives to methyl bromide for many different annual and perennial 
crops and pest management tactics and crop production systems. 
Considering both the Florida and California programs, it should be 
clear that the U.S. has made a substantial investment of time, labor, 
and capital resources to independently research and specifically define 
alternatives to methyl bromide in the USA. No other country in the 
world has invested more in research than that of the USA. Undisputedly, 
the U.S. has assumed a leadership role within the international 
scientific community with regard to the breadth and diversity of 
research, and as a result of this leadership, have a more comprehensive 
understanding of the merits and possible impacts of implementing the 
proposed alternatives to methyl bromide in commercial U.S. agriculture. 
Once again, much of this research information was submitted EPA and 
MBTOC in U.S. nominations for Critical Use Exemptions to support 
continued use of methyl bromide after the 1 January 2005 phaseout date.
    During the period of USDA funding, significant advances were made 
in the evaluation and integration of various chemical and nonchemical 
tactics. A number of pest management or crop production systems have 
been devised which either have some potential as economically viable 
replacements for methyl bromide or may contribute to a replacement 
tactic. As a University of Florida scientist, I am here to provide 
testimony and opinion regarding the extent to which viable alternatives 
currently exist and to help define potential impacts to Florida 
agriculture with the phase out of methyl bromide.
    The main message of my testimony is that every currently defined 
potential alternative, at their present stages of research and 
development, comes with certain practical constraints or 
incompatibilities, which affect the technological or economical 
feasibility of the potential alternative. These constraints, such as 
high costs, lower efficacy, increased production or environmental 
risks, regulatory constraints, and/or reduced farm profitability can 
negatively impact future widespread adoption of such alternatives. The 
adoption of these alternatives will involve trade-offs of one sort or 
another, and can have tremendous future impacts on Florida agriculture. 
In addition, the extent to which we can rely on many of these tactics, 
and those proposed by UNEP Technical and Economic Assessment Panel 
(TEAP) and MBTOC, as long-term solutions in the absence of methyl 
bromide has not been scientifically, statistically, or even 
``practically'' established.

        ALTERNATIVES TO METHYL BROMIDE RESEARCH--FLORIDA EFFORTS

    Since 1993, when methyl bromide was added to the class 1 category 
of ozone depleting substances and a phase out date of 2001 established 
under the Clean Air Act, a substantial amount of research has been 
conducted by University of Florida scientists, the objective of which 
was to identify and evaluate alternatives to methyl bromide with 
minimal agricultural impact. As a statewide coordinator of these 
efforts, I am familiar with current research on alternatives to methyl 
bromide.
    A brief summary of Florida research would indicate that no single, 
equivalent replacement (chemical or nonchemical) currently exists which 
matches the broad spectrum efficacy of methyl bromide. For example, a 
summary of over 40 large scale field demonstration trials evaluating 
various chemical alternatives suggests that a chemical cocktail of 
different fumigants (1,3 dichloropropene with chloropicrin) and 
separate, but complementary herbicide treatment(s) have potential as a 
methyl bromide alternative to control soilborne pests and sustain crop 
yield. Since 1996 these trials have focused on comparisons of Telone C-
17 or Telone C-35 applied in-row or broadcast, in combination with 
herbicides such as Tillam to methyl bromide for weed, disease, and 
nematode control and for tomato crop yield response. Although with some 
variability, average yield of the Telone C-17 or Telone C-35 + Tillam 
in-row applied treatments is expected to be within 1 to 5% of methyl 
bromide yield. The requirement for a full spray suit, rubber gloves, 
boots, and a full face respirator by all personnel in the field at the 
time of fumigant application prompted a refocusing of research efforts 
towards evaluation of broadcast, rather than in-row, treatments applied 
prior to bedding to minimize the numbers of field workers and personnel 
protective equipment requirements. Based on the results of other large-
scale demonstration trials, tomato yields averaged from broadcast 
Telone treatments are expected to be about 10% less than that of methyl 
bromide. It is reasonable to believe at this time that yield losses 
currently estimated for use of Telone broadcast treatments potentially 
can be reduced with additional research and refinements in application 
technology, and or when combined with an additional fumigant 
application of Chloropicrin at the time of bedding.
    It is not clear at this time however, whether any U.S. EPA 
regulatory change to reduce the requirement for personal protective 
equipment (boots, gloves, respirators, etc.) or to reduce buffer zones, 
which currently restrict application of Telone products within 300 feet 
of any occupied dwelling, is achievable in the near term. Nor is their 
any certainty whether certain herbicides such as Tillam (Pebulate), 
which serves as an integral component of the methyl bromide potential 
alternative for tomatoes, will be available in the future if a new 
manufacturer is not identified, and certain regulatory issues are not 
resolved between the U.S. EPA and this new manufacturer.
    The impact of regulatory constraints regarding use of Tillam, 
Telone products (1,3-dichloropropene), and even future reregistration 
of chloropicrin cannot be overstated. For example, regulatory 
implementation of buffer zone restrictions will almost assuredly 
preclude use of this best alternative approach within the majority of 
the current Florida strawberry producing acreage due to the close 
proximity of residential housing to most fields. These fields are 
actually bounded on most sides by either commercial structures, grower 
homes, or residential housing. To satisfy federal pesticide label 
requirements, Florida strawberry growers only recourse at this time is 
to actually acquire new land and move production to isolated rural 
areas where buffer zones are not a consideration. At this time, no 
other alternative pest and production system has been identified which 
does not result in significant strawberry yield and profit reduction. 
Nor is there land available which is environmentally suited for 
strawberry production and at the same time is permitted for irrigation 
use of water by state water management districts. In the short term, 
significant impacts to the Florida strawberry industry are expected 
with the methyl bromide phaseout. Some critical use exemption or 
provision for the continued use of methyl bromide must be considered to 
preserve the economic viability of these very important agricultural 
industries.
    If broadcast application technologies cannot be developed to 
sustain economic production, then the requirement for rubber gloves, 
boots, full face respirator, and coveralls for all workers in the field 
at the time of fumigant application constitutes yet another major 
obstacle to the implementation of Telone (1,3 dichloropropene) and 
chloropicrin combination product. Given current state and federal rules 
and recommendations governing heat stress avoidance in workers by 
growers, continuance of personal protective equipment requirements 
could as much as triple labor requirements (if additional labor forces 
can be made available) for the field application process of this 
compound. In some states, field workers are prohibited from working in 
full spray suits at temperatures in excess of 85F. Temperatures of 
this magnitude are common in Florida agriculture.
    The breadth and focus of the methyl bromide alternatives research 
program in Florida is not limited exclusively to evaluations of 
chemical combination treatment regimes. Rather, the program encompasses 
an evaluation of a diversity of nonchemical tactics as well. It should 
be recognized that many of the nonchemical alternatives specifically 
evaluated are already an established component of commercial crop 
production practice in Florida agriculture (items 1,2,3,6,7,9,10, and 
11 below). Since 1993, the nonchemical alternatives which have been 
evaluated for broad spectrum soil borne pest control in field 
experimentation include:

1) Cover Crops
2) Host Plant Resistance
3) Organic Amendments
4) Solarization/Biofumigation
5) Biological Control Agents
6) Paper and Plastic Mulch Technologies and Emissions Reduction
7) Natural Product Pesticides
8) Super Heated Water (Hotwater) and Steam
9) Crop Rotation
10) Supplemental Fertilization
11) Fallowing
    In general, the results from some of the nonchemical studies has 
been encouraging, but in most cases must be construed as incomplete 
from a soil pest control or crop yield enhancement perspective when 
evaluated in the absence of soil fumigant treatment. Many are only 
marginally effective, but also impractical, cost prohibitive, or having 
requirements for specialized equipment and operators. As such, none of 
the nonchemical tactics should be considered stand alone replacement 
strategies for methyl bromide soil fumigation at this time.
    I should also point out that research within Florida has been 
principally confined to the tomato and strawberry industries. Moreover, 
a host of other crops currently dependent upon methyl bromide still 
require a considerable amount of ``discovery'' type research. These 
crops include: pepper, eggplant, cucurbits, cut flowers, caladiums, 
turf, and ornamentals. Further, the consequences to the current double 
cropping systems have not been broadly considered for most of the crops 
identified above. It is often the profit from a second crop, benefiting 
from residual pest control properties of the initial methyl bromide 
treatment, that economically sustains the overall production system in 
Florida. Besides farm level impacts, please recognize that all of these 
industries are very important to state and local economies, and 
significant multiplier effects are expected to spill over into other 
areas of the private sector. In these cases as well, some critical use 
exemption or provision for the continued use of methyl bromide after 
the phaseout must be considered to preserve the economic viability of 
these very important agricultural industries, particularly if 
regulatory constraints cannot be satisfactorily resolved.

         COMPARISON OF USA AND INTERNATIONAL RESEARCH EFFORTS:

    The TEAP progress report states that similar field research 
efforts, funded by UNEP, UNIDO, and Multilateral Fund monies, have been 
initiated on a global scale and several methyl bromide alternatives 
have been selected for extensive adoption as part of a Methyl Bromide 
phaseout investment projects. For example, the TEAP progress report 
indicates that by December 2002 the Multilateral Fund had approved a 
total of 232 methyl bromide projects in more than 63 countries. This 
included 44 demonstration projects for evaluating and customizing 
alternatives to soil fumigation uses of methyl bromide. As reported by 
TEAP, these projects: `trialled a wide range of chemical and non-
chemical alternatives, in diverse countries, climatic zones, soil types 
and cropping systems, and for many different types of methyl bromide 
users and economic situations'. According to the TEAP report, one or 
more of the alternatives tested in each crop situation have proven 
`comparable' to methyl bromide in their technical effectiveness for the 
control of pests and diseases. As a major shortcoming of both TEAP and 
MBTOC reports, no mention is made of differences in crop yield among 
treatments and demonstration sites, and the degree to which these 
alternatives actually `compare' with methyl bromide has not been 
quantified in summary document or tabular format by either MBTOC or 
TEAP, or more importantly, subjected to the same statistical and 
scientific scrutiny as that of the U.S. based research data. It would 
appear, that we are expected to accept the UNEP/UNIDO/Multilateral 
funded studies carte blanc, not to judge them for scientific merit, or 
via actual numerical and statistically comparison of treatment 
differences, but by MLF dollars spent, shear number of demonstrations 
conducted, and pounds of methyl bromide that could be eliminated in 
Article 5 undeveloped countries if the alternatives were adopted. Since 
grower opinion surveys are never presented within TEAP or MBTOC 
reports, it also seems possible that a grower consensus in each of 
these countries has not been attained, and the growers themselves might 
even disagree with validity of TEAP and MBTOC claim for the various 
alternatives.
    Utilizing the results of much of this work, MBTOC and TEAP have 
declared the existence of alternatives for all uses of methyl bromide. 
In this regard it would appear that the U.S. is being held to 
comparison by a standard or benchmark for alternatives response which 
has not, or can not be confirmed via summaries of Multilateral Fund 
(MLF) field demonstration studies. Based on U.S. experiences, the 
cultural, biological, and environmental disparities that invariably and 
unavoidably occur between demonstration site locations preclude their 
(MBTOC,TEAP) abilities to validly compare and discriminate between the 
myriad of treatments and crops evaluated in these studies, ie., declare 
one alternative superior to another. There is simply not enough 
statistically valid, site-standardized data to summarize and support 
such broad global claims of technical feasibility, economic viability, 
and global transferability. The U.S. is keenly aware of the response 
variability problem that can occur, since over 40 field demonstrations 
were performed in Florida alone comparing a single alternative fumigant 
compound with that of methyl bromide. Similar to the demands placed on 
countries who nominate a specific critical use exemption, TEAP and 
MBTOC must also be held accountable to quantitatively show the accuracy 
and validity of research claims and adequacy of various substitute they 
propose for methyl bromide.
    Conversely, it has been our observation and research philosophy in 
Florida and other areas of the U.S., that treatment response 
consistency is the benchmark for success when defining a next best 
alternative to methyl bromide. In the U.S., alternatives with defined 
potential to replace methyl bromide have been repeatedly evaluated as 
independent treatments in replicated field trials, often in the same 
location, with the same crops for repeated production cycles to insure 
response consistency and or to characterize any response degradation. 
In these published U.S. trials, treatment responses are statistically 
characterized by means and standard errors, and oftentimes even 
characterized on a relative basis to show and report deviations from a 
methyl bromide standard. In this regard, the U.S. in its leadership 
role has adopted a higher standard of acceptability and consistency 
than that of TEAP or MBTOC for defining a technically feasible and 
economically viable alternative to methyl bromide. To do otherwise 
would be disservice to U.S. farmers and discredit to the research 
institutions of this country. Conversely, to permit TEAP to judge and 
compare U.S. CUE's using such low, and or, unsubstantiated standards 
for treatment response consistency is patently wrong and in this case, 
performs a travesty to U.S. farmers who currently rely on methyl 
bromide for their livelihoods.

                          GENERAL CONCLUSIONS

    Since 1996, the research and extension faculty of the University of 
Florida, in collaboration with USDA-ARS research scientists, have 
conducted field research programs to identify and evaluate a diverse 
mix of pest control products, application technologies, nonchemical 
pest management tactics and treatment regimes, as well as entirely new 
crop production system approaches to replace soil fumigant uses of 
methyl bromide. Initially, we invested heavily in an alternative 
chemical approach and only later expanded to include nonchemical 
tactics and approaches. Significant advances have been made in the 
integration of some of these tactics, and a pest management system has 
been devised which has the potential to replace methyl bromide. 
Overall, it has been a building process, in which new blocks of 
information, developed and acquired on an annual basis, have all 
contributed to the development of an overall IPM strategy. It began 
with the recognition that the simple substitution of one alternative 
fumigant for that of methyl bromide was not the answer and that other 
IPM components were essential.
    During the past ten years, we have widely published the results of 
this research, documenting our continuing quest to develop an effective 
and economically viable alternative to methyl bromide soil fumigation. 
During this period, a number of significant scientific advancements 
have been made which have important, practical implications. For 
example, we have enhanced our basic understanding of drip irrigation 
water movement and how to most efficiently use the drip tube for 
delivery of agrichemicals. We have identified post plant pest control 
strategies (crop rescue) which serve to reduce pest pressure and help 
restore crop yield potential. Conversely, we have demonstrated how 
early crop destruction can provide expanded opportunity to enhance 
overall integrated pest management strategy. We have demonstrated the 
utility of virtually impermeable plastic mulches (VIF) and identified 
some of the problems with its use.
    Overall, the results of this collective work also have shown that 
tank mix applications of various herbicides will likely be required to 
effectively broaden the spectrum of weed control to the near 
equivalence of methyl bromide. The large scale field demonstration 
trials and small plot herbicide tolerance and efficacy studies have 
demonstrated that crop growth can be severely restricted, and yield 
significantly reduced in response to some preplant, preemergence, or 
post emergence applied herbicides. Differences in timing, rates, and 
methods of herbicide application and incorporation can all be important 
factors contributing to phytotoxic crop response and weed control 
efficacy. The results of these studies also serve to document the need 
by growers to learn how to effectively choose, apply, and incorporate 
these herbicides to maximize weed control and to avoid dealing with 
unsolvable production problems of plant stunting, mortality, and or 
crop loss.
    During the tenure of the USDA project, the combined results of the 
alternative chemical studies continued to show the combination of 1,3 -
D (Telone II) and chloropicrin, formulated as Telone C-17 or Telone C-
35 as the most promising, currently registered, alternative fumigant 
combination to that of methyl bromide for Florida fruit and vegetable 
production. In general, these studies indicate that tomato yields were 
greater following use of Telone C-35 compared to that of Telone C-17 
and that in-row applications were generally superior to broadcast 
applications. The higher yields obtained with in-row applications are 
likely the simple result of more uniform fumigant dispersion, 
distribution, and reduced dissipation under the raised, plastic mulch 
covered beds compared to bare ground, broadcast applications made to 
undisturbed soil subjected to environmental flux. Even though tomato 
yields improved with in-row and or broadcast applications of Telone C-
17 or Telone C-35, they were not always to the level of methyl bromide. 
The results of recent studies further suggests that when soilborne 
disease pressure is low, broadcast application of Telone C-35 can be as 
effective as in bed application; however, when disease pressure is 
greater, broadcast application of Telone C-35 benefits from the 
addition of another fumigant treatment with chloropicrin at the time 
the beds are formed.
     Regardless of alternative chemical or application method, the 
culmination of this work shows that pest control efficacy for all of 
the fumigant alternatives can be a little less than that of methyl 
bromide and are more highly dependent upon uniform delivery and 
distribution. Unlike methyl bromide, prevailing soil and climatic 
conditions, pre and post fumigant application, are much more important 
determinants of efficacy and crop response with the alternative 
chemicals. With these new alternatives, it has also become apparent 
that the growers themselves can cause significant response variability 
due to inappropriate land preparation or substandard application 
procedures.
    USDA-ARS funded research has helped to identify and further define 
optimum conditions and procedures required to maximize performance of 
Telone, chloropicrin, and other fumigant and herbicide products. 
However, the culmination of this research also has demonstrated that 
satisfactory yield responses probably cannot be achieved consistently 
in every field or in every season as equivalent to that of methyl 
bromide. As a result, growers must learn to expect some disease, some 
loss, and recognize that some inconsistency is unavoidable. The biggest 
continuing challenge facing the scientific community and growers of 
Florida is developing and improving alternatives which further minimize 
the 5-10% impacts on yield for each of the methyl bromide dependent 
crops. It is also imperative that regulatory changes occur to declare 
the new system which includes Telone, Chloropicrin, and various 
herbicide products a viable alternative.
    And finally, please recognize that MBTOC and TEAP claims of 
comparability of proposed alternatives (ie., soil solarization and 
biofumigation) cannot be confirmed or denied, but nor should they be 
accepted as unchallenged fact with such critical issues of national 
importance at stake. The pest control performance and economic 
viability of most of these approaches have been repeatedly discounted 
in replicated, statistically valid, U.S. field experimentation. Both 
MBTOC and TEAP make judgement that a variety of alternatives perform 
satisfactorily in the undeveloped Article 5 countries, and that they 
are economically feasible, and apparently transferable, when U.S. data 
shows that they are not. These international committees are fully aware 
of the significant body of U.S. research and choose to ignore it or 
claim to be unaware of its existence. This concern is important and 
must be raised since TEAP indicates that ``No CUE will be awarded if 
there is an alternative practice in use in the global market, and that 
this alternative is available to the applicant''. In this case, MBTOC 
and TEAP make judgements that their alternatives are viable, showing no 
data or scientific confirmation, and discount our research 
demonstrating the converse. This is but one example to show how the 
TEAP and MBTOC system is significantly flawed and manipulated by biased 
individuals, often steeped with conflict of interest. Based on personal 
experience, I have no confidence in the way the international process 
has worked, the timetables in which CUE's have been requested and more 
importantly evaluated, and finally, the flawed scientific and economic 
standards which are used to judge and discriminate among nominations 
and international need.

    Mr. Radanovich [presiding]. Thank you Dr. Noling. I 
appreciate the testimony.
    Dr. Jack Norton, welcome to the subcommittee. If you would 
like to begin your presentation.

                    STATEMENT OF JACK NORTON

    Mr. Norton. Thank you very much, Mr. Chairman, and also I 
appreciate the opportunity to sit before the committee today; 
or at least I think I do.
    Mr. Boucher. Mr. Norton, could you bring your microphone a 
bit closer?
    Mr. Norton. I am Dr. Jack Norton and I manage the methyl 
bromide alternative research program for IR-4. And I think 
probably everyone here knows what IR-4 is all about; that it is 
a Federal/State partnership program between USDA and the State 
land grant institutions to develop data to support the 
regulatory clearance of chemical and biological crop protection 
products for minor crops. These crops are valued at over $40 
billion a year, and for the most part these crops offer little 
economic incentive for the agricultural chemical industry to 
develop supporting data to meet the regulatory data 
requirements to meet EPA's registration requirements.
    IR-4 has a long history of facilitating registration of 
safe and effective crop protection solutions for the domestic 
grower of fruits, vegetables, herbs and ornamental crops. IR-4 
is celebrating this year its 40-year anniversary, so it has 
been in business for a long time. And during this time, the 
project has been extraordinarily successful, with over 6,000 
food use clearances, 9,100 ornamental clearances, and 220 
biopesticide clearances to its credit. And over the past 8 
years the program has concentrated almost all of its research 
efforts on new technology or pest management tools to define 
reduced risks by EPA.
    This is part of my written testimony. I won't read through 
the whole thing. I will go to my testimony verbally in my 
summary for the methyl bromide alternatives program. I will say 
that our budget is much smaller than what we heard quoted 
earlier and it is funded primarily by the chemical industry. 
They support the IR-4 methyl bromide alternatives program. I 
manage that program for IR-4 as a consultant, so I am not on 
the payroll of IR-4 except in a consulting capacity. And during 
the past 5 years, we have run large-scale field trials both in 
California and Florida on tomatoes and strawberries. And the 
last 2 years we expanded the program to include peppers and 
some ornamental bulb crops. And we have gone into Michigan, 
where we are working on cucurbit vegetables in the IR-4 methyl 
bromide programs.
    In all of our trials, we set those up to mimic commercial 
applications. There are large block trials where we actually 
put the products out, like following commercial practice to 
make sure it could mimic what the farmer could do if these 
products were registered. They are very data-intensive 
programs. We collect not only information on the diseases, 
nematodes and weeds, but we also carry the trials through to 
complete yield in strawberries and that means 22 weeks of 
picking strawberries twice a week. But we compile enough data 
that we can do an economic assessment of the products we are 
evaluating.
    And we are looking at a lot of different products, some of 
which will never make it to registration, but we compare those 
products against methyl bromide, chloropicrin 67 to 33 percent, 
which is the formulation most widely used, and we also include 
other registered products like Telone that has been mentioned; 
1,3 dichloropropene, and also metam sodium or Vapam. We look at 
the registered products in comparison to the early development 
products and methyl bromide. And our results have shown--and we 
have conducted these trials now since 1998, eight trials, four 
each in Florida and California, in each State, two trials on 
tomatoes and two on strawberries. So that is eight trials per 
year, four each on strawberries and tomatoes, and we equally 
divide those between the two States, the States where mostly 
methyl bromide is used on these crops.
    And our results have shown based on efficacy, and just 
based on efficacy--and I want to make that clear--I want to say 
we have technical economically viable alternatives, but I did 
not take into account the regulatory implications that impact 
on the products that Dr. Noling mentioned and some of the other 
panelists mentioned--the setback restrictions, PPE in the case 
of Telone. There are also some counties where you can't use 
Telone in Florida. When it comes to Telone, we don't have at 
this point a fully viable alternative for strawberries and 
tomatoes because of those regulatory restrictions.
    There are some other products that are coming along. It 
will be marketed as Midas. And I do believe this product has 
the potential of being a replacement for methyl bromide, based 
on efficacy again, but there could be an economic problem with 
that from what I am hearing. The costs may be difficult to make 
it usable by the growers. I don't know that for sure but the 
feeling is it is going to be a very expensive product to use.
    And there are other products that could be used in 
combinations, in a cocktail approach that I think EPA is moving 
ahead with as quickly as they can. I am encouraged by the 
effort of EPA to register these products.
    So I guess that means I need to stop.
    Mr. Barton. We have one more witness, and we have been 
lucky that we have not had to go vote, so we are going to try 
to get Mr. Doniger's testimony in and hopefully we can get some 
questions in before we have to go vote.
    [The prepared statement of Jack Norton follows:]

  Prepared Statement of Jack Norton, Manager, Interregional Research 
           Project No. 4, Methyl Bromide Alternatives Program

    Good afternoon. I am Dr. Jack Norton, and I manage methyl bromide 
alternative research for Interregional Research Project Number Four 
(IR-4). IR-4 is a federal-state partnership program between USDA and 
the state land-grant institutions to develop data to support the 
regulatory clearance of chemical and biological crop protection 
products by U.S. Environmental Protection Agency (EPA) for use on high 
value, specialty crops. These crops that are valued over $40 billion 
annual are also known as minor use crops. For the most part, these 
crops offer very little economic incentive to the agricultural chemical 
industry to develop the supporting data to meet the regulatory data 
needs of EPA. IR-4 has a long history of facilitating registration of 
safe and effective crop protection solutions for the domestic grower of 
fruits, vegetables, herbs, and ornamental crops. In fact the IR-4 
Program is celebrating its 40th anniversary this year. During this 
time, the Project has been extraordinarily successful, with over 6000 
food use clearances, 9100 ornamentals clearances and 220 biopesticide 
clearances to its credit. Over the past eight years the program has 
concentrated almost all of our research efforts on new technology or 
pest management tools defined as ``Reduced Risk'' by EPA. 
Collaborations are the strength of the IR-4 program. Input is sought 
continually from the growers and commodity organizations, researchers 
including scientists at land grant universities and USDA, cooperative 
extension, as well as input from the crop protection industry, and 
federal/state regulators. This input allow IR-4 to identify the most 
important pest management needs and quickly develop the supporting data 
to support the registrations of the solution. Food crop projects are 
the largest part of the IR-4 work plan. However, in 1977 the 
Ornamentals Program was added for nursery and floral crops, forest 
seedlings, Christmas trees, woody ornamentals and perennials. In 1982, 
IR-4 expanded to include a Biopesticide Program to support research and 
registration activities on biological based pest control agents. In 
1998, IR-4 organized a Methyl Bromide Alternatives Program. Since the 
establishment of the methyl bromide alternative objective, IR-4 has 
been actively working with the agricultural chemical industry, USDA's 
Agriculture Research Service and university scientists, EPA's Office of 
Pesticides Programs Registration Division, and California Department 
Pesticide Registration in exploring product uses and combinations that 
may be useful in replacing methyl bromide when it is scheduled for full 
phase out in 2005 under the provisions of the Montreal Protocol. IR-4 
involvement in this research arena was deemed necessary by our 
stakeholders because methyl bromide is a product that has been widely 
used in numerous minor crops. In fact, for many minor crops it has been 
the dominant soil fumigation product for control of nematodes, soil-
borne diseases and weeds. Beginning in 1998, IR-4 has conducted large-
scale field programs with potential methyl bromide replacements. The 
research program consisted of eight studies each year. Research on 
tomatoes and strawberries were conducted in California and in Florida 
at two sites per crop per state. These field trials involve many acres 
and are conducted on commercial farms so as to duplicate conventional 
applications and agronomic conditions. And all the trials have been 
replicated so as to provide scientifically valid data. The results and 
protocols of the IR-4 programs are available for public viewing at 
www.cook.rutgers.edu/ir4. These data-intensive programs compared all 
aspects of methyl bromide alternative applications against the methyl 
bromide standard--aspects such as efficacy against pests, yield and 
crop quality. Collecting all the data enabled us to make economic 
assessments about the alternative programs
    Our assessment, derived over the five-year period, is that for 
tomatoes and strawberries, there are products currently registered that 
can be used in combination as technically and economically viable 
alternatives for the nematode, disease and weed control provided by 
methyl bromide.
    For other fruiting vegetables such as peppers and eggplant and 
cucurbits such as cucumbers, melons and squash, alternative programs 
require further testing but are showing promise. This is especially 
true for the fruiting vegetables where much of the knowledge gained 
from tomato can be applied to pepper and eggplant. For other crops, 
especially cut flowers, we have not seen any alternative program that 
is acceptable.
    Much of our research has involved soil fumigants containing 1,3-
dichloropropene, sold under the brand name Telone or InLine. These 
products have shown nematode control comparable to methyl bromide. When 
chloropicrin is combined with 1,3-D, we have seen disease control 
comparable to methyl bromide.
    Weed control has been an issue, but over the five-year testing 
period we have seen that weeds can be managed effectively. Metam sodium 
(trade name Vapam) applied as a bed top treatment at low rates after 
the soil fumigation has shown control of annual weeds comparable to 
methyl bromide in California. We have also seen better consistency of 
control from metam sodium as we learn better the optimum conditions for 
application. Frequently statistically equivalent control of nematodes, 
weeds, and fungal pathogens have been obtained from full use rates of 
metam sodium compared to methyl bromide when properly applied. Weed 
control in Florida, however, has been a problem, especially for control 
of yellow and purple nutsedge.
    However, new herbicide registrations promise to address those 
limitations. Recently halosulfuron (trade name Sandea) has been 
registered for use on a number of crops, including tomatoes, asparagus, 
cucumbers, melons, pumpkins, squash, eggplant and peppers. This is an 
excellent control of purple and yellow nutsedge and can be used in 
combination with soil fumigants such as 1,3-D and chloropicrin to 
address the critical need for nutsedge control.
    In peppers, Sandea is registered only for use in row middles, 
however metolachlor (trade name Dual Magnum) can be used in peppers to 
provide in-row control, rounding out the methyl bromide alternative 
program for that crop.
    Another promising herbicide, trifloxysulfuron sodium (trade name 
Envoke) is receiving an expedited review by the EPA. These products, 
which IR-4 has evaluated in our field programs, provide nutsedge 
control comparable to methyl bromide and hold promise to solve the weed 
control issues that have made peppers a crop of concern as methyl 
bromide phase-out nears.
    Another product that is not yet registered has shown control of all 
three pest types--nematodes, diseases and weeds--comparable to methyl 
bromide. The product is iodiomethane, trade name Midas. Depending on 
how the product is priced, once it is registered it could be a drop-in 
replacement for methyl bromide.
    Other non-registered products also are showing promise in IR-4 
trials. These include fosthiazate for nematode control and dazomet 
(Basamid) for weed control on bed tops. For broad spectrum pest 
control, SEP-100 (sodium azide) has shown promise, as have propylene 
oxide and MULTIGUARD <SUP>TM</SUP> PROTECT + VAPAM HL followed by post-
transplant applications of MULTIGUARD <SUP>TM</SUP> PROTECT.
    While currently registered products have shown they are a viable 
alternative to methyl bromide, there is a potentially limiting factor 
in that the use of 1,3-D and chloropicrin is subject to regulatory 
requirements such as buffer zones and limits on how much can be applied 
in a given township in California. In some cases, these regulatory 
restrictions could limit the use of these otherwise viable alternatives 
to methyl bromide. It is my understanding that these issues are being 
addressed.
    In addition to our work with crops, I would also like to mention 
that IR-4 has been evaluating post-harvest fumigation needs as well. 
Through our work with registrants and the EPA's Registration Division, 
propylene oxide and sulfuryl fluoride are now registered and effective 
post-harvest uses with stored agricultural commodities providing 
control equal to methyl bromide in many situations.
    Five years ago, the task of replacing methyl bromide seemed very 
daunting. Each year, however, we have learned more about how existing 
products can be used in a cocktail approach as effectively as the 
industry standard. It should be pointed out that methyl bromide went 
through a similar history when it was introduced. Until research showed 
how to use it most effectively, it was not a cure-all.
    We are learning more every year about how to use the alternative 
programs. Not just researchers, but growers also are learning to use 
the products in a prescription approach. As methyl bromide prices have 
gone higher, an increasing number of growers have begun to use programs 
based on 1,3-D , chloropicrin and metam sodium. While they might prefer 
to continue with the methyl bromide program they know, they are 
demonstrating that they can move away from the standard if issues--in 
this case pricing--force them to. They are demonstrating what five 
years of IR-4 data have shown--that phase-out of methyl bromide will 
not be doomsday for tomatoes, strawberries and peppers.
    To summarize, based on five years of extensive in-field research at 
sites in Florida and California, the results of IR-4 studies indicate 
that some of the currently registered products, when used in 
combination, deliver pest management results that are comparable to 
methyl bromide treatments in strawberries, tomatoes and peppers. These 
three crops account for most of the methyl bromide use in fruit and 
vegetable production. Furthermore, products that likely will be 
registered in the near future and several other products in earlier 
stages of development have shown great potential to expand the 
effectiveness of alternative programs in these crops. The EPA has been 
very responsive to the crop protection chemicals that show promise in 
the IR-4 research. EPA has given fast-track registration review 
attention to these products that promise to fill efficacy gaps in 
methyl bromide replacement programs.
    Thank you for hearing my presentation today. And I reinvite you to 
visit the IR-4 website, where all of our written reports are available.

    Mr. Barton. Mr. Doniger, you are recognized for 5 minutes.

                  STATEMENT OF DAVID D. DONIGER

    Mr. Doniger. I have a different perspective. The Montreal 
Protocol is a global success story. It is a bipartisan support 
stemming back to President Reagan. It is saving millions of 
people here in this country from skin cancer, death and 
illness; tens of millions of people around the world.
    Now, why did we enter the Montreal Protocol? We did it 
because protecting the American people from ozone depletion and 
the illnesses that come from it is something we can't do by 
ourselves. We can't heal the ozone layer above America and 
ignore what happens from emissions and to the ozone layer and 
the rest of the world. And so this is something where if we are 
going to succeed--and we have succeeded so far--we have to do 
it together with other countries in the world. It is in our 
self-interest to be part of this treaty and to make it work. It 
is against our self-interest to run away from this treaty.
    Now, it is working, but it will still take 50 more years 
for the ozone layer to recover; and that assumes that we stay 
the course and eliminate all of these chemicals, including 
methyl bromide. Now is not the time to tamper with this treaty 
or with the Clean Air Act. Methyl bromide is the most dangerous 
ozone-destroying chemical and is still in widespread use. The 
latest scientific assessment confirms that methyl bromide's 
potency is in the same league with the CFCs and the other 
chemicals that have already been eliminated. It is twice as 
potent as some that have already been eliminated. Its impact on 
the ozone layer alone, methyl bromide, is equal to the total 
impact of all the hydrofluorocarbons, the HCFCs that are used 
to replace the CFCs.
    If you want to keep the methyl bromide on tap and have the 
same benefit for the ozone layer, you would have to get rid of 
all the alternative refrigerants and solvents which have been 
put into play since the 1990's.
    Methyl bromide is also increasingly linked to cancer among 
pesticide applicators and other ag workers who are exposed to 
it. A 55,000-worker study completed by the National Cancer 
Institute finds an increase in prostate cancer associated with 
methyl bromide use, the clearest thing of all the pesticides 
that were investigated in that study.
    On the process, the process for looking for critical use 
exemptions in our view is transparent, it is fair, it has clear 
standards. The TEAP applies those standards and provides 
written explanations. That is why everyone has this 188-page 
report to look at. It is an interim report. They asked for 
comment. They asked for reaction. They asked for more 
information. This is the kind of back-and-forth which any fair 
and open process should have. If anything is broken in the 
critical use exemption process it is here in America, because 
the Bush administration has abused the critical use exemption 
process by submitting a bloated application that exceeds the 
maximum that is allowed under the treaty. It says so in the 
opening pages of the explanation, with extra margins of safety 
on the assumption that for every single-use category, nothing 
gets better.
    If you look at the best estimates of what is going to 
happen, the use requirements are for less than what was asked, 
but the application is padded against the possibility that 
absolutely every use stalls out where it is now and no further 
progress in reducing. I am not saying there shouldn't be any 
critical use exemptions granted. I am in favor of the structure 
of the protocol. Having the exemptions there as a possibility 
for 2005 and beyond is what made it possible to sell to 
American farmers and to other countries' farmers the viability 
of a phaseout program. We need that exemption process. And I 
expect exemptions will be granted, but not 39 percent. There is 
a legal limit of 30 percent and that needs to be observed.
    If the U.S. Goes ahead and grabs for excessive and 
unnecessary exemptions, it risks a backlash and a breakdown of 
the consensus that we need here in the United States to protect 
our own people from ozone depletion and the ultraviolet 
radiation that endangers their health.
    If the Bush administration pushes too hard on this, it is 
going to stick its finger in the eye of yet another 
international treaty and risk a backlash that will imperil the 
health of Americans, of your constituents all across this 
country.
    And I want to say a word about a second issue there hasn't 
been much comment about, the quarantine issue. That is another 
exemption that was put forward on the basis that quarantine use 
was a small use and it was very valuable. And I agree that it 
was very valuable. Also it has been small. It was the tail on 
the dog, and the parties agreed to focus on the dog, not the 
tail. But the Bush administration is on the verge of taking new 
actions that would explode the quarantine exemptions so that 
the tail would dwarf the dog. And we are talking about a 
requirement that all wood packaging be fumigated before 
products can be transferred from one country to another. This 
is something we do now with respect to packages coming from 
China, packed in raw wood, because beetles can ride in the wood 
and it is a real hazard. But the answer is not to perpetually 
fumigate the packaging. The answer is to phaseout raw wood 
packaging, junk wood packaging.
    Mr. Barton. You do need to summarize.
    Mr. Doniger. The USDA agreed in 1999 to look at the option 
of phasing out raw wood packaging. It would leave us with 
methyl bromide use in an interim period, and then we get rid of 
the packaging and you could kill two birds with one stone, 
protect the ozone layer and prevent the pests from traveling 
into this country.
    But the USDA has broken its promise and abandoned even 
looking at the option of phasing out the raw wood packaging. It 
is ready to explode the quarantine use and it could triple the 
world use of methyl bromide. That is not good for our farmers 
and not good for our ozone layer, and that is something we need 
to stop.
    [The prepared statement of David D. Doniger follows:]

   Prepared Statement of David D. Doniger, Policy Director, Climate 
               Center, Natural Resources Defense Council

    Mr. Chairman, member of the subcommittee, my name is David Doniger. 
Thank you for the opportunity to testify today. I am Policy Director of 
the Natural Resources Defense Council's Climate Center. I have worked 
to protect the ozone layer for more than 20 years in both non-
governmental and governmental capacities, dealing with all of the 
important ozone-destroying chemicals, from the CFCs to methyl bromide. 
During the 1980s and early 1990s, I represented NRDC in negotiations on 
the Montreal Protocol and its follow-on agreements, and worked to enact 
and implement the ozone protection title of the 1990 Clean Air Act 
Amendments. I served in the Environmental Protection Agency during the 
Clinton administration and participated in deliberations leading to the 
1997 Protocol amendments on methyl bromide. I rejoined NRDC in 2001, 
and I continue to monitor international and domestic policy on 
protecting the ozone layer.

                   GLOBAL THREAT AND GLOBAL RESPONSE

    There are few more harrowing threats to our health and our 
environment than destruction of the Earth's protective ozone layer. And 
there are few more heartening success stories than the global effort to 
phase out the ozone-damaging chemicals. The Montreal Protocol--which 
has enjoyed bipartisan support from three presidents, beginning with 
Ronald Reagan--is saving literally millions of Americans, and tens of 
millions of people around the world, from death and disease.
    Every American, and every citizen on this Earth, relies on the 
ozone layer to block dangerous ultraviolet radiation that causes skin 
cancer, cataracts, immune disorders and other diseases. Yet the ozone 
shield has been--and continues to be--badly damaged by a range of man-
made chemicals, from CFCs to methyl bromide. Nearly all of the high-
potency ozone-destroying chemicals have been successfully eliminated. 
Methyl bromide is only one still in widespread use.
    The Antarctic ozone hole is the most striking symbol of humanity's 
capacity to injure the environment on a global scale and in ways that 
no one foresaw. But the damage is not confined to the ends of the 
Earth. The ozone layer directly over our heads has been weakened, 
sharply increasing our exposure to dangerous UV radiation. Millions of 
Americans--including farmers--must work everyday in the sun. Millions 
more--from school children to seniors--spend hours of their days out of 
doors. Millions of concerned parents check the UV Index and cover their 
kids with sunscreen before letting them go out in the sun.
    The Montreal Protocol is working and has begun to heal the ozone 
layer, but it will still take at least 50 more years to fully recover--
assuming we stay the course and complete the phase-out of all potent 
ozone-destroyers, including methyl bromide. As stated in the latest 
ozone science assessment:
          The Montreal Protocol is working, and the ozone-layer 
        depletion from the Protocol 's controlled substances is 
        expected to begin to ameliorate within the next decade or so . 
        . .
          Failure to comply with the Montreal Protocol would delay or 
        could even prevent recovery of the ozone layer. For example, 
        continued constant production of ozone-depleting substances at 
        the 1999 amount would likely extend the recovery of the ozone 
        layer well past the year 2100. The total atmospheric abundance 
        of ozone-depleting gases will decline to pre-Antarctic-ozone-
        hole amounts only with adherence to the Montreal Protocol's 
        full provisions on production of ozone-depleting 
        substances.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Scientific Assessment of Ozone Depletion: 2002 (UNEP 2002), pp. 
xxiv and xxv, available at http://www.unep.org/ozone/sap2002.shtml.
---------------------------------------------------------------------------
    This is no time to slacken efforts to protect the ozone layer or to 
tamper with the world's most effective environmental treaty. Americans 
know what causes ozone depletion, and they expect their government to 
do what it takes to stop it. They will not reward leaders who bash the 
Montreal Protocol or attack the Clean Air Act.
    Dozens of other industries have stepped up and accepted their 
responsibility to replace CFCs, halons, and other ozone-destroying 
chemicals they had grown accustomed to. They innovated and adopted new 
technologies and practices, and they successfully eliminated these 
chemicals within a decade or less. Their new products are as good as or 
even better than the ones they replaced.
    Producers and users of methyl bromide have already had a dozen 
years to work on replacements--more time than any other industry. Many 
farmers and food processors have accepted the science and faced up to 
the challenge of eliminating methyl bromide, and much progress has been 
made. Progress will continue as existing alternatives are more fully 
adopted and new ones are successfully registered under the pesticide 
laws.
    But some factions in this industry have chosen denial and 
obstruction and are waging a campaign to stop or even reverse the 
phase-out of methyl bromide. Their campaign, based on misrepresentation 
and innuendo, must not be allowed to succeed. Leaders who pander to 
their pressure are punishing those farmers who played by the rules, 
endangering the health of millions of Americans, and making our country 
into an international outlaw.

         METHYL BROMIDE: STILL DANGEROUS AFTER ALL THESE YEARS

    Methyl bromide is the most dangerous ozone-destroying chemical 
still in widespread use. Some, however, would have you believe that new 
science has virtually exonerated it. But the latest scientific 
assessment confirms that methyl bromide is in the same league with the 
potent chemicals that have already been eliminated, with an ``ozone 
depletion potential'' of 0.38.<SUP>2</SUP> That is nearly twice the 0.2 
level that defines a ``Class I'' chemical that must be eliminated under 
the Clean Air Act. Methyl bromide is nearly four times more potent than 
methyl chloroform, which was phased out in the 1990s, and HCFC-141b, a 
CFC replacement that has been nearly eliminated. In fact, the latest 
Scientific Assessment indicates that methyl bromide is causing nearly 
as much damage to the ozone layer as all HCFCs combined.<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ Scientific Assessment of Ozone Depletion: 2002 (UNEP 2002), p. 
Q11.
    \3\ Id. at p. xxv.
---------------------------------------------------------------------------
    We have long known that short-term exposures can cause severe 
illness and death, and many communities have restricted its use in 
fields located near homes and schools.
    Now new information links methyl bromide with increased cancer 
risks among farmers and other workers who are directly exposed. Most 
recently, the National Cancer Institute reported in May that methyl 
bromide has been linked to increased prostate cancer risks in a study 
of 55,000 pesticide applicators, including farmers, nursery workers, 
and workers in warehouses and grain mills.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Agricultural Pesticide Use May Be Associated With Increased 
Risk of Prostate Cancer, National Cancer Institute, Cancer.gov (May 1, 
2003) available at http://www.nci.nih.gov/newscenter/pressreleases/
AgricultureHealthStudy.
---------------------------------------------------------------------------

     THE CRITICAL USE EXEMPTION PROCESS: BROKEN AT HOME, NOT ABROAD

    Other witnesses would have you believe that they are being 
victimized by an unfair process under the Montreal Protocol. In fact, 
it is the Bush administration and U.S. agribusiness that are abusing 
the critical use exemption process.
    A brief description of the Protocol's phase-out requirements and 
the critical use process is important. The U.S. agreed to these 
provisions and is legally bound by them. Moreover, Congress passed 
amendments to the Clean Air Act in 1998 requiring the phase-out of 
methyl bromide in this country to proceed on the same 
terms.<SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ Clean Air Act, sec. 604(h) (``The Administrator shall 
promulgate rules for reductions in, and terminate the production, 
importation, and consumption of, methyl bromide under a schedule that 
is in accordance with, but not more stringent than, the phaseout 
schedule of the Montreal Protocol Treaty as in effect on October 21, 
1998.'').
---------------------------------------------------------------------------
    The Protocol sets out a four-step reduction in methyl bromide 
production.<SUP>6</SUP> After a freeze in 1995 at 1991 levels, methyl 
bromide must be cut by at least 25 percent starting in 1999, 50 percent 
in 2001, 70 percent in 2003, and 100 percent in 2005.<SUP>7</SUP>
---------------------------------------------------------------------------
    \6\ Montreal Protocol, Article 2H.
    \7\ Montreal Protocol, Article 2H.
---------------------------------------------------------------------------
    The Protocol allows critical use exemptions from the last step 
only. There are no critical use exemptions from the interim 25, 50, and 
70 percent reductions. Only after 2005, when the reduction otherwise 
reaches 100 percent, can there be any such exemptions. The exemption 
provision is located in the paragraph that mandates the final step from 
70 to 100 percent reduction: ``This paragraph will apply save to the 
extent that the Parties decide to permit the level of production or 
consumption that is necessary to satisfy uses agreed by them to be 
critical uses.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Article 2H, paragraph 5.
---------------------------------------------------------------------------
    In this way, the total amount of critical use exemptions granted is 
limited to a maximum of 30 percent of a country's base 1991 level. 
Critical use exemptions under the Clean Air Act are limited to the same 
amount.<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Clean Air Act, sec. 604(d)(6), 42 U.S.C. sec. 7671c(d)(6) 
(critical use exemptions allowed ``[t]o the extent consistent with the 
Montreal Protocol'').
---------------------------------------------------------------------------
    The process of applying for critical use exemptions is transparent, 
with clear standards and explanations, and many opportunities for a 
country to make its case. The Protocol parties set forth exemption 
criteria in 1997.<SUP>10</SUP> The application process began this year 
with national applications. Applications must show that ``[t]he 
specific use is critical because the lack of availability of methyl 
bromide for that use would result in a significant market disruption;'' 
<SUP>11</SUP> that ``[t]here are no technologically and economically 
feasible alternatives or substitutes available;'' <SUP>12</SUP> and 
that ``[a]ll technically and economically feasible steps have been 
taken to minimize the critical use and any associated emission of 
methyl bromide.'' <SUP>13</SUP> Applicants also have to demonstrate 
that ``an appropriate effort is being made to evaluate, commercialize 
and secure national regulatory approval of alternatives and 
substitutes'' and that ``research programmes are in place to develop 
and deploy alternatives and substitutes.'' <SUP>14</SUP>
---------------------------------------------------------------------------
    \10\ Report Of The Ninth Meeting Of The Parties To The Montreal 
Protocol On Substances That Deplete The Ozone Layer, http://
www.unep.org/ozone/mop/09mop/9mop-12.e.pdf.
    \11\ Decision IX/6, paragraph 1(a)(i).
    \12\ Decision IX/6, paragraph 1(a)(ii).
    \13\ Decision IX/6, paragraph 2(b)(i).
    \14\ Decision IX/6, paragraph 2(b)(iii).
---------------------------------------------------------------------------
    Applications are reviewed first by expert panels reporting to the 
Protocol's standing expert advisory group (the Technical and Economic 
Assessment Panel (TEAP)), which will make recommendations to the 
parties. In May, the TEAP published an interim progress report on all 
countries' applications, recommending that many exemptions be granted, 
and that some be denied because proven alternatives are 
available.<SUP>15</SUP> For a large number of specific crops and other 
applications from many different countries, however, the TEAP's 
progress report states that the national applications do not give 
sufficient information to form a technically sound recommendation. Each 
country now has the opportunity to supply the needed information before 
the TEAP makes its final recommendations to the parties. The parties 
will meet to discuss the applications in July, and will make final 
decisions six months later at their official annual meeting in 
December.
---------------------------------------------------------------------------
    \15\ Report of the Technology and Economic UNEP Assessment Panel, 
Progress Report (May 2003), available at http://www.unep.org/ozone/
index-en.shtml.
---------------------------------------------------------------------------
    The Bush administration has abused the critical use process in 
three ways. First, it has requested exemptions that greatly exceed the 
30 percent upper limit. The U.S. baseline amount is 25,528 metric tons. 
Thirty percent of that amount is 7,568 metric tons. The administration, 
however, requested exemptions totaling 9,921 tons for 2005, and 9,445 
tons in 2006--39 percent and 37 percent, respectively, of our baseline. 
This is far more than the maximum level allowed under the Protocol and 
the Clean Air Act.
    The administration apparently denies that there is a binding 30 
percent upper limit on critical use exemptions. If that were true, the 
parties could agree to any amount of exemptions--all the way up to a 
country's 1991 baseline level. This is an absurd reading of the 
Protocol. It would mean that after reducing methyl bromide without 
exceptions by at least 70 percent in the years leading up to 2005, the 
parties would then be free to reverse the phase-out and increase methyl 
bromide production again--all the way back to the freeze level of 1991.
    The second abuse is that the administration's application is 
deliberately bloated. The executive summary of the request reveals that 
that the application was purposely constructed to ask for more methyl 
bromide than the administration's best estimate of what is really 
needed. The amount requested for each of the 16 covered sectors 
contains a hefty ``margin of safety'' that exceeds the best estimate of 
need. The application notes that previous exemption requests for other 
chemicals ran 30 to 40 percent higher than the amounts actually needed. 
The application then urges ``a similar, understanding approach'' for 
similarly inflated methyl bromide exemptions.<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ U.S. Critical Use Nominations, executive summary, pp. 12-13.
---------------------------------------------------------------------------
    The consequences of padding of each sector's application are 
further exaggerated by the fact that the administration is asking for a 
``lump sum'' allocation and the freedom to re-deploy unneeded excesses 
in one sector to any other users.<SUP>17</SUP> There might be an 
argument for allowing this freedom to move methyl bromide around 
between sectors if the total request had been built up from best 
estimates of each sector's needs, rather than padded figures. In that 
case, some sectors would be likely to do better than expected with 
alternatives, while others might fall behind. The freedom to move 
methyl bromide from one sector to another would allow for a much 
smaller total request while still having an adequate margin of safety 
overall. As presently constructed, however, the total amount is way 
more than needed.
---------------------------------------------------------------------------
    \17\ Id., pp. 11-12.
---------------------------------------------------------------------------
    The third abuse--perhaps the biggest ``black box'' of all--is the 
administration's failure to define what constitutes ``significant 
market disruption.'' As noted, each country must show that ``[t]he 
specific use is critical because the lack of availability of methyl 
bromide for that use would result in a significant market disruption.'' 
<SUP>18</SUP> The term ``significant market disruption'' indicates a 
focus on market impacts, not just costs for a specific grower group. A 
pertinent measure of market disruption would be the effect on consumer 
prices for that commodity. And there must be more than just an effect--
the effect must be significant. The U.S. application is full of claims 
about increased costs for producers, but the administration has yet to 
articulate any definition of what market impacts constitute a 
significant disruption.
---------------------------------------------------------------------------
    \18\ Decision IX/6, paragraph 1(a)(i). This determination is made 
by the national government alone and is not reviewed by the TEAP or the 
parties. But it will be subject to review domestically when the 
administration proposes regulations under the Clean Air Act to 
implement any exemptions at home.
---------------------------------------------------------------------------
    As should have been expected, the U.S. application is now drawing 
questions from the TEAP expert panels. The TEAP progress report 
indicates favorable recommendations for the full amount requested for a 
number of U.S. sectors--for example, fruit tree nurseries, orchard 
replanting, strawberry runners, mills and processors, smokehouse hams, 
and dried fruit, bean, and nut storage.<SUP>19</SUP> The TEAP report 
indicates a wholly negative recommendation for only one U.S. usage--
tobacco seedlings--on the basis that at least five specific 
alternatives are available and in use in other countries.
---------------------------------------------------------------------------
    \19\ Report of the Technology and Economic UNEP Assessment Panel, 
Progress Report (May 2003), Appendices A and B, pp. 175-188.
---------------------------------------------------------------------------
    For a number of U.S. sectors--including the heaviest users, such as 
field fumigation of tomatoes and strawberries--the report states that 
the expert panel is ``unable to complete its evaluation'' due to 
incomplete information. For each of these sectors, the report frames 
specific questions for the U.S. to address concerning potential 
alternatives.
    The TEAP's progress report treats the U.S. application no better or 
worse than any other nation's. Each application received the same 
scrutiny and many other nations, including, Australia, Belgium, France, 
Greece, Italy, Israel, Japan, Portugal, Spain, and the U.K, have 
received recommendations for reduced use or have been asked for more 
information on important sectors.
    The Bush administration may now be tempted to try to bull its way 
through to approval of the entire request, putting politics and special 
interests first and public health and international cooperation last. 
Grabbing for everything risks a destructive confrontation here at home 
and with other countries abroad. It could trigger a downward spiral 
that destroys the consensus for protecting the ozone layer. If the U.S. 
breaks up that consensus, other countries are likely to slow or even 
abandon their phase-outs of methyl bromide and other chemicals as well.
    Does the Bush administration--or the Congress--really want the 
responsibility for wrecking another international agreement? For 
preventing repair of the ozone layer and exposing millions more 
Americans to skin cancer and other illnesses?

                       QUARANTINE OUT OF CONTROL

    The Subcommittee has also asked for views on the quarantine 
exception. The short answer is that the quarantine process is out of 
control.
    Historically, the amount of methyl bromide used for quarantine--
fumigation of domestic and international shipments to meet food purity 
standards and prevent the spread of pests--has been relatively small. 
In the early 1990s, before the phase-out of other uses began, 
quarantine and pre-shipment uses combined were estimated to be about 10 
percent of total production. The volume used for this purpose does not 
appear to have changed dramatically in the 1990s, although the 
percentage went up as the volume of other uses was reduced. The TEAP 
reports that about 19-21 percent of total world production in 2000--
between 10,475 and 11,800 tons--was for quarantine and pre-shipment 
purposes.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Report of the Technology and Economic UNEP Assessment Panel, 
Progress Report (May 2003), p. 99.
---------------------------------------------------------------------------
    Because of both the importance of quarantine fumigation and its 
small scale, the parties to the Montreal treaty agreed to exempt 
quarantine and pre-shipment production from the phase-out. In effect, 
they made a pragmatic decision to focus on the dog, not the tail. Thus 
the Protocol and the Clean Air Act currently allow continued production 
of methyl bromide for this purpose, both before and after 2005.
    Now, however, the Bush administration is on the verge of two new 
actions that would explode the quarantine exemption far beyond any 
contemplation and create huge loopholes in the methyl bromide phase-
out. In short, the tail is about to overwhelm the dog.
    The first of these actions is a new rule proposed by the U.S. 
Department of Agriculture (USDA) that would require the treatment of 
all raw wood packing material imported into or exported from this 
country.<SUP>21</SUP> If promulgated, the new rule will lead to a 
massive and unnecessary increase in the amount of methyl bromide used 
for quarantine fumigation.
---------------------------------------------------------------------------
    \21\ USDA, Importation of Solid Wood Packing Material, 68 Fed. Reg. 
27480 (May 20, 2003).
---------------------------------------------------------------------------
    The proposed rule would require all imports and exports of products 
packaged in raw wood to be heat-treated or fumigated with methyl 
bromide to kill any pests in the wood. In practice, because heat 
treatment is more expensive, most products packed in raw wood will be 
fumigated with methyl bromide.
    USDA has not provided consistent estimates of how much methyl 
bromide will be used to meet this requirement. In the draft 
environmental impact statement (EIS) for this rule, USDA estimates that 
methyl bromide emissions will increase by 5,145 metric 
tons.<SUP>22</SUP> That would double current world use for fumigation 
purposes, and would increase total world usage by more than 10 percent.
---------------------------------------------------------------------------
    \22\ USDA, Importation of Solid Wood Packing Material: Draft 
Environmental Impact Statement, Oct, 2002, p. 57, available at http://
www.aphis.usda.gov/ppd/es/ppq/swpmdeis.pdf
---------------------------------------------------------------------------
    This estimate is likely to be on the low side because it assumes 
that raw wood packing material would be fumigated before goods are 
packaged in it. We know from experience in China, however, that 
fumigation occurs at port facilities, after goods are packed in raw 
wood materials.
    Under that scenario, another USDA EIS predicts a massive increase 
in methyl bromide use--by more than 102,000 tons per year.<SUP>23</SUP> 
That would increase current world use for quarantine purpose by 10 
times. It would be more than double total world use of methyl bromide 
for all purposes.
---------------------------------------------------------------------------
    \23\ USDA, Rule for the Importation of Unmanufactured Wood Articles 
from Mexico With Consideration for Cumulative Impact of Methyl Bromide 
Use, Final Environmental Impact Statement--September 2002, p. 65, 
available at http://www.aphis.usda.gov/ppd/es/mb.html.
---------------------------------------------------------------------------
    To be sure, raw wood packing presents a real risk of carrying new 
and destructive pests onto our shores. But treating such packing 
material with methyl bromide is both an incomplete defense against 
these pests and a large new threat to the ozone layer. The way out of 
this dilemma--to protect both the ozone layer and to prevent pest 
infestations--is to phase out the use of raw wood packaging.
    In 1999, USDA publicly committed to study and consider phasing out 
raw wood packing material instead of ordering huge increases in methyl 
bromide use. The department's 1999 advance notice specifically 
identified this as a solution that would be assessed.<SUP>24</SUP> The 
notice identified a third option: ``to prohibit the importation of SWPM 
[solid wood packaging material] in any form and from any country . . 
.'' Alternatives would include packing material made from ``processed 
wood (e.g., particle board, plywood, press board) and nonwood materials 
(e.g., plastic).'' USDA went on to say:
---------------------------------------------------------------------------
    \24\ 64 Fed. Reg. 3049 (Jan. 20, 1999).
---------------------------------------------------------------------------
        The advantages of this option are that it would provide the 
        greatest protection against pest risk and could eventually 
        result in decreased use of methyl bromide. A disadvantage of 
        this option is that it could have an undesirable effect on 
        international trade. This effect could be mitigated by a 
        phasein period to allow shippers to adjust to the prohibition, 
        and, during this time, heat treatment, treatment with 
        preservatives, fumigation, or other effective alternative 
        treatments could be required before SWPM could be imported.'' 
        [emphasis added]
    The notice explicitly asked for public comment addressing several 
questions, including:

 What would be the economic, environmental, or other effects of 
        prohibiting the importation of SWPM from any country, including 
        disruption in trade and potential delays in shipping, effects 
        of alternative materials on the environment, etc.?
 If importation of SWPM into the United States were to be prohibited, 
        or if treatment of some kind were to be required for all SWPM 
        imported into the United States, would the shipping industry 
        need a phasein period to allow time to adapt? If yes, how long?
    But since then USDA has broken its commitment to consider the 
option of phasing out raw wood packing. The department's draft EIS and 
its proposed rule contain not a word examining this option.
    The Bush administration's second big expansion of quarantine 
fumigation would allow major evasion of the phase-out of non-quarantine 
uses. The administration is developing a proposed rule that would allow 
state agriculture agencies to reclassify many ordinary uses of methyl 
bromide as ``quarantine'' uses. USDA would then ``rubber stamp'' the 
state requests. Thus relabeled, these now non-quarantine uses of methyl 
bromide production would evade the phase-out.
    A rubber-stamp proposal would violate Section 419 of the Plant 
Protection Act, 7 U.S.C. Sec. 7719, passed as part of the 2002 farm 
bill. Section 419(a) states that: ``The Secretary shall not authorize 
such treatments or applications unless the Secretary finds there is no 
other registered, effective, and economically feasible alternative 
available.'' In other words, USDA must carefully review each state 
classifications and reject those that lack merit.
    If the Bush administration moves ahead with huge expansions of 
quarantine use, it is courting another major conflict among the 
Montreal Protocol parties. Seeing the quarantine exemption used to 
evade the phase-out, and seeing quarantine use grow to equal or to 
dwarf other uses, many countries will likely move for new treaty 
restrictions on quarantine use. And once again the Bush administration 
will be on the wrong side of a critical environment issue and an 
international treaty dispute.
    I would be happy to answer your questions.

    Mr. Barton. We have about 30 minutes before we have to go 
do 3 or 4 votes, so we are going to end this hearing. We are 
not going to hold you hostage. So I am going to recognize 
myself and I am going to ask each member of the panel to try to 
be brief and the answers to be brief so we give everybody a 
chance. So the Chair recognizes himself for a quick--put me 
down for 4 minutes.
    Mr. Norton, you seem to think that the $150 million figure 
that the administration threw out on research was money you 
hadn't seen. How would they be spending money that you haven't 
seen if you are the one doing the research? Are there other 
groups doing the research?
    Mr. Norton. IR-4 does collaborate with ARS, so we actually 
work closely with them on some programs. So we are deriving 
some of the benefit of those funds through that connection. And 
also--and we received a small grant from USDA-ARS about 2 years 
ago that was about $150,000. So we have direct support from 
ARS.
    Mr. Barton. As our experimentalist here, and maybe Dr. 
Noling also, are you confident that given enough time and money 
you could find alternatives that are efficient and meet the 
needs that methyl bromide currently needs?
    Mr. Norton. I am fairly confident that we will given time, 
but he we are not there yet. We are still working on it and we 
have a ways to go. I think we are a lot closer in some 
commodities than others. Certainly cut flowers has been 
mentioned. And you asked the question a number of times, would 
we be seeking these CUEs indefinitely, and I think for that 
crop it will be a long time coming before we can find fully 
effective alternatives.
    Mr. Barton. So the cut flowers is the most difficult one.
    Mr. Norton. I think so, yes. And there are some other 
areas.
    Mr. Barton. Dr. Noling, do you have a comment on that?
    Mr. Noling. Well, I would tell you, if you reflect where 
agricultural production occurs, there are environments that are 
really conducive for pest outbreak--Florida, the hot, humid 
environments. Ultimately it translates to--and I think it is 
pretty broadly known it is going to require some kind of 
chemical treatment. My discussions with people in the chemical 
industries, the manufacturers themselves, indicate that they 
pretty much exhausted the research on new product fumigant 
chemistry. There won't be new fumigants that come out and are 
registered within USDA. I think it is pretty unequivocal that 
this idea we might ultimately rely on organic-type approaches 
is not going to happen in an economic framework that we can 
envision right now. We will rely on the tools that are 
currently registered or will be continued to be registered in 
the future.
    Mr. Barton. Mr. Pauli or Mr. Brown, do you see a need for 
an exemption for methyl bromide indefinitely? Is there some 
base level beyond which we can't go that there is no 
alternative?
    Mr. Pauli. Sir, we certainly hope that there are other 
alternatives equal to methyl bromide that are equally cost 
effective.
    Mr. Barton. In your best judgment, as a real live farmer 
person.
    Mr. Pauli. We are eternal optimists.
    Mr. Barton. You think you can find an alternative? What 
about you, Mr. Brown?
    Mr. Reginald Brown. At some point in time, hopefully 
science and chemistry will provide us the tools to be able to 
go forward without methyl bromide, but the commitment of the 
CUE process isn't until we reach that point. Mr. Barton, we 
need a tool.
    Mr. Barton. I yield back the balance of my time and 
recognize Mr. Boucher.
    Mr. Boucher. Thank you very much. I am going to be very 
brief with this panel. I would like to ask Dr. Noling and Dr. 
Norton to respond, if you would, to the statement that was made 
by Assistant Administrator Holmstead in his testimony on the 
earlier panel concerning his view that both processes that are 
at work here are fair, reasonable, and calculated to lead to a 
proper result. One is the process by which agricultural users 
and other users of methyl bromide can make a complaint and ask 
that an application for an exemption be awarded. Does that 
process, in your opinion, work well?
    And the other process is the process that is employed under 
the protocol itself in order to consider the applications that 
are filed by the countries that are treaties to the protocol. 
He also was of the opinion that that process is effective and 
that it is structured in such a way as to receive a fair 
result. He said, for example, that the requests for additional 
information that have been forwarded back to the U.S. 
Government from the Protocol Technical and Economic Advisory 
Committee were not unexpected, and that we should not take that 
as a sign of the ultimate rejection of the application that has 
been made for exemptions in these particular areas.
    Your comment, if you would, on both of those processes. How 
well do they both work? Are you satisfied or dissatisfied?
    Mr. Noling. I am not sure how to respond to this, but being 
a former member, I can tell you that it wasn't but a few years 
ago that the co-chair of the soils committee was quoted as 
saying he didn't understand why the United States was pursuing 
critical use exemptions because they weren't going to get them. 
And I can tell you----
    Mr. Boucher. Who said that?
    Mr. Noling. His name was Jonathan Banks.
    Mr. Boucher. What is his position?
    Mr. Noling. He is still affiliated with the committee. He 
may still be a co-chair.
    Mr. Boucher. But he has an official position with the 
committee.
    Mr. Noling. Yes, sir.
    Mr. Boucher. I am sorry, go ahead.
    Mr. Noling. As far as the review process, I think when you 
look at who the constituents of the committees are, these are 
people from the underdeveloped countries and they really don't 
rely on chemical tools to solve their problems. They are 
relying on local resources and materials to assist them in 
managing pests themselves. They declare soil solarization and 
biofumigation to be two very important pest management tools 
that effectively address all of their pest management problems. 
And yet the aggregate research that has been conducted here 
shows them to be unacceptable. In fact, in Florida----
    Mr. Boucher. I think you said some of this in your 
testimony. I wasn't asking you to repeat all of that. But what 
about the statement Mr. Holmstead made that it was not 
unexpected that we would get these additional requests for 
information? He does not take that as a rejection of the 
request for an exemption. Do you take it as a rejection?
    Mr. Noling. When you look at in general the documents that 
they reference in there don't include many U.S. Documents that 
would refute some of their tactics, I would contend that that 
is blatant. That is an opportunity to send it back to us to 
request more information.
    Mr. Boucher. Let me ask Dr. Norton for a brief comment.
    Mr. Norton. I would agree with what Dr. Noling has said. I 
never really understood why it would be in the interest of 
these companies to act favorably for the U.S. And say in some 
cases they compete with us in production.
    Mr. Doniger. A complaint is being made that this is a 
secret, closed, one-stop process. And then a complaint is being 
made that the committee produces a report which lays out its 
tentative reasons and asks more questions and asks for more 
information. These two complaints are inconsistent. You have a 
process and they reached some initial views and they asked for 
more information and reaction to those initial views. And this 
is on a step-up process that will ultimately go to the parties 
to make the decision. This is the way this should work. That is 
the first point.
    Second point is it is not as though they have aimed their 
fire at the U.S. Alone. There is a whole slew of countries, six 
or eight of them which I listed in my testimony, which also got 
requests for more information and also got reductions in the 
initial reaction, also got some negatives and some positives. 
So we are being treated in an open process, and I think one 
should be a little concerned when people yell bias too early.
    Mr. Barton. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Doniger, that is interesting that you have an opinion 
that things are so fair and open. I couldn't help but notice 
that you expressed a constant interest in the bias and the 
tactics of the Bush administration. It did seem like at every 
turn you felt like President Bush's administration was trying 
to thwart the intent of this legislation. Briefly, can you tell 
me your basis for this feeling that came out in your testimony?
    Mr. Doniger. I am giving you my reaction to specific 
actions: the excessive size of the critical use request, the 
fact that it is over the legal limit.
    Mr. Issa. Isn't that an interpretation with which the 
administration disagrees?
    Mr. Doniger. It may be, but sometimes legal facts are 
facts. We will see how it comes out.
    Mr. Issa. And your second reason?
    Mr. Doniger. The second thing is to take the quarantine 
example, and that is in my testimony. There is a third way out 
of the methyl bromide dilemma on the raw wood packaging and 
that is to change the packaging. And we had a commitment in the 
previous administration to look at that, to examine that, and 
that has evaporated.
    Mr. Issa. I appreciate that. I just wanted to get the 
understanding for why the Bush administration seemed to be able 
to do no right in this case.
    Dr. Mellano, one of the questions that I don't think I 
fully understand--and you have the breadth of experience; can 
you take us through the steps that led to the decision to 
eliminate methyl bromide, from your observations?
    Mr. Mellano. First of all, I want to state I am not an 
atmospheric scientist, I am a plant pathologist and a farmer. 
However, the decision to eliminate methyl bromide was based on 
the fact that it is a known ozone depleter. Now, that fact has 
never been shown and there are 2 or 3 things that were ignored 
when they made that decision. The first and the biggest and the 
most important one is the buffering effect of the ocean. The 
oceans cover a very large percentage of the Earth and it acts 
as a buffer relative to the amount of methyl bromide that is in 
the atmosphere. And that effect was ignored, okay?
    And the second effect that was ignored was that bromide and 
other sources besides the ocean and besides farming operations 
were not considered. A primary example would be the examples 
that Mr. Pauli brought up, which were volcanoes and biomass 
burning. Those things were ignored.
    The other thing was the situation was not studied over 
time. Mr. Doniger said that the ozone situation is getting 
better. That may well be just a natural fluctuation. The things 
that happen in the upper atmosphere happen over a long period 
of time. Those things were never considered. And to make a 
decision like this without considering the entirety of the 
problem is pretty--I think it is ill-conceived and needs to be 
relooked at.
    Mr. Barton. Your time is about to expire.
    Mr. Issa. In fairness to the others, I yield back.
    Mr. Barton. Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you. I am interested, of 
course, in Dr. Norton's rather biased opinion when he complains 
about the administration--called some of their acts 
``bloated,'' and he is fearful of sticking the finger in the 
eye of some of those people. I think we ought to apply the boot 
to the back of the lap to a lot of them.
    Mr. Barton. It is Mr. Doniger who said that.
    Mr. Doniger. I would take responsibility for your response.
    Mr. Hall. Wherever the shoe fits, why, put it on. But they 
ought to renegotiate, the United Nations, for our people, the 
Montreal Protocol that allowed the United States more time 
beyond 2005, because it was pushed on us by developing 
countries such as Mexico and China and others that have the 
chemical available at least until 2015. To our detriment, a lot 
of them in northern Europe, those countries led the effort in 
the Montreal Protocol to eliminate the product, but these 
nations have very little need for it because of favorable 
climatic conditions. And if they can't do that, then we ought 
to have the courage to put some legislation on the books to 
amend the U.S. Law to a phaseout level of 50 percent that was 
in effect prior to 2003. I think we owe that.
    And with that, Mr. Siemer, I will ask you one question and 
I think the answer is obvious. If methyl bromide were banned in 
the U.S., would that make you less competitive? And of course 
your answer is yes, it would.
    Mr. Siemer. It would certainly increase our operating costs 
in an industry that has very thin profit margins and to that 
extent it would make us less viable.
    Mr. Hall. I understand your industry submitted a critical 
use exemption application for the use of methyl bromide beyond 
the phaseout date. What did that application calculate as to 
costs to your industry of using alternatives to methyl bromide? 
And we have seen the potential alternatives and they have been 
identified. I think I heard testimony that more than $140 
million has been spent by the USDA alone to find alternatives 
for the many uses of methyl bromide, with very little success. 
And I think there has been testimony both ways on that. But 
what did that application calculate as to your cost?
    Mr. Siemer. Well, I am very grateful, but I personally had 
nothing to do with writing that application, but I am advised 
by our staff that the number in there was $60 million on an 
annual basis.
    Mr. Hall. How were these costs calculated? If you had 
nothing to do with it, tell me who do you want to use the shoe 
on?
    Mr. Siemer. It would have to be calculated on the basis of 
the use of alternative treatments, on the basis of requiring 
more time for treatments; that is, treatments that took a 
longer amount of time, which means more down time, which means 
lost production, which means more expensive alternatives, and 
the requirements that would be necessary to improve our 
processes to ensure the wholesome and clean food product that 
we----
    Mr. Barton. Gentleman's time has expired in 8 seconds.
    Mr. Hall. I would like to ask him what his impression of 
the Montreal Protocol is, but I yield back.
    Mr. Barton. In fairness, we need to hear the other side.
    Mr. Doniger. Just a response to the first part of your 
comment. The United States was the biggest advocate for 
bringing methyl bromide into the protocol. It wasn't done to 
us, it was done by us; and we took the lead. China, to the 
extent they are building up methyl bromide capacity, it is to 
meet this wood packaging rule that comes again from our 
concerns about the bugs coming in on the raw wood. Could we not 
focus on what the real problem is, which is the raw wood, and 
then we could protect our forests and protect the ozone layer?
    Mr. Hall. We might have some thought about protecting our 
own people that are providing sustenance and trying to make an 
honest profit. And I don't agree with you that the United 
States is the one that pushed that. I think the developing 
countries such as China, Mexico, and others that have advantage 
and have the chemical through 2015, to our detriment, are the 
ones that pushed it. And you can testify and talk all day and 
you can't change my mind.
    Mr. Doniger. There are no strawberries coming from China.
    Mr. Barton. We can have that debate out in the hall or you 
can holster pistols and go at it.
    The gentlelady from California is recognized.
    Mrs. Bono. Thank you, Mr. Chairman. I want to thank each of 
the panelists. It is clear that there are very strong emotions 
and opinions on each side of this.
    Mr. Pauli, though, you spoke briefly I believe about China 
and didn't cover it in your testimony; but in between the two 
panels, you mentioned to me that you believe China is currently 
producing methyl bromide. And do you really believe that to be 
the case? The earlier panel answered me and said only three 
places are manufacturing it and we know that nobody will use 
this because we monitor where it goes. Actually I think there 
is a conflicting statement to that effect, but can you talk 
about China producing this now?
    Mr. Pauli. Well, I think that was my reaction, was the 
concern that the panel members said there were really only the 
three sources and it is clear that China now is producing 
methyl bromide. It is a question of how much additional methyl 
bromide they will produce and whether or not they will export 
that availability to other countries. We don't know the exact 
amount.
    Mrs. Bono. Are they currently reducing their use or 
increasing their use?
    Mr. Pauli. My understanding is that they are both producing 
it and increasing their use. Both.
    Mr. Barton. They signed--China has signed on the protocol.
    Mr. Pauli. That doesn't seem to prevent other people from 
doing things.
    Mr. Barton. But the documents at the State Department, they 
are one of the signatories of the agreement.
    Mrs. Bono. I just wanted--Mr. Pauli, you represent 
California and work very hard for the growers in California, 
and at a time when workers' comp is skyrocketing and we have 
got so many issues, but the $200 million figure is staggering 
to me and the number of jobs we are talking about.
    But I am going to move on to Mr. Doniger because it seems 
it will be so much fun. I want to thank you for your work that 
you have done in the Clinton administration and in DC, but I 
ask you a quick question. Sometimes--I have only been doing 
this 5 years, and I learn something every day.
    Mr. Doniger. I am glad you didn't ask me what a nematode 
was.
    Mrs. Bono. But the Montreal Protocol was about ozone 
depletion. Yet in your testimony here, you talk about cancer 
and you talked about the Bush administration having a bias. 
Isn't that a bit of a bias on your part? I am hearing in your 
statement in this hearing discussing specifically the Montreal 
Protocol, yet you talk about the National Cancer Institute 
citing increased incidence of cancer. So that to me doesn't 
seem like this is the proper venue for that discussion, but I 
hope you are having that discussion at the proper place.
    Mr. Doniger. There were a number of questions asked of the 
first panel about the registration process for pesticides. And 
there is an interesting thing that happened with methyl 
bromide. It would have been one of the top chemicals for the 
pesticide office to be reviewing carefully for all of its 
effects.
    Mrs. Bono. But this was not the point of the Montreal 
Protocol.
    Mr. Doniger. And that is my point. But because it was 
scheduled for phaseout, or at least down to the critical use 
level under the protocol, the pesticide office put the review 
of its toxicity for other reasons on a slower track. I think if 
we were going to talk about the use of a chemical, it is 
important to know all of the goods that it produces and all of 
the bads that it produces.
    Mrs. Bono. I am sorry, reclaiming my time. What is your 
position on developing countries of methyl bromide and why were 
you unsuccessful in 1997, as part of the previous 
administration, in putting the developing world on the same 
track to phaseout methyl bromide in developed countries?
    Mr. Doniger. We moved them from no track to the track they 
are on, and they start at a level of use which is much much 
smaller per capita, per farm, per tomato, per any measure that 
you want to use. And they are phasing down. As one of the 
panelists earlier said, when you take into account the critical 
use exemptions that we expect to get--and again I am not 
quarreling with their getting some--we are still going to be 
using a lot more than Mexico and a lot more than the other 
agricultural competitors.
    Mrs. Bono. Do you dispute Mr. Pauli's mention that China is 
actually producing this and increasing their use?
    Mr. Doniger. China is producing some for domestic use 
within their quotas and some to treat the packages that we are 
making them treat.
    Mrs. Bono. And my last----
    Mr. Doniger. They are not exporting any of it to other 
countries.
    Mrs. Bono. When you hear this massive economic impact, 
specifically to California and Florida, can you and your 
organization perhaps work within this to try--I think so often 
your organization is very myopic in what they are trying to 
achieve, and I respect your work, but perhaps we could have a 
sit-down and have a discussion on how to help my farmers here.
    Mr. Doniger. I would like to see the critical use 
exemptions coming under the limit, and I am not opposing the 
granting of critical use exemptions.
    Mrs. Bono. You have to start somewhere.
    Mr. Barton. The gentlelady's time has expired. And last but 
not least, the gentleman from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman. You had mentioned 
that the United States was the most significant advocate for 
phasing out methyl bromide. And yet the industry that uses 
methyl bromide the most, agriculture, milling, so forth, they 
have all indicated they certainly were not advocating that. So 
who in the United States was advocating the phasing out of 
methyl bromide?
    Mr. Doniger. There is a very strong constituency in this 
country, from school kids to seniors, for protecting the ozone 
layer. And the Congress has been very responsive to that. The 
previous administration has been very responsive to that. And 
even this administration does not want to be seen as back-
pedaling on protection of the ozone layer, because it means 
millions of people's health and safety.
    Well, I think to a great extent this was coming--the 
general desire of the public to deal with the ozone layer is 
mediated through groups like my own and it is coming from 
environmental organizations, local and national. It is coming 
from school kids. It is coming from seniors.
    Mr. Whitfield. Now, you had also made the comment that the 
United States is using more methyl bromide than any other 
country, and of course we are one of the wealthiest nations in 
the world. We have a large agricultural industry that uses more 
of this. So why shouldn't we use more of this than other 
countries?
    Mr. Doniger. I am not saying we should not use this 
compound. I am just saying that we should not use more than we 
need and we have asked for more than we need.
    Mr. Whitfield. But why should other countries be given 10 
more years than we are given?
    Mr. Doniger. They start from a very low base and they are 
reducing. As the previous panelists indicated, some, I think he 
said 20, of those countries have already agreed to phaseout 
more quickly.
    Mr. Whitfield. And so if that harms our farmers and does 
not hurt their farmers, that is acceptable?
    Mr. Doniger. I don't think this is a question of hurting 
American farmers.
    Mr. Whitfield. They have testified, the industry has 
testified that it is going to be harmful to them.
    Mr. Doniger. The competitive--the argument for a 
competitive disadvantage is extremely thin, and it is based on 
the idea that there is a lot of methyl bromide, more methyl 
bromide available to be used, let's say, in Mexico than there 
is in the United States. It is just not true. It is the other 
way around. We have got the methyl bromide, and that is true 
whether you look at this on an a per tomato, per acre, per 
person basis. We have more than they do.
    Mr. Whitfield. But you believe that their arguments about 
making them less competitive does not really hold water?
    Mr. Doniger. I think that we have, our farmers have the 
capacity to be competitive in a world in which they use 
transition to alternative compounds as quickly as they are 
available. We agree on that general objective. What I would say 
is that $140 million to work on a problem of this magnitude 
should be viewed as a small amount spent, not a large amount 
spent, and we need to keep at it.
    Mr. Whitfield. Now, in your testimony you said that some 
factions in this agriculture industry have chosen denial and 
obstruction and are waging a campaign to stop or reverse the 
phaseout. Which factions are you referring to?
    Mr. Doniger. Well, there are a number of people represented 
on this panel who have advocated that this Congress take 
legislation to stop or reverse the phaseout. So that speaks for 
itself. There is material from the Crop Protection Coalition 
which I have seen, and others, which question still whether 
methyl bromide is dangerous to the ozone layer. One of the 
witnesses raised questions about that today. This to me is 
denial. If you want to have a science hearing on this, I invite 
you to do so because the science on the connection between 
methyl bromide and the other ozone depleting chemicals and 
depletion of the ozone layer is rock solid.
    Mr. Whitfield. And you said that their information, it is 
based on--their argument is based on misrepresentation.
    Mr. Barton. This will have to be the gentleman's last 
question.
    Mr. Whitfield. Is based on misrepresentation and innuendo. 
Is that what you are referring to, that they are not giving the 
correct information on the science side?
    Mr. Doniger. One constant implication is that if we only 
knew what the science said we would realize this wasn't a 
potent ozone depleter anymore, and that is just wrong.
    Mr. Whitfield. Thank you.
    Mr. Barton. We want to thank this panel. Y'all have been 
great witnesses. We have had a good dialog. We give special 
thanks to our USDA witness. He is still here and we appreciate 
you. There will be some written questions and we want you to be 
expeditious. We have this meeting in November, and if we are 
going to take legislative action we want to prepare that draft 
legislation sooner rather than later. So as we send the written 
questions please reply very quickly. But we thank you for your 
attendance, and we are adjourned.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                      U.S. House of Representatives
                           Committee on Energy and Commerce
                                                       May 29, 2003
The Honorable Christine Todd Whitman
Administrator
Environmental Protection Agency
1200 Pennsylvania Avenue, N.W.
Washington, D.C. 20460
    Dear Administrator Whitman: As you know, on June 3, 2003, the 
Energy and Air Quality Subcommittee will hold a hearing regarding the 
``Status of Methyl Bromide under the Clean Air Act and the Montreal 
Protocol.'' In order to better prepare the Subcommittee for this 
hearing and to gather information relevant to issues concerning the 
current and future utilization of methyl bromide, I would like to ask 
that you provide the Subcommittee with the following information:

(1) It is my understanding that the Environmental Protection Agency has 
        collected data and information related to the current stockpile 
        of methyl bromide. I would request that you provide the data 
        and related information concerning the size of the methyl 
        bromide stockpile that has been carried into 2003 that can be 
        used in 2003 and beyond. I would also like to request that you 
        summarize, in the aggregate and without attribution to any 
        specific entities, information on the current methyl bromide 
        stockpile.
(2) The production and consumption of methyl bromide is subject to 
        production and consumption limits in 2003 and 2004 under the 
        Clean Air Act and the Montreal Protocol. We understand that 
        these limits do not directly affect the allowable use of methyl 
        bromide, since previously stockpiled amounts may be used for 
        such activities as pre-plant fumigation. However, when It is 
        likely that growers and other users will feel the effect if the 
        reduced production/consumption cap? How long is it likely that 
        the methyl bromide stockpile will continue to exist, if it is 
        utilized at its current rate of use?
(3) What is the current utilization of methyl bromide in the United 
        States? What is the current utilization of methyl bromide by 
        developing (Article 5) countries? Under the Montreal Protocol, 
        what legal ability do Article 5 countries have to increase 
        their utilization of methyl bromide between now and 2015? Do 
        you expect Article 5 country utilization of methyl bromide to 
        increase or decrease? Why would you expect such utilization by 
        Article 5 countries to increase or decrease?
(4) If the United States were to be in violation of its obligations 
        under the Montreal Protocol, what legal recourse would be 
        available to other countries both under the Montreal Protocol 
        and any other international agreements? Could U.S. exports to 
        other signatories be affected? What U.S. products or 
        commodities could be affected?
    Thank you for your kind assistance in this request. If you have any 
questions or concerns related to this request, please do not hesitate 
to contact committee staff (Robert Meyers, 202-225-2927).
            Sincerely,
                                       Joe Barton, Chairman
                             Subcommittee on Energy and Air Quality
                                 ______
                                 
       Prepared Statement of National Grain and Feed Association
    The National Grain and Feed Association (NGFA) is pleased to 
provide the following statement supporting the statement presented Mr. 
Rick Siemer, Siemer Milling Company, on behalf of the North American 
Millers Association (NAMA), at the June 3, 2003 hearing of the 
Subcommittee on Energy and Air Quality to explore the status of Methyl 
Bromide under the U.S. Clean Air Act and UN's Montreal Protocol.
    The NGFA consists of 1,000 grain, feed, processing and grain-
related companies that operate about 5,000 facilities that store, 
handle, merchandise, mill, process and export more than two-thirds of 
all U.S. grains and oilseeds. Also affiliated with the NGFA are 36 
state and regional grain and feed associations.

                               BACKGROUND

    To protect the ozone layer, 24 nations, including the United 
States, signed the so-called Montreal Protocol in 1987 to identify and 
begin the phase out of ozone depleting substances. While Methyl Bromide 
is a critically important fumigant to the U.S. milling industry, it has 
been determined also to be an ozone depleting substance. In 1992, 
parties to the protocol agreed to a phase out of Methyl Bromide. In 
1993, Congress amended the Clean Air Act to begin the phase out of 
several ozone depleting substances, including Methyl Bromide. Under the 
Clean Air Act, the U.S. is scheduled to completely ban the use of 
Methyl Bromide in 2005. Developing countries have been granted an 
extension until 2015 to continue using Methyl Bromide.

                   IMPACT OF THE BAN ON U.S. MILLERS

    In NAMA's prepared statement, Mr. Siemer discussed the role and 
importance of Methyl Bromide in his company's efforts to provide a 
quality product to U.S. consumers, and the potential impact loss of 
Methyl Bromide would have on his company's ability to continue 
providing a quality product to U.S. consumers. Importantly, Mr. Siemer 
noted the folly of continuing to phase out Methyl Bromide despite the 
lack of a viable and cost-effective alternative. Clearly, Congress must 
play close attention to these issues when determining if the U.S. 
should continue adhering to the 2005 phase-out schedule.
    NAMA also raised legitimate questions on the actual environmental 
benefits that might accrue from a total ban on the use of Methyl 
Bromide by the U.S. beginning in 2005. In light of the fact that 
developing countries will have an additional 10 years to use Methyl 
Bromide, NAMA's concerns regarding the potential that a U.S. ban might 
have the unintended consequence of shifting jobs and economic activity 
out of the U.S. deserve serious Congressional consideration. Economic 
difficulties created in the flour milling industry would also serve to 
create reduced demand and challenging economic times for the U.S. wheat 
producer and wheat handling industry.
    In addition, NAMA talked about U.S. efforts to obtain a so-called 
Critical Use Exemption under provisions of the UN's Montreal Protocol 
for up to 40% of current Methyl Bromide uses beyond the 2005 deadline. 
Mr. Siemer questioned whether the U.S. would be successful in the face 
of a UN process that lacks transparency and is inherently biased 
against granting such exemptions.
    NGFA agrees that the U.S. government's process to develop its CUE 
application and the potential inadequacy of the requested CUE are 
troubling and should be closely scrutinized by Congress.
    Finally, we support NAMA's request that the United States either 
renegotiate the Montreal Protocol this year to allow the U.S. more time 
beyond 2005 to develop viable and cost effective alternatives to Methyl 
Bromide or amend the U.S. Clean Air Act to freeze the phase-out at 2003 
levels.
    Thank you for allowing us to provide these remarks. If we can be of 
further assistance, please feel free to contact Mr. Thomas C. O'Connor, 
NGFA Director of Technical Services, at 202/289-0873.

                                 ______
                                 
      Prepared Statement of American Forest and Paper Association

                              INTRODUCTION

    The American Forest & Paper Association (AF&PA) appreciates the 
opportunity to submit a statement for the record on the importance and 
use of methyl bromide to the forest products industry. We strongly 
support the efforts of the subcommittee in examining the status of 
methyl bromide under the Clean Air Act and the Montreal Protocol. The 
American Forest & Paper Association is the national trade association 
of the forest products industry. AF&PA represents more than 200 member 
companies and related trade associations involved in growing, 
harvesting, and processing wood and wood fiber; manufacturing pulp, 
paper, and paperboard from both virgin and recycled fiber; and 
producing solid wood products.

                               BACKGROUND

    Methyl Bromide is a critical chemical that is essential for growing 
tree seedlings in forest nurseries. These seedlings, grown by 
companies, state nurseries and small privately-owned entities, supply 
our country with a renewable and sustainable forest resource. With more 
than 40 million acres of plantations in the eastern U.S., the wood 
harvested from these areas helps to place the forest industry among the 
top 10 manufacturing employers in 42 states, employs some 1.5 million 
people, and produces wood and paper products valued at more than $230 
billion each year. America's forest products industry is also among the 
most competitive in the world, with annual exports totaling over $23 
billion.
    This vital sector of the U.S. economy will be affected by the 
phase-out of methyl bromide. The forest industry's ability to achieve 
the goals of sustainable forestry could be impaired if healthy and 
vigorous seedlings are unavailable for prompt reforestation that 
promotes wildlife and water quality protection.
    Seventy percent of all forest land in the southeastern U.S. is 
owned by non-industrial private forest landowners, with 20% owned by 
forest industry and 10% public. Non-industrial private landowners are 
highly sensitive to the price of reforestation. Studies have shown that 
a relatively small increase in reforestation costs results in fewer 
landowners reforesting. This is particularly true for deciduous 
hardwood species that are usually planted for wetland restoration, 
wildlife and aesthetic purposes.
    Given the importance of non-industrial owners on the general timber 
supply in the southern region, a reduction in reforestation efforts by 
this group may have serious long-term negative impacts on 
sustainability of the resource. Moreover, in specific reference to the 
industry, forest products companies must carry reforestation costs 
across an entire rotation and are only allowed to expense these costs 
at the time of harvest. Any increases in reforestation costs make them 
less competitive on the world market or provide another incentive to 
sell the land where it is likely to be converted to non-forest use.

                           METHYL BROMIDE USE

    Methyl bromide (Mb) is a pesticide used in the control of pest 
insects, nematodes, weeds, pathogens and rodents. Mb is used primarily 
for soil fumigation in agriculture (85%) and commodity and quarantine 
treatment (10%). Of the 85% used in agriculture, it is calculated that 
forest nurseries consume approximately 1%.
    Methyl bromide fumigation proves cost-effective control of nutsedge 
and, its loss will result in an increase in herbicide use and/or an 
increase in handweeding. Surveys indicate that nurseries annually spend 
an average of only 368 hours handweeding. With the loss of methyl 
bromide, it is estimated that the amount of handweeding may increase 
several fold. Although cost effective herbicides are available for 
forest tree nurseries, they are not effective against all weeds. We 
anticipate the increase in weeding costs will be sufficient to result 
in higher seedling prices for both pines and deciduous hardwood 
species. Hardwood may in fact be more adversely affected as there are 
few selective herbicides labeled for hardwoods, and fumigation is, in 
fact, the backbone of hardwood nursery weed control.
    At the present time, there are no commercial substitutes available 
to methyl bromide for use in forest nurseries. It is estimated that the 
USDA Agricultural Research Service has spent $150 million over the past 
ten years looking for a substitute that is technically feasible and 
economically achievable for commodities that use methyl bromide as a 
soil fumigant. To date, no chemical substitutes have been found to 
replace methyl bromide. For forest nurseries, a phase-out on the use of 
methyl bromide for soil fumigation could result in a shift to 
container-grown seedling production with a production cost increase of 
approximately $100 million per year.
    The use of methyl bromide is critical to sustaining and 
perpetuating America's forestlands. Poor, erratic bareroot seedling 
crops can result from no soil fumigation. Without soil fumigation, 
soil-borne diseases will likely increase to levels found in nurseries 
in 1950. In the past, nurseries have been closed due to persistent 
disease problems. The cost of moving a nursery to avoid diseases can 
exceed $6 million, a tactic that would only provide temporary relief at 
best.
    A potential consequence of the phase-out of methyl bromide would be 
the increased use of pesticides for weeding and insect control. 
Generally speaking, efforts are underway in the forestry community to 
minimize pesticide use, and the phase-out could thwart that objective.

                      CRITICAL USE EXEMPTION (CUE)

    The critical use exemption process, established within the Montreal 
Protocol, provides an exemption from the phase-out based on the lack of 
technically feasible or economically achievable alternatives. Given 
that the government submitted a 14-sector request for a specific 
allotment of methyl bromide to the Technical Economic Assessment Panel 
(TEAP) of the Montreal Protocol. The tree seedling nursery application, 
which combined individual applications submitted by several AF&PA 
member companies and the Auburn University Cooperative, was rejected by 
the TEAP for lack of information on alternatives. We believe this 
decision was improper and strongly assert that the methyl bromide 
requested in the application represents the quantities necessary to 
continue to produce vigorous, healthy and pest-free seedlings for 
reforesting America.
    Given that the French government's application for methyl bromide 
use in forest nurseries was accepted and the allotment granted, we 
believe that further inquiry into this discrepancy is necessary. The 
applications submitted by the companies and the Cooperative were 
comprehensive and contained all relevant information relative to any 
substitute chemicals, economic achievability and technical feasibility.

                METHYL BROMIDE ALLOTMENTS UNDER THE CUE

    Once the Parties to the Montreal Protocol agree to a methyl bromide 
allocation to each sector, it is the responsibility of the U.S. 
Environmental Protection Agency to develop regulations on how to 
allocate this amount to users. This stage of the process represents one 
of the most crucial decisions since it will determine the availability, 
accessibility and price of methyl bromide.
    It will be extremely important for the Subcommittee to take an 
active oversight role in reviewing the EPA proposal, which is expected 
to be published in early fall 2003. In June, EPA conducted various 
workshops around the country aimed at creating preliminary options to 
deal with the Mb dilemma. Of the three proposals currently being 
considered, none seem to be feasible solutions. The first option, a 
public methyl bromide auction, is not a fair or equitable system since 
one bidder could potentially purchase the entire quantity of methyl 
bromide. Other options being floated are more reasonable, but the 
essence of the allotment must be that critical use exemption applicants 
should be given a purchasing preference. Given the time, resources and 
expense of applying for the methyl bromide CUE application, it would 
seem equitable to provide these entities preferences in purchasing 
methyl bromide.

                               CONCLUSION

    Forest nurseries in the U.S. produced enough seedlings (1.6 
billion) to plant 2.6 million acres in 1997. In order to sustain and 
produce vigorous, healthy and pest-free seedlings, methyl bromide must 
be made available to continue to provide a healthy and pest-resistant 
forest.
    We would like to continue to work with the subcommittee as they 
review the status of methyl bromide, oversight of the Montreal Protocol 
critical use exemption process and any efforts that might be considered 
to extend the methyl bromide phase-out date to be consistent with 
developing countries.
                                 ______
                                 
                       U.S. Environmental Protection Agency
                                                  February 10, 2004
The Honorable Joe Barton
Chairman, Subcommittee on Energy and Air Quality
Committee on Energy and Commerce
U.S. House of Representatives
Washington, DC 20515-6115
    Dear Mr. Chairman: I am writing to you as follow-up to EPA's letter 
of August 13, 2003, responding to four questions that were submitted 
for the record of the Subcommittee's hearing on ``the Status of Methyl 
Bromide under the Clean Air Act and the Montreal Protocol.''
    Thank you for the opportunity to provide this information for the 
record. If you have further questions, please contact me or your staff 
may contact Peter Pagano, in EPA's Office of Congressional and 
Intergovernmental Relations, at (202) 564-3678.
            Sincerely,
                                                Dona DeLeon
                                     Acting Associate Administrator
Enclosure

    Question 1) It is my understanding that the Environmental 
Protection Agency has collected data and information related to the 
current stockpile of MeBr. I would request that you provide the data 
and related information concerning the size of the MeBr stockpile that 
has been carried into 2003 that can be used in 2003 and beyond. I would 
also like to request that you summarize, in the aggregate and without 
attribution to any specific entities information on the current MeBr 
stockpile.
    Response: In early 2003, EPA issued Section 114 letters to a 
handful of key industrial entities that we believed would be most 
likely to have stockpiles of methyl bromide in 2003.
    [Information about specific stockpile amounts was claimed by the 
submitting businesses as Confidential Business Information and, 
therefore, the aggregate information has been redacted from the public 
version of this document. EPA has not made determinations on the 
confidentiality claims, but the information is being treated as CBI. 
EPA's limited disclosure of this information to Congress was authorized 
by 40 C.F.R. 2.209(b) and did not constitute a waiver of any 
confidentiality claim.]
    Given the confidentiality requests made on the data, and the fact 
that the total tonnage figure itself does not provide contextual 
information needed to determine significance, we would respectfully 
suggest that if the issue of stockpiles is discussed in public, the 
confidentiality concerns of those queried could be addressed to a large 
degree if the above noted sum of MeBr in the stockpile could be 
discussed in a more qualitative manner, such as: EPA efforts to 
quantify the stockpile through discussions with a subset of users, 
producers and distributors of MeBr have yielded the conclusion that the 
stockpile, when combined with allowable levels during 2003 and 2004, is 
sufficient to enable access to levels of MeBr similar to those allowed 
to be accessed during 2001 and 2002, when the US was complying with the 
Clean Air Act's required 50% reduction in MeBr production and 
consumption.
    Question 2) The production and consumption of MeBr is subject to 
production and consumption limits in 2003 and 2004 under the Clean Air 
Act and Montreal Protocol. We understand that these limits do not 
directly affect the allowable use of Mebr since previously stockpiled 
amounts may be used for such activities as preplant fumigation. 
However, when is it likely that growers and other users will feel the 
effect of the reduced production/consumption cap? How long is it likely 
that MeBr stockpile will continue to exist, if it is utilized at this 
current rate of use?
    Response: The Montreal Protocol and Clean Air Act regulate 
production and consumption of MeBr on an annual basis. Neither the 
Protocol nor the Clean Air Act regulate use. Consumption is defined as 
the level of MeBr produced in a calendar year plus the level of MeBr 
imported in a calendar year, minus the level of MeBr exported in that 
same year. Thus, under the Protocol and Clean Air Act, EPA allocates 
allowances to produce and import to historic producers and importers of 
MeBr. While these producers and importers can produce and import up to 
allowable levels, those receiving allowances do not have to use all of 
their allowances. Further, they can choose to use all of their 
allowances to maintain a stockpile, rather than sell some of the MeBr 
they produce or import. As the response to question 1 above notes, 
stockpiling has indeed taken place.
    Regarding the 70% reduction cap that went into effect on January 1 
of this year, it is difficult to predict when growers will experience 
an effect. As noted above, it is clear that the stockpile, when 
combined with allowable production/importation levels during 2003 and 
2004, will be sufficient to enable access to levels of MeBr similar to 
those allowed to be produced or imported during 2001 and 2002, when the 
US was complying with the Clean Air Acts required 50% reduction in MeBr 
production and consumption. However, when growers will feel the effect 
of the reduction will depend on how those holding the stockpile and/or 
the right to new production and import decide to allocate the existing 
MeBr stockpile between current and future sales.
    Question 3) What is the current utilization of MeBr in the United 
States? What is the current utilization of MeBr by developing (Article 
5) countries? Under the Montreal Protocol, what legal ability do 
Article 5 countries have to increase their utilization of MeBr between 
now and 2015. Do you expect Article 5 country utilization of MeBr to 
increase or decrease. Why do you expect such utilization of Article 5 
countries to increase or decrease?
    Response: As noted above, the Clean Air Act and Montreal Protocol 
regulate production and consumption. In 2001, the latest year for which 
data has been calculated and verified, US consumption was at 41% of 
baseline use, or 10,665 metric tons (6,399 ODP tonnes). This US level 
is actually 18% lower than the level allowed by the Clean Air Act 
during 2001. However, as noted above, ``consumption'' is not 
necessarily equivalent to use, as that 41% could have been augmented by 
stockpiles existing before 2001, and/or some of that 41% could have 
been stockpiled, rather than used during the calendar year 2001. EPA 
does not normally collect usage data. However, the usage data that is 
commercially available (so-called Doanes data) suggest that the use of 
MeBr in 2001 may have been closer to 47%.
    Regarding Article 5 countries, under the Protocol, the Article 5 
countries have an obligation to freeze their consumption in 2002 at the 
average level of their consumption during 1995-1998. In the aggregate, 
the compliance baseline of the 114 developing countries is 9233 Ozone 
Depleting Potential (ODP) tonnes. Of these 114 countries, almost 50 do 
not consume any MBR at all, an additional 32 have a baseline of below 
15 ODP tonnes, and only 6 countries have a baseline of over 500 ODP 
tonnes. This compares to the US baseline of over 15,000 ODP tonnes, and 
the US critical use exemption request for continuing use of almost 6000 
ODP tonnes. Under the Protocol, beginning this year, developing 
countries are not allowed to increase their consumption beyond their 
baseline limits, and while we will not have full 2002 data until the 
end of this year, we anticipate that this obligation will be met. In 
addition to achieving the freeze in 2002, developing countries are 
required to reduce their consumption level by 20% in 2005, and they are 
required to phaseout their consumption by 2015. Because of these 
obligations, we fully expect Article 5 consumption to decrease between 
now and 2005, and between 2005 and 2015. This expectation is bolstered 
by the commitments that have been made by over 20 countries through the 
Multilateral Fund to achieve a virtual phaseout of MBR between 2004 and 
2010, five to ten years faster than required under the Protocol
    Question 4) If the United States were to be in violation of its 
obligations under the Montreal Protocol, what legal recourse would be 
available to other counties both under the Montreal Protocol and any 
other international agreements? Could U.S. exports to other signatories 
be affected? What US products or commodities could be affected?
    Response: Given the foreign affairs and treaty aspects of the 
question you pose, we have coordinated our response with the Department 
of State. Our joint response follows.
    In 1997, the United States actively participated in negotiations 
with the Parties to the Protocol, and agreed on a phaseout schedule for 
MeBr. That schedule became a treaty obligation and it was subsequently 
put into US law by Congress. Although the process for consideration of 
legal recourse that other Protocol Parties could have under the 
Protocol is clear, the specific actions that may be taken would likely 
be effected by the manner in which a violation was brought about and 
the extent of any such violation. In this respect, it should be noted 
that the monetary consequences of non-compliance under the Clean Air 
Act to producers and importers makes the probability of accidental non-
compliance in the United States a very remote possibility. Assuming, 
however, that the United States were to take non-compliant acts, there 
are at least two international fora where non-compliance could be 
raised as a legal matter.
    First, the Protocol provides for bilateral dispute settlement under 
terms agreed in the Vienna Convention. As a result, although this 
provision has never been used before, it is theoretically possible that 
another Party or Parties could invoke these provisions against us. 
Although the United States has not opted for the possibility of binding 
arbitration under the Protocol, if this provision were invoked, the 
Protocol would require the United States to go through a conciliation 
procedure. No dispute settlement mechanisms have been invoked before 
under any of the existing major environmental agreements, so, even if 
non-binding, the results of any conciliation procedure could be viewed 
as significant.
    Second, the Protocol has a well-established non-compliance 
procedure that can be triggered by the Protocol's secretariat or 
another Protocol Party, and reviewed by the Protocol's Implementation 
Committee. In the proposed case, the United States would likely find 
itself subject to that procedure once we reported our non-compliant 
MeBr production and/or consumption. That Committee is charged with 
reviewing cases of non-compliance, and making recommendations to the 
Parties on ``steps to bring about full compliance with the Protocol.'' 
In the U.S. view, this would not include any binding measures as there 
is no authority in the Protocol for the imposition of binding measures 
by the Implementation Committee.
    In 1992, the Parties agreed to an indicative list of measures that 
may be taken by a Meeting of the Parties with respect to non-
compliance. That list consisted of the following actions:
    A. Appropriate Assistance, including assistance for the collection 
and reporting of data, technical assistance, technology transfer and 
financial assistance, information transfer and training.
    B. Issuing cautions
    C. Suspension, in accordance with the applicable rules of 
international law concerning the suspension of the operation of a 
treaty, of specific rights and privileges under the Protocol, whether 
or not subject to time limits, including those concerned with 
industrial rationalization production, consumption, trade, transfer of 
technology, financial mechanism and institutional arrangement.
    In the past, where non-compliance has always been the result of 
either an accident, or an event outside of the control of the Party 
concerned, the Implementation Committee has met with the Party and 
recommended agreement on a specific ``get well plan'' including interim 
reduction milestones that was designed to bring the Party back into 
compliance in an expeditious manner. These get well plans were then 
adopted by a meeting of the Parties, and progress on meeting agreed 
milestones was reviewed annually.
    The Protocol Parties have not to date considered a case of 
purposeful, conscious non-compliance on the part of any Party. In such 
a situation, the initial process would be the same as that described 
above. Consistent with the terms of the Protocol, the case of non-
compliance would be reviewed by the Protocol's Implementation 
Committee. However, consideration of a case of conscious non-compliance 
with the MeBr provisions of the Protocol by the United States could be 
expected to take on a different tone. Given that the United States is 
the world's largest MeBr producer and consumer, and given a purposeful, 
unilateral breach of the Protocol, it is likely that the Implementation 
Committee and the Parties would consider using the full extent of the 
powers authorized under the Protocol for cases of non-compliance. This 
includes authorizing other Parties to suspend the treaty's operation, 
in whole or in part, as between themselves and the United States. While 
the authority would not necessarily, in the U.S. view, include 
suspending trade in MeBr with the United States, other Parties may take 
that view and push for such a result with the Meeting of the Parties.
    Apart from the possibilty that the whole Protocol or parts of it 
could be suspended, is the possibility that in light of U.S. non-
compliance individual developing countries might walk away from their 
obligations on MeBr and perhaps even all substances. Developing 
countries might make this decision to walk away from their Montreal 
Protocol obligations because U.S. methyl bromide obligations (even the 
50% to 30% reduction) are equivalent to many developing countries' 
entire consumption of all ozone-depleting substances under the Montreal 
Protocol, including CFCs, halons, carbon tetrachloride, methyl 
chloroform and methyl bromide. Large scale defections from the Protocol 
could have significant health and environmental consequences. While 
many developing countries on an individual level only consume a small 
amount of ozone depleting substances, the combined impact of many small 
users failing to meet their targets is large. This is particularly a 
concern as developing countries have not yet faced a final phaseout 
obligation with respect to the chlorofluorocarbons, the CFCs. These are 
highly potent ozone depleters, and an unchecked growth in their use in 
developing countries into the future could negate the billions of 
dollars already invested by the U.S. and other developed countries in 
ozone layer protection.


</pre></body></html>
